<html>
<title> - THE CORAL REEF CONSERVATION ACT OF 2000, EXECUTIVE ORDER 13089, AND THE OCEANIC CONDITIONS CONTRIBUTING TO CORAL REEF DECLINE</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 THE CORAL REEF CONSERVATION ACT OF 2000, EXECUTIVE ORDER 13089, AND 
       THE OCEANIC CONDITIONS CONTRIBUTING TO CORAL REEF DECLINE

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             June 27, 2002

                               __________

                           Serial No. 107-134

                               _________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 _________


                       U. S. GOVERNMENT PRINTING OFFICE
80-420                         WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


















                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                


















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 27, 2002....................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     3
    Underwood, Hon. Robert A., a Delegate in Congress from Guam, 
      Prepared statement of......................................    29

Statement of Witnesses:
    Buddemeier, Dr. Robert W., Senior Scientist, Kansas 
      Geological Survey, University of Kansas....................    64
        Prepared statement of....................................    66
    Cohen, Dr. Anne, Research Associate, Woods Hole Oceanographic 
      Institution................................................    42
        Prepared statement of....................................    44
    Keeney, Timothy R.E., Deputy Assistant Secretary for Oceans 
      and Atmosphere, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................    12
        Prepared statement of....................................    15
    Manson, Craig, Assistant Secretary for Fish and Wildlife and 
      Parks, U.S. Department of the Interior.....................     4
        Prepared statement of....................................     5
    Ogden, Dr. John C., Director, Florida Institute of 
      Oceanography...............................................    77
        Prepared statement of....................................    80
    Sobel, Jack A., Senior Director, Ecosystem Protection, The 
      Ocean Conservancy..........................................    22
        Prepared statement of....................................    24
    Strong, Dr. Alan E., Team Leader and Project Manager, Coral 
      Reef Watch Program, National Environmental Satellite, Data, 
      and Information Service, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................    52
        Prepared statement of....................................    55

Additional materials supplied:
    Coloma-Agaran, Gilbert S., Chairperson, Department of Land 
      and Natural Resources, State of Hawaii, Statement submitted 
      for the record by The Honorable Neil Abercrombie...........    31
    Peau, Lelei, Chairman, The U.S. All Islands Coral Reef 
      Initiative, Coordinating Committee, Statement submitted for 
      the record by The Honorable Neil Abercrombie...............    30



















OVERSIGHT HEARING ON THE CORAL REEF CONSERVATION ACT OF 2000, EXECUTIVE 
  ORDER 13089, AND THE OCEANIC CONDITIONS CONTRIBUTING TO CORAL REEF 
                                DECLINE

                              ----------                              


                        Thursday, June 27, 2002

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to other business, at 10:24 
a.m., in room 1324, Longworth House Office Building, Hon. Wayne 
Gilchrest [Chairman of the Subcommittee] presiding.
    Mr. Gilchrest. We now turn our attention to the oversight 
hearing on coral reefs.
    I would like to ask the Honorable Craig Manson, the 
Assistant Secretary for Fish, Wildlife and Parks, Department of 
Interior; Mr. Timothy Keeney, Deputy Assistant Secretary for 
Oceans and Atmosphere, National Oceanic and Atmospheric 
Administration, U.S. Department of Commerce; Mr. Jack Sobel, 
Senior Director, Ecosystem Protection Program, the Ocean 
Conservancy to come forward.
    Thank you, gentlemen for being here this morning.

  STATEMENT OF THE HON. WAYNE GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Today, we are holding a hearing on a matter 
of great importance to all of us. Working with John Olver and a 
number of other members, we have a Climate Change Caucus which 
is working as hard as it can as a caucus in the Congress to 
inform members about some of the problems and the nature of the 
environmental variables that will spin out of control if there 
is no change in our energy policy.
    One of those degrading environmental variables is the 
depletion of coral reefs and the food web and ecosystem that is 
disrupted and then fragmented and then what are the 
consequences of that along with a number of other things.
    Just last week, two major articles were published that 
described coral diseases that have been inflicting significant 
mortality worldwide. These articles focused on different 
diseases, but both made the same connection: coral diseases are 
increasing in prevalence and severity as ocean waters warm in 
response to global warming and climate change. One article 
reported that bacteria commonly associated with human waste 
were responsible for a lethal coral disease found in the 
Florida Keys. This is just another disturbing example of how 
far the reach of human activity extends into the natural world.
    Today, we have two panels of experts testifying. The first 
panel is to testify on the implementation of the Coral Reef 
Conservation Act of 2000 and the Executive Order 13089 
concerning coral reef protection by the Executive Agencies. 
Coral reef activities conducted by NOAA were funded last year 
at--it says at ``over'' $28 million. I guess the testimony 
should say ``At only a small amount of $28 million, that should 
be increased.'' Change that line in the opening statement.
    We are seeking to examine what activities have been 
conducted and, importantly, the level of success that they have 
achieved.
    The second panel consists of experts in paleobiology, 
climatology, and oceanography. They will speak on the multiple 
impacts of climate change on coral reef ecosystems. I 
appreciate these scientists coming from across the U.S. to 
testify on this issue that is gravely important to our marine 
ecosystems.
    We are at an important point in time, a time where 
historically unprecedented declines in the coral ecosystems are 
occurring. They are not just predicted or something that may 
happen; they are occurring right now.
    This is also a time when scientists around the world have 
made connections between human impacts on climate and the die-
offs of corals in the oceans. It would be a national tragedy 
and a monumental mistake if we lost our nation's coral reefs, 
our rain forests of the ocean, because we as policymakers 
failed to pay attention to the preponderance of evidence 
linking coral reef decline to climate change.
    So, I look forward to your testimony this morning as to how 
effective U.S. policy has been up to this point and how we can 
communicate the importance of that so we can increase the 
appropriations to this effort.
    Also, it may not be in your testimony today, but if you 
have any ideas on how we can communicate the kind of data that 
seems to be fairly prevalent among the scientific community 
that this great chasm apparently exists between that and 
policymakers, whether it is a local elected official or elected 
officials on the national level or those in the international 
community.
    I was remarking this morning to one of my staff that it 
would be interesting to fund a GAO study to see what the 
percentage as a whole of dialog in Congress is based on merit 
or based on--I use the acronym or the term--BS. It would be 
interesting to see how that flowed. Of course, I guess you 
would have to establish some criteria or methodology to do 
that.
    I am not impugning the integrity of my colleagues, because 
I am one of those members. But as we weave through this maze of 
policy in the U.S. Congress, your effort, I would say, needs to 
be quadrupled, not only at the hearings where we testify, but a 
challenge to take what you know to the community so the Nation 
as a whole has a basic frame of reference for what is important 
as far as the climate is concerned.
    One last comment: I just hope that our great, great 
grandchildren who will be young people in the 21st Century will 
look back on the policymakers and the judgments and decisions 
we made in the past and the next couple of years and either 
bless us for our prudence and our foresight, or be very 
disappointed because they bear the ramifications of those 
decisions.
    At any rate, I guess I feel philosophical this morning. You 
don't need to bear the brunt of that.
    [The prepared statement of Mr. Gilchrest follows:]

  Statement of The Honorable Wayne T. Gilchrest, a Representative in 
                  Congress from the State of Maryland

    Good morning, today we are holding a hearing on a matter of great 
importance to myself and many other Subcommittee members, the decline 
of coral reef ecosystems and whether Federal actions to protect them 
have been successful.
    As the Co-Chair of the House Climate Caucus along with my colleague 
and friend from Massachusetts John Olver, I am particularly interested 
in the variety of ecological effects produced by climate change. This 
hearing will examine one of the most striking and disturbing, the 
effect of climate change on coral reefs.
    World wide, coral reef ecosystems are in decline. Once vibrant 
colorful communities, many reefs are now bleached and depleted ruins. 
These magnificent ecosystems, that are so rich in life, diversity, and 
beauty are under a constant pressure from many fronts. Marine 
scientists have documented a series of ills responsible for killing the 
reefs. The problems range from destructive fishing practices like using 
dynamite, to new and undescribed diseases, and increases in sea 
temperatures that cause mass die-offs of corals.
    Just last week, two major articles were published that describe 
coral diseases that have been inflicting significant mortality 
worldwide. These articles focused on different diseases, but both made 
the same connection--coral diseases are increasing in prevalence and 
severity as ocean waters warm in response to global warming and climate 
change. One article reported that bacteria commonly associated with 
human waste were responsible for a lethal coral disease found in the 
Florida Keys--another disturbing example of how far our reach extends.
    Today, we have two panels of expert witnesses testifying. The first 
panel is to testify on the implementation of the Coral Reef 
Conservation Act of 2000 and Executive Order 13089 concerning coral 
reef protection by the Executive Agencies. Coral reef activities 
conducted by NOAA were funded last year at over $28 million. We are 
seeking to examine what activities have been conducted and importantly 
the level of success they have achieved.
    The second panel, consists of experts in paleobiology, climatology, 
and oceanography. They will speak on the multiple impacts of climate 
change on coral reef ecosystems. I appreciate these scientists coming 
from across the U.S. to testify on this issue that is so gravely 
important to our marine ecosystems.
    We are at an important point in time. A time where historically 
unprecedented declines in the coral ecosystems are occurring--they are 
not just predicted, or something that may happen--they are occurring 
right now. This is also a time when scientists around the world have 
made connections between human impacts on climate and the dieoffs of 
corals in ocean.
    It would be a national tragedy and a monumental mistake if we lost 
our nation's coral reefs--our rainforests of the ocean--because we as 
policy makers failed to pay attention to the preponderance of evidence 
linking coral reef decline to climate change.
    I appreciate our witnesses coming today, and I look forward to 
hearing what they have to say.
                                 ______
                                 
    Mr. Gilchrest. I would like to start this morning with the 
Honorable Craig Manson, Assistant Secretary for Fish, Wildlife 
and Parks. You may begin, sir.

 STATEMENT OF HON. CRAIG MANSON, ASSISTANT SECRETARY FOR FISH, 
      WILDLIFE AND PARKS, U.S. DEPARTMENT OF THE INTERIOR

    Judge Manson. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before you today. This is the first time 
that I have had the pleasure of appearing before this 
particular Subcommittee. Of course, it is on an issue of 
considerable interest to all of us.
    As part of my duties as Assistant Secretary for Fish, 
Wildlife and Parks, Secretary Norton has delegated to me the 
role of Co-Chairman of the United States Coral Reef Task Force. 
The Task Force was established by Executive Order 4 years ago. 
It was directed to inventory, monitor and identify the major 
causes and consequences of degradation of coral reef 
ecosystems.
    The chairmanship is shared jointly by the Departments of 
Interior and Commerce.
    The task force has developed and approved a national action 
plan to carry out its Executive Order mandate and a charter to 
formalize its operations. The final text of an implementation 
policy, which was developed largely prior to my confirmation, 
is currently under review. I anticipate that we will go forward 
with the final policy following the next task force meeting, 
which is set for early October.
    The Department of Interior is the nation's largest manager 
of coral reefs. The United States Fish and Wildlife Service 
manages 13 National Wildlife Refuges that include 2.9 million 
acres of coral reefs habitat and associated ocean habitat. Ten 
of these are in the Pacific. Three are in South Florida and the 
Caribbean.
    The National Park Service has ten units that include about 
275 acres of coral reef and associated ocean habitat mainly in 
the South Atlantic and the Caribbean. They host about 1.5 
million visitors a year and generate millions of dollars for 
the local economies.
    Other bureaus of the department are involved as well. The 
minerals management service conducts research into the effects 
of oil spills on coral reefs. The United States Geological 
Survey has conducted extensive research in all aspects of coral 
reef ecosystem health.
    The Office of Insular Affairs which has responsibility for 
the territories such as American Samoa, Guam, the Commonwealth 
of the Northern Mariana Islands, and the Virgin Islands has 
assisted those territories and the associated States, the 
Federated States of Micronesia, the Republic of the Marshall 
Islands, and Palau in coordination with NOAA to obtain funding 
to care for their coral reefs.
    There are a few issues that I would like to focus on today. 
The first is a frank admission that our coral reef activities 
in the department have not had the policy oversight during a 
rather prolonged transition at the Department of Interior. The 
career staffs of the Bureaus did an outstanding job in ensuring 
that nothing went backwards. But until recently, we had too few 
senior political appointees with too many issues for coral 
reefs to become a priority.
    I am addressing this now and you will see considerably more 
attention toward and visibility from our coral reef activities 
in the future.
    On a much more positive note, Dr. Robert Buddemeier, one of 
the world's leading coral researchers is, as you noted, 
testifying on the next panel. He is going to propose that our 
Pacific Island refuges, because of the longitudinal scale of 
the system and their protected status, serve as platforms for a 
long-range research project on the impacts of global climate 
change on coral reefs and the ocean generally.
    These islands are either uninhabited or inhabited only by 
military or scientific personnel and commercial fishing is 
prohibited. Accordingly, they are essentially free of the non-
climate related causes of stress found on coral reefs 
elsewhere.
    A similar effort would be aimed at the Caribbean coral 
reefs which, in contrast, are highly stressed by human impacts. 
I want to advise the Subcommittee that we are enthusiastically 
supporting the use of our Pacific Island refuges for Dr. 
Buddemeier's proposal. Although we cannot afford to fund his 
research on our own, we will work closely with Dr. Buddemeier, 
the science agencies within Interior, our partners at NOAA and 
elsewhere on the Coral Reef Task Force and the academic 
community to make this work.
    We will make appropriate park and refuge units in the 
Caribbean available as research sites also.
    Dr. Buddemeier will explain his proposal during his 
testimony, and I won't further anticipate his comments. I have 
supplied the Committee with extensive written testimony that 
details the activities of the various Bureaus of the Department 
of Interior in the coral reef area. With the Chairman's 
permission, I would refer the Committee to those written 
remarks.
    In closing, I would note that not only does the Department 
of Interior have the responsibility for the well-being of the 
coral reef resources under its jurisdiction, the department 
also has legal and enforcement authorities that we use in 
protection of these important ecosystems.
    Through our Science and Resource Management Bureaus we 
conduct a wide variety of programs that directly or indirectly 
protect coral reefs for the benefit and enjoyment of the 
public.
    We are committed to working toward more effective 
coordinated responses to coral reef protection both within the 
department, with our partners at NOAA and the other partners on 
the Coral Reef Task Force.
    That concludes my statement, Mr. Chairman, and I would be 
pleased to respond to any questions that you may have.
    Mr. Gilchrest. Thank you, Mr. Manson.
    [The prepared statement of Judge Manson follows:]

 Statement of Craig Manson, Assistant Secretary for Fish and Wildlife 
               and Parks, U.S. Department of the Interior

    Mr. Chairman, I appreciate the opportunity to appear before you 
today. As part of my duties as Assistant Secretary for Fish and 
Wildlife and Parks, the Secretary has delegated to me the role of Co-
Chairman of the United States Coral Reef Task Force.
    In an effort to prevent further loss of coral reef ecosystems, 
Executive Order 13089 on Coral Reef Protection was issued in June 1998. 
The executive order established the U.S. Coral Reef Task Force, and 
directed it to develop and implement a comprehensive program of 
research and mapping to inventory, monitor, and ``identify the major 
causes and consequences of degradation of coral reef ecosystems.'' The 
order directs Federal agencies to use their authorities to protect 
coral reef ecosystems and, to the extent permitted by law, prohibits 
them from authorizing funding or carrying out any actions that will 
degrade these ecosystems.
    The chairmanship is shared jointly by the Departments of Interior 
and Commerce. The other Federal members are the Departments of 
Agriculture, Defense, Justice, State and Transportation, the 
Environmental Protection Agency, the National Aeronautics and Space 
Administration, the National Science Foundation and the U.S. Agency for 
International Development. Early in its existence the Task Force made 
the wise decision to invite the Governors of the States with coral 
reefs in their waters, and the Governors of the Territories and the 
Associated States to join, and they have played a valuable role with 
the Task Force.
    The Task Force has developed and approved a National Action Plan to 
carry out its Executive Order mandate and a Charter to formalize its 
operations. The final text of an Implementation Policy, largely 
developed prior to my confirmation, is currently under review, and I 
anticipate we will go forward with the final policy following our next 
Task Force meeting in early October.
    Within the Department of the Interior, we are working at more 
closely coordinating the coral reef activities of the several bureaus 
which have responsibilities for coral reef research and conservation. 
This includes the Fish and Wildlife Service, the National Park Service, 
the Minerals Management Service, the Geological Survey and the Office 
of Insular Affairs.
The Department of the Interior and Coral Reefs
    Coral reefs and associated seagrass and mangrove communities are 
among the most biologically complex and diverse ecosystems on Earth. 
They provide habitat to one-third of all marine fish species, build 
tropical islands, protect coasts from waves and storms, contain an 
array of potential pharmaceuticals, and support U.S. tourism and 
fishing industries worth billions of dollars. Coral reefs are also 
fundamental to the fabric of local communities, providing a source of 
food, materials, and traditional activities.
    Over the past few decades, public awareness of the outstanding yet 
fragile character of these ecosystems has grown, prompting increased 
state and Federal efforts to protect and preserve the Nation's coral 
reefs. The Department of the Interior protects these sensitive habitats 
at twenty-four National Parks and National Wildlife Refuges, 
collectively amounting to almost 3,600,000 acres of coral reefs and 
other submerged lands. In addition, the Department conducts pioneering 
scientific research to determine the structure, function, status, and 
condition of our Nation's coral reefs. However, most of the Nation's 
coral reefs have not been mapped nor have their conditions been 
assessed or characterized.
    Studies by the U.S. Geological Survey, the National Oceanic and 
Atmospheric Administration, and others indicate that coral reefs are 
deteriorating in many places worldwide, and many are in crisis. 
Symptoms include loss of hard corals, increased abundance of algae, 
diminished recruitment of coral larvae, reduced biological diversity, 
and a dramatic increase in bleaching episodes and disease outbreaks. 
Scientists and managers still lack critical information about the 
causes, but evidence suggests a variety of human forces, including 
population increases, shoreline development, increased sediments in the 
water, trampling by tourists and divers, ship groundings, poor water 
quality from runoff and inadequate sewage treatment, overfishing, and 
fishing with poisons and explosives that destroy coral habitat. These 
stresses act separately and in combination with natural factors, such 
as hurricanes and disease, to degrade reefs.
    The Department also works with domestic and international partners 
through the International Coral Reef Initiative. Launched in 1994 with 
the support of the United States government, this initiative aims at 
concerted global action to protect and monitor coral reefs around the 
world by building and sustaining partnerships, programs, and 
institutional capacity at the local, national, regional, and 
international level. In carrying out E.O. 13089, the Department is now 
working to address duplication and lack of proper coordination where 
they occur.
U.S. Fish and Wildlife Service
    The mission of the U.S. Fish and Wildlife Service (FWS) is to work 
with others to conserve, protect, and enhance fish and wildlife and 
their habitats for the continuing benefit of the American people. As 
threats mount to coral reefs worldwide, FWS is applying its unique 
expertise to protect these resources through a variety of management 
and operational programs. FWS manages 13 National Wildlife Refuges that 
include significant coral reefs. FWS also protects and restores reefs 
and other species and habitats, enforces laws, and works with other 
countries to foster reef conservation worldwide. Virtually all of these 
approaches are founded upon partnerships--collaborative efforts with 
other Federal agencies, State, local, and Territorial governments, and 
concerned private groups. In combination, these dedicated partners can 
help reduce the threats to coral reefs and conserve these vital parts 
of our global heritage.
Programs and Recent Accomplishments Related to Coral Reefs
    National Wildlife Refuges: FWS manages 10 National Wildlife Refuges 
(NWR) in the Pacific, which include approximately 2,164,000 acres of 
coral reefs and adjacent ocean habitat, and 3 refuges in South Florida 
and the Caribbean totaling more about 756,000 acres. Among these are 
two of the System's newest refuges--Palmyra Atoll NWR and Kingman Reef 
NWR. Established in 2001, these refuges contain some of the most 
extensive and biologically important reefs in the Pacific. The Refuge 
System administers a national network of lands and waters for the 
conservation, management, and where appropriate, restoration of the 
fish, wildlife, and plant resources and their habitats for the benefit 
of present and future generations of Americans. To ensure that long-
term conservation goals are achieved, the FWS is developing and 
implementing Comprehensive Conservation Management Plans for all of its 
refuges with coral reefs. Refuges are also developing and employing 
innovative tools for managing coral reefs, including marine zoning, 
habitat restoration, education and outreach, law enforcement, research 
and monitoring, and improving the public's enjoyment of the refuges.
    Coral Reef Conservation, Restoration, and Protection: One FWS goal 
is to ensure that human activities do not adversely affect coral reefs 
or species, such as endangered sea turtles, that rely on healthy reefs. 
FWS programs for endangered species protection, coastal habitat 
restoration, fisheries management, review of Federal actions, as well 
as direct assistance to States and Territories all help to conserve 
coral reefs. The FWS is also statutorily designated to comment on Clean 
Water Act section 404 permits and other water-related development 
activities under Federal authorization or permit. FWS biologists 
regularly coordinate with Federal, State, Territorial, and private 
groups to ensure that during project development, coral reef fish and 
wildlife are considered equally with other project-related features and 
adverse impacts to coral reef ecosystems from coastal and nearshore 
marine projects are avoided or reduced. When accidents harm reefs, FWS 
works with partners to assess the damage and expedite reef recovery.
    Other coral conservation efforts are more proactive: for example, 
the coastal partnership program implements projects that protect 
coastal habitats before they are degraded. Examples of conservation 
efforts include conducting surveys of coral reefs near proposed 
development projects to assess potential impacts, developing 
recommendations to preserve the integrity of reefs, and deploying 
navigational aids in areas to prevent boat groundings and anchor 
damage.
    Enforcing International Trade Laws: FWS enforces international fish 
and wildlife-related trade laws by inspecting coral imports, 
intercepting illegal shipments, and collecting and maintaining U.S. 
trade data for coral reef species. International efforts to control the 
trade of corals include development of the Guide to Indian and Pacific 
Corals Common in the Wildlife Trade, a reference to assist inspectors 
and enforcement officers. In 1989, concern about the effects of 
international coral trade prompted the countries involved with the 
Convention on International Trade in Endangered Species to list all 
stony corals in Appendix II, which allows enforcement agencies to 
monitor and regulate commercial imports.
    In addition, E.O. 13089 required that the United States assess its 
role in the international trade in coral and coral reef species, and 
recommend appropriate actions to ensure sustainable use of coral reef 
resources. FWS, working with other Task Force members, completed an 
assessment which showed that the United States is the primary market 
for imported coral and live fish, which are used in jewelry and the 
aquarium trade. FWS is also working with partners to combat the use of 
sodium cyanide poisoning, a method for collecting live reef fish for 
food and the aquarium industry that causes widespread destruction of 
the living reef.
    International Conservation of Coral Reefs: FWS is fostering the 
conservation of reefs in other countries through training and education 
programs, as well as projects that promote the conservation of species 
and habitats within a water-shed framework. Among the important 
habitats linked to coral reefs and targeted for conservation are 
seagrass beds and mangrove forests. The Western Hemisphere Program 
sponsors protected area manager training through two international 
programs, Mexico/RESERVA and Brazil/AMUC. The program also awards small 
grants to promote the involvement of local communities and 
organizations in coral reef conservation activities.
National Park Service
    The National Park Service (NPS) manages 385 units in the National 
Park System, protecting many of our diverse natural, cultural, and 
recreational resources. NPS achieves these goals by working 
cooperatively with Federal, State, and local agencies, Native American 
authorities, user groups, and adjacent landowners. Ten Park units with 
coral reef habitats protect almost 275,000 acres (270,000 acres in the 
South Atlantic and Caribbean and 5,000 in the Pacific). Among these is 
Dry Tortugas National Park in South Florida, established in 1908 as the 
world's first marine protected area. On July 1, 2001, it became part of 
the largest fully protected underwater ecological reserve in North 
America with the creation of the Tortugas Ecological Reserve. Biscayne 
National Park, established in 1968 to protect and preserve a nationally 
significant marine ecosystem, is the largest NPS coral reef unit, with 
about 172,500 acres of coral reefs, mangrove shorelines, and coastal 
estuaries. The nearshore reefs at War in the Pacific NHP, Guam, are 
home to an estimated 3,500 to 4,000 species and are among the most 
diverse ecosystems within the National Park System. As a global leader 
in the management of underwater parks, NPS has long been involved in 
the development of innovative and improved coral reef monitoring and 
management tools. NPS works internationally to share expertise and 
knowledge with others and to improve the level of protection afforded 
coral reef parks in the United States and elsewhere.
Programs and Recent Accomplishments Related to Coral Reefs:
    Education and Outreach: NPS recognizes that strengthening the 
capacity of communities and individuals to conserve and use coral reefs 
and related ecosystems in a sustainable manner requires effective 
public education. Each of the 10 NPS units with coral reef resources 
offers interpretive programs, augments school curricula, coordinates 
public workshops, and implements programs for both recreational and 
commercial user groups, including those engaged in fishing, boating, 
SCUBA diving, snorkeling, and underwater photography. Activities range 
from video presentations, to underwater trails, to extensive 
curriculum-based education programs. Other examples include the much-
acclaimed underwater interpretive trails established at Virgin Islands 
National Park and Buck Island Reef National Monument. A new Center of 
Research and Learning, hosted by Biscayne National Park, has received 
NPS approval as part of a national network of Learning Centers funded 
by the NPS Natural Resource Challenge, an initiative to improve natural 
resource stewardship.
    Natural Laboratories: National parks continue their long tradition 
of serving as coral reef research sites. Groundbreaking, innovative 
research was conducted from 1969-71 during the Tektite I and II 
underwater habitat projects at the Virgin Islands National Park. Early 
research at both Biscayne and Dry Tortugas National Parks revealed the 
level of human impact to reefs due to recreational diving and fishing. 
This research led to pioneering use of reef mooring buoys and 
designated ship anchorages to reduce impact to reefs. NPS currently 
administers and coordinates research on coral reefs with other 
government agencies and universities on topics ranging from long-term 
ecosystem monitoring of water quality, to fish landings, and to effects 
of hurricanes and coral diseases. At War in the Pacific National 
Historic Park, assessments of the effects of reef sedimentation caused 
by accelerated upland erosion from human-set savanna wildfires will 
result in the development of best management practices designed to 
alleviate this potentially serious coral reef impact. A 3-year joint 
effort with the National Oceanic and Atmospheric Administration and 
U.S. Geological Survey has completed mapping the coral reef ecosystems 
of Puerto Rico and the U.S. Virgin Islands. Other continuing efforts 
include long-term studies of endangered sea turtles.
    Restoration and Recovery: Although coral reef resources within the 
National Park System receive protection as national parks, they are 
continually subjected to damage from both natural events and human 
stresses, such as fishing, recreational uses, environmental pollution, 
anchor damage, and ship and boat groundings. Six of the ten coral reef 
NPS units allow commercial fishing in accordance with their authorizing 
legislation. To protect these fragile resources, four parks, Buck 
Island Reef National Monument, Dry Tortugas National Park, Virgin 
Islands National Park, and Virgin Islands Coral Reef National Monument, 
have established fully protected zones for certain areas in which all 
forms of resource extraction are prohibited. In addition, NPS is 
responding to degradation or damage from impacts such as boat 
groundings. For example, Biscayne National Park suffers more than 200 
reported boat and ship groundings yearly. To reverse widespread 
destruction of seagrass beds and coral reefs, NPS has taken the lead in 
applying Natural Resource Protection Act authorities to recover 
damages. Since 2000, Biscayne National Park has been awarded $2.1 
million in damages to cover the costs of assessing, monitoring, and 
restoring injuries sustained from the Motor Tanker Igloo and the Tug 
Allie-B. In 2000, Virgin Islands National Park completed implementation 
of a Resource Protection Plan. Under the plan, 211 moorings and 111 
resource protection buoys were installed to allow access to natural 
areas while preventing anchor damage to benthic habitats.
    Monitoring: Since 1989, NPS and the USGS have jointly conducted 
coral reef monitoring programs for the Atlantic-Caribbean, focusing on 
natural and human disturbance to reefs around the U.S. Virgin Islands. 
The Coral Reef Monitoring Manual produced by NPS in 1994 has become an 
internationally recognized source of information on methods and 
techniques. The manual has been updated by USGS, translated into 
Spanish, and made available electronically over the Internet. An 
innovative approach to monitoring coral reefs was developed by the 
joint NPS/USGS Inventory & Monitoring Program. The method combines a 
SONAR-based underwater positioning system with digital videotape 
recordings to create the most scientifically rigorous reef-monitoring 
protocol in the world. This rigorous method has confirmed the continued 
decline of live coral documented by previous methods. Dedicated in 
1997, the National Park of American Samoa contains over 2,500 acres of 
prime Indo-Pacific coral reefs and nearshore habitats. Scientists and 
resource managers at the Park are determining the ``Vital Signs'' of 
their coral reefs by developing new protocols that are appropriate to 
small-scale parks.
    Resource Management: In 2001, more than 30,000 acres of seagrass 
beds, coral reefs, mangrove shorelines, and other vital marine areas 
were designated for protection and management by the NPS. Over 12,000 
acres were designated under the new Virgin Island Coral Reef National 
Monument, and an additional 18,000 acres were added to the existing 
Buck Island National Monument. The addition of these areas to the NPS 
system will provide additional protection for the marine mammals, sea 
turtles, and seabirds that frequent these areas, as well as countless 
species of fish and invertebrates. Dry Tortugas National Park has 
adopted a zoning plan to protect and manage this outstanding area, 
which includes exceptional reef, spawning and nursery habitats, as well 
as shipwrecks and other cultural resources. General Management Plans 
for the other coral reef parks are also being updated to provide a road 
map for each park to meet its resource protection and management goals.
    International Marine Protected Area Network: The NPS, in 
cooperation with the United Nations Environment Program in Jamaica, is 
working to improve communication among marine protected area mangers 
across the Caribbean through the Caribbean Marine Protected Area 
Management (CaMPAM) network. More than 350 CaMPAM members meet 
regularly to exchange information on emerging resource issues, 
management and research protocols, and other issues of concern to the 
resource management community.
U.S. Geological Survey
    The U.S. Geological Survey is the Nation's primary provider of 
water, earth, and biological science information related to the 
environment, natural hazards, and mineral, energy, water, and 
biological resources. The agency provides world-class research and 
monitoring programs for volcanoes and earthquakes, monitors the status 
and trends of the Nation's biological resources, and is the Nation's 
principal civilian topographic mapping agency. With research centers 
and field stations in south Florida, the U.S. Virgin Islands, Hawaii, 
and elsewhere across the Nation, USGS is providing resource managers 
with information critical to the understanding of the ecology, health, 
structure, function, and management of coral reefs. USGS scientists are 
increasing our understanding of the structure and function of reef 
communities through their studies of the mechanisms governing reef 
health and disease, geologic growth and development, sediment and 
groundwater transport, and the effects of fishing and no-take zones on 
coral reef resources.
Programs and Recent Accomplishments Related to Coral Reefs:
    Innovative Techniques for Determining Reef Health: Over the past 
decade, USGS scientists have been developing innovative techniques for 
monitoring coral reefs in the Virgin Islands National Park, Buck Island 
Reef National Monument, and Dry Tortugas National Park. A new technique 
developed by USGS and the NPS, combining a SONAR-based underwater 
positioning system with digital imaging, is the most scientifically 
rigorous reef-monitoring protocol in the world. These methods are being 
used by USGS scientists to develop indicators of reef health, such as 
the amount of live coral versus algae on the reef and the abundance of 
juvenile and adult reef fish. Results indicate that the health of coral 
reefs in a number of areas over the past decade has declined.
    New protocols are also being used to map and assess the condition 
of elkhorn coral. Once a dominant reef-building species in the 
Caribbean, elkhorn coral has suffered dramatic declines since the 1970s 
from White Band Disease and storm damage. USGS scientists are tracking 
recovery of elkhorn coral occurring in some areas and its relationship 
to reef community structure. USGS scientists have also developed a 
chamber for measuring metabolic rates (productivity) of benthic 
communities, such as coral reefs, seagrass beds, and other hard and 
sand bottom communities. The Submersible Habitat for Analyzing Reef 
Quality (SHARQ) is being tested to determine the potential for using 
benthic community metabolism as an indication of ecosystem health. By 
examining ecosystem health in terms of system processes or function, 
scientists can compare ecosystems in different geographic locations 
that might be characterized by different species of organisms. 
Monitoring efforts have begun in Biscayne National Park, Hawaii, 
Florida Bay, and Tampa Bay.
    Hawaiian Reef Fish and Habitat: USGS studies of the relationships 
between Hawaiian reef fish assemblages and their coral reef habitats 
are providing better information to help improve management of reef 
areas and design of marine reserves.
    Mapping in the Pacific: State-of-the-art multibeam mapping 
techniques are being used to map key areas around Hawaii; high-
resolution bathymetric and backscatter data are being used to address 
questions related to environmental quality, hazards, and resources. 
Maps generated by USGS in 1998 are being used to characterize the 
condition of reef resources in the Humpback Whale National Marine 
Sanctuary. USGS scientists are mapping patch reefs in Hawaii and 
Indonesia, using satellite and aerial photography to obtain information 
on the location of reefs and the active sedimentary processes that 
affect reef conditions.
    Mapping in South Florida: USGS scientists are mapping the surface 
and subsurface reef structures throughout the Florida Keys to establish 
the relationship between reef distribution and the underlying geology, 
and to evaluate factors controlling reef health within the Florida Keys 
National Marine Sanctuary and Biscayne National Park. USGS is also 
developing sediment composition data for the Florida Keys showing reef 
area and health, on the basis of a Sanctuary-wide assessment of the 
Florida Keys National Marine Sanctuary. These studies have documented 
changes in both sediment composition and coral reef development over 
the past few thousand years. Descriptive and interpretive maps of the 
Sanctuary will be produced through the use of seismic, sidescan, and 
core data. Such information is useful for future coral reef management.
    Water Quality Studies: To address concerns about recent algal 
blooms in Florida Bay and coral diseases on the reef tract, USGS 
scientists are working with the State Department of Environmental 
Protection, the U.S. Environmental Protection Agency, and university 
scientists to carry out routine water quality assessments. A network of 
submarine monitoring wells have documented the flow of contaminated 
ground water in the extremely porous limestone that underlies the area. 
The limestone receives the effluent of approximately 30,000 septic 
tanks, 10,000 cesspools, and 1,000 shallow disposal wells. USGS 
scientists are also reconstructing the history of water quality in the 
bay during the past 100-150 years, using stable isotopes and trace 
elements in fossils and corals from well-dated cores.
    Atmospheric Dust Studies: USGS geologists and coral biologists, 
along with researchers from the University of Miami Rosensteil School 
for Marine and Atmospheric Science, the University of South Florida 
Marine Center in St. Petersburg, and Duke University, are collaborating 
to determine if there is a relationship among global warming, 
deposition of dust, and Caribbean-wide outbreaks of coral diseases. 
Results indicate that during strong ``African dust events,'' the 
numbers of microorganisms can be two to three times that found during 
``clear atmospheric conditions.'' These events may be linked to 
outbreaks of disease in Caribbean corals, toxic algal blooms such as 
the red tides along Florida's coasts, and asthma in humans. Increased 
quantities of atmospheric dust began blowing westward in the early 
1970s (1 billion tons now cross the Atlantic each year) with 
desertification and expanding agriculture in northern Africa.
Office of Insular Affairs
    The Department of the Interior has administrative responsibility 
for coordinating Federal policy in the territories of American Samoa, 
Guam, the U.S. Virgin Islands, and the Commonwealth of the Northern 
Mariana Islands, and oversight of Federal programs and funds in the 
freely associated states of the Federated States of Micronesia, the 
Republic of the Marshall Islands, and the Republic of Palau. The Office 
of Insular Affairs (OIA) works to develop more efficient and effective 
government in the insular areas by recommending policies, providing 
financial and technical assistance, and strengthening Federal-insular 
relationships.
Programs and Recent Accomplishments Related to Coral Reefs:
    U.S. Islands Plan of Action: The majority of coral reefs in the 
United States are located in the insular areas. Since 1994, OIA has 
sponsored several workshops with island governments to identify local 
and regional priorities for the protection and sustainable use of their 
coral reefs. The priorities are summarized in the U.S. All Islands 
Coral Reef Initiative Strategy, available from OIA. The Strategy 
identifies a broad scope of action, from education and outreach to the 
establishment of marine protected areas and increased local 
enforcement. The Strategy is a corner-stone of the National Action Plan 
to Conserve Coral Reefs, adopted by the U.S. Coral Reef Task Force in 
March 2000.
    Coral Reef Grants: OIA, in cooperation with the National Oceanic 
and Atmospheric Administration, annually provides technical and 
financial assistance to the insular areas to improve the management and 
protection of their marine resources. Grants support a broad range of 
projects designed to fill gaps in management capacity and to develop a 
comprehensive resource management program within each of the 
jurisdictions. Notable accomplishments include the declaration of new 
protected areas, status reports on reef health, the establishment of 
local coral reef advisory groups, the development of community-based 
management plans, expanded research on coral health and restoration, 
the development of GIS information and management tools, the 
development of culturally appropriate education materials, and 
increased public awareness and community support for the sustainable 
use and conservation of coral reefs. Recognizing that overfishing poses 
a particularly serious threat to their local reef fish stocks, American 
Samoa recently banned SCUBA-assisted fishing as well as the harvest of 
live rock. With support from OIA and NOAA, the first territorial parks 
have been established in the Commonwealth of the Northern Mariana 
Islands and the U.S. Virgin Islands.
    Regional Cooperation: The Marine Resources Pacific Consortium 
(MAREPAC) was established in December 1999 with funding from OIA. 
MAREPAC is a model program that romotes regional cooperation on marine 
resource use, management, and preservation among the Pacific Islands of 
American Samoa, the Federated States of Micronesia, the Commonwealth of 
the Northern Marianas, the Republic of Palau, Guam, and the Republic of 
the Marshall Islands. MAREPAC now serves as the advisory group to the 
Association of Pacific Island Legislatures and is helping them craft 
effective legislation on the conservation and sustainable use of their 
marine resources.
    Working with the Freely Associated States: The U.S.-affiliated 
islands total fewer that 2,000 square miles of land in aggregate but 
are distributed over more than 3,000,000 square miles of ocean--an area 
equivalent to the conterminous United States. These waters are home to 
some of the most extensive and biologically diverse coral reef 
ecosystems in the world. Islanders have depended on these resources for 
a wide range of utilitarian, symbolic, and ornamental functions since 
prehistoric times. OIA works with the freely associated states to 
improve the management and use of their marine resources. With funding 
from OIA, a team of stakeholders and technical experts is designing the 
first national system of protected areas in the Federated States of 
Micronesia. Using an ecoregional planning approach, the team is 
developing a portfolio of marine and terrestrial conservation areas 
that are representative of the full array of ecological communities.
    Reef Recovery: OIA worked with other Federal and local partners to 
remove nine abandoned fishing vessels grounded by a storm on coral 
reefs in Pago Pago Harbor, American Samoa. Monitoring of the area 
indicates that some of the coral reefs are recovering. OIA also 
provided funds to the Government of Guam to assist with the recovery of 
their coral reefs following Typhoon Paka in 1997.
Minerals Management Service
    As steward of our Federal offshore lands known as the Outer 
Continental Shelf, the Department of the Interior is responsible for 
balancing the Nation's search for petroleum energy and marine minerals 
with the protection of the human, marine, and coastal environments. The 
Minerals Management Service's (MMS) environmental programs serve this 
important mission by providing the information necessary for informed 
decisions on energy and non-energy mineral planning and development 
activities for the Outer Continental Shelf.
Programs and Recent Accomplishments Related to Coral Reefs:
    Protection of Flower Garden Banks: Since the early 1970s, MMS has 
supported a comprehensive program of mapping and multidisciplinary 
study of the East and West Flower Garden Banks, located in a petroleum-
rich area in the Gulf of Mexico. The Flower Garden
    Banks are a pair of topographic features, topped by an array of 
reef-building corals and associated organisms. MMS is currently 
supporting a long-term monitoring effort, cosponsored by the National 
Marine Sanctuary Program, to assess the health of the coral reefs and 
evaluate changes in the coral community. MMS will use this information 
to evaluate the adequacy and effectiveness of current lease 
stipulations in protecting the important biological resources of the 
Flower Garden Banks. To date, scientific assessments show that the 
corals of the East and West Flower Garden Banks are healthy and 
growing. In 1996, MMS received the Federal Environmental Quality Award 
from the Council on Environmental Quality and the National Association 
of Environmental Professionals for environmental monitoring and 
research in the Flower Garden Banks National Marine Sanctuary.
    Larval Dispersal Study: MMS is supporting a study of the long-
distance dispersal of coral larvae originating from the Flower Garden 
Banks using satellite-tracked buoys. Information from this study will 
be used to establish the role of the Flower Garden Banks as a larval 
source for coral reefs of the Florida Keys and Mexico.
    Effects of an Oil Spill on Coral Reefs: MMS sponsored a major study 
of the effects of spilled crude oil on coral reefs following the 
accidental rupture of a storage tank at a coastal refinery in Bahia Las 
Minas, Panama. This 5-year study examined habitats along more than 80 
km of oiled shore, including intertidal reef flats, mangroves, seagrass 
beds, and coral reefs. A general decline in the health of coral reefs 
at control sites was observed during this study, consistent with trends 
observed across the Caribbean.
Conclusion
    As the Nation's primary steward of natural resources, the 
Department of the Interior has responsibility for the well-being of the 
coral reef resources under its jurisdiction. The Department also has 
legal and enforcement authorities used in protection of these important 
ecosystems. Through its science and resource management bureaus, we 
conduct a wide variety of programs that directly or indirectly protect 
coral reefs for the benefit and enjoyment of the public. Coral reef 
habitats and their astounding biological diversity are in decline 
worldwide, even in many protected areas. In some instances, protection 
could be made more effective with better understanding of how factors 
interact to degrade these complex systems. In others, we are doing the 
right things, but compartmentalization and fragmentation of actions 
have led to less than full effectiveness. The Department's bureaus are 
committed to working toward more effective, coordinated responses to 
coral reef protection.
    In response to Executive Order 13089, the Department is redoubling 
its efforts to protect coral reefs. We will inventory, map, and assess 
the condition of our coral reef resources; will support directed 
research that will give our managers the knowledge and tools they need 
to protect coral reefs effectively; and we will move forward with 
actions needed for conservation, mitigation, and restoration of these 
fragile ecosystems. As Co-Chair of the Coral Reef Task Force, the 
Department will be a leader in establishing linkages with other Federal 
and State agencies and other nations. Through these linkages, we hope 
to share information and technologies and ensure that protection 
efforts are coordinated to provide the maximum benefit for our world 
and for future generations.
    This concludes my formal statement, and I will be pleased to 
respond to any questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Mr. Keeney.

 STATEMENT OF TIMOTHY R.E. KEENEY, DEPUTY ASSISTANT SECRETARY 
  FOR OCEANS AND ATMOSPHERE, NATIONAL OCEANIC AND ATMOSPHERIC 
          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Keeney. Chairman Gilchrest and members of the 
Subcommittee, I would like to thank you for the opportunity to 
appear before you today to discuss the implementation of the 
Coral Reef Conservation Act of 2000 and the Coral Reef 
Executive Order, 13089.
    Before I start my remarks, I might just mention, to follow 
up on what Assistant Secretary Manson has stated, I have been 
designated by Vice Admiral Lautenbacher as his representative 
to Co-Chair the U.S. Coral Reef Task Force. So, we will get to 
work together. I am looking forward to that.
    The Department of Commerce and the National Oceanic and 
Atmospheric Administration appreciate the interest and support 
the Subcommittee has provided to address conservation of coral 
reefs and other ocean and cultural resources. Coral reefs are 
some of the most valuable and threatened ecosystems on the 
planet.
    Under attack from multiple sources such as over-fishing and 
destructive fishing practices, pollution from land, sea and 
air, habitat destruction, diseases, invasive species and 
climate change, these ancient ecosystems are deteriorating 
worldwide.
    The loss of these valuable resources has significant 
social, economic and environmental consequences here at home 
and abroad. To successfully addresses these complex issues, we 
need coordinated reef conservation efforts at all levels.
    Recognizing this need, the Act and the Executive Order were 
designed to increase the coordination and effectiveness of U.S. 
Government actions to conserve coral reef ecosystems.
    I have three main points today. First NOAA and other 
agencies have made significant progress to implement the Act 
and the Executive Order, which increase our capacity to 
conserve coral reefs both in the United States and with our 
international partners.
    Second, continuing this progress will require increased 
action, coordination and evaluation by Federal agencies, State 
and territorial governments and others nations and non-
governmental organizations.
    Third, we need to focus on using all the management tools 
at our disposal for our success. This will means changing some 
practices on land and at sea so our actions sustain reefs 
rather than degrade them, because many coral reefs depend on 
reefs beyond our borders for reproduction and survival. 
Effective conservation of U.S. coral reefs also requires 
international action.
    The good news is that many of the solutions already exist 
and if we act now we may be able to help mitigate the loss of 
these valuable resources. In fact, NOAA conducts a wide variety 
of activities related to coral reefs in fulfillment of its 
mission and authorities, including management of the nation's 
Federal fisheries, threatened and endangered species, marine 
mammals, coastal zone management, National Marine Sanctuaries, 
and National Estuary and Research Reserves, response and 
restoration, mapping and charting, and research and monitoring.
    As you know, Mr. Chairman, in 1998, the U.S. Coral Reef 
Task Force was established by Executive Order 13089 and in 
March of 2000, the task force adopted the National Action Plan 
to Preserve Coral Reefs. Since then, NOAA and other agencies 
have taken action to implement the National Action Plan and 
coordination coral reef conservation efforts.
    At its last meeting in December of 2001, the task force 
highlighted the need to improve efforts that will track 
progress to implement the National Action Plan and identify key 
areas still needing attention.
    In 2000, NOAA received $8 million in funding specifically 
for coral reef conservation activities. In fiscal years 2001 
and 2002, this funding increased to $27 million and $28 million 
respectively. The President's 2003 budget request includes $28 
million to continue NOAA's efforts. This funding will 
significantly increase the nation's capacity to conserve coral 
reefs.
    Most of the funding is going directly to NOAA's partners at 
States and territories, universities and the private sector. In 
December of 2000 the Coral Reef Conservation Act authorized 
NOAA to undertake four specific actions to help preserve coral 
reefs. First, the Act charged NOAA with developing a national 
coral reef action strategy, including goals, objectives and 
implementation plans and a summary of Federal funding available 
to advance coral reef conservation.
    NOAA will work with the task force to complete the 2002, 
2003 strategy which will be available in July for public 
comment.
    Today, I brought with me pre-publication copies of the 
strategy for the Subcommittee. It is designed to track progress 
in implementing the goals and objectives of the act and the 
National Action Plan.
    Second, the Act authorizes NOAA to establish a Coral Reef 
Conservation Grant Program to support coral reef conservation 
activities. NOAA has established the program and together with 
the Department of Interior, will allocate $5.5 million to it 
this year. A significant portion of these funds will help 
support, manage and monitor efforts in State and territorial 
waters, which contain approximately half of the U.S. reefs.
    Third, the Act authorizes establishment of a Coral Reef 
Conservation Fund to build public-private partnerships for 
coral reef conservation. NOAA established the fund in 
partnership with the National Fish and Wildlife Foundation in 
the year 2001.
    Fifteen projects have been funded to date, leveraging 
$700,000 of NOAA funds with $1.1 million in matching resources 
for a total of $1.8 million for on-the-ground coral reef 
conservation.
    Fourth, the Act authorizes implementation of a National 
Coral Reef Conservation Program to conduct a variety of 
activities to conserve coral reef ecosystems. Some of the major 
accomplishments to date include completion of coral reef maps 
in the U.S., Caribbean and 50 percent of the main Hawaiian 
Island Reefs and the launch of mapping efforts for the 
Northwest Hawaiian Islands.
    Removal of nearly 100 tons of marine debris from the 
northwest Hawaiian Island coral reefs, implementation of the 
northwest Hawaiian Island coral reef ecosystem reserve, 
expansion of NOAA's coral reef watch early warning system to 
better predict and track coral reef bleaching.
    I cite many other examples, Mr. Chairman, in my written 
statement.
    Are these activities making a difference? I believe they 
are. By providing new funding tools and information, NOAA's 
program is increasing capacity at local, State, Federal and 
international levels to reduce adverse impacts and sustain 
coral reef ecosystems.
    These are significant steps in the right direction, but we 
can't do it alone. The Executive Order of the Coral Reef Task 
Force and the Act are valuable tools to increase coordination 
among all parties and track progress toward these goals. The 
subsequent national action plan provides an excellent blueprint 
for U.S. action to conserve coral reefs.
    Aided by this guidance, NOAA and other partners have taken 
significant action to implement portions of the plan and 
requirements of the act. These actions have strengthened U.S. 
capacity to conservation coral reefs, but continued long-term 
and sustained action is needed for success.
    Some areas still need additional attention, such as 
reducing land-based sources of pollution, increasing assistance 
to international partners, and supporting education and 
enforcement efforts.
    Ultimately, successful conservation of coral reefs will be 
determined by our ability to change the way people impact coral 
systems so that our actions on land and at sea sustain coral 
reefs rather than destroy them.
    Thank you, Mr. Chairman, I would be happy to answer any 
questions.
    Mr. Gilchrest. Thank you, Mr. Keeney.
    [The prepared statement of Mr. Keeney follows:]

   Statement of Timothy R. E. Keeney, Deputy Assistant Secretary for 
Oceans and Atmosphere, National Oceanic and Atmospheric Administration, 
                      U.S. Department of Commerce

    Chairman Gilchrest and members of the Subcommittee, thank you for 
the opportunity to appear before you today to discuss implementation of 
the Coral Reef Conservation Act of 2000 (CRCA) and the Coral Reef 
Executive Order 13089. The Department of Commerce and National Oceanic 
and Atmospheric Administration (NOAA) greatly appreciate the interest 
and support the Subcommittee has provided to address conservation of 
coral reefs and other ocean and coastal resources. We look forward to 
working with you in the future to help sustain healthy ocean resources, 
and the communities and economies that depend on them.
    Coral reefs are some of the most valuable, beautiful, and 
unfortunately, threatened ecosystems on the planet. Under attack from 
multiple sources such as over-fishing, destructive fishing practices, 
pollution from land, sea and air, habitat degradation, diseases, and 
invasive species, these ancient ecosystems are deteriorating worldwide. 
At the same time, in the United States and around the world, rapidly 
growing coastal populations have increased the demand on reefs for 
food, jobs, income, recreation, tourism, and shoreline protection. 
Increased demands are also coming from markets far away from reefs. The 
international trade in coral to supply the aquarium industry has 
increased more than 400% since 1988, and the trade in live reef rock 
has increased 1700%. The U.S. is the world's largest importer of coral 
products and marine fishes for the aquarium industry. Scientists and 
businesses are searching the rich biological diversity of coral reefs 
for new cures for cancer, AIDS and other diseases. Reefs are critical 
to the million or more species that depend on them for some part of 
their life cycle. Healthy coral reefs are in high demand, and the loss 
of these valuable resources has significant social, economic and 
environmental consequences here at home and abroad.
    To successfully address these serious and complex issues, we need 
coordinated reef conservation and management efforts at local, state, 
national, and international levels. Recognizing this need, the Coral 
Reef Conservation Act (CRCA) and Executive Order 13089 were designed to 
increase the coordination and effectiveness of U.S. government actions 
to conserve and manage coral reef ecosystems. In fact, NOAA conducts a 
wide variety of activities related to coral reefs in fulfillment of its 
mission and authorities. Many of NOAA's mandates include 
responsibilities for coral reef resources and activities in areas with 
coral reefs. Examples include: Federal fisheries management, threatened 
and endangered species, marine mammals, coastal zone management, 
National Marine Sanctuaries, National Estuarine Research Reserves, 
response and restoration, mapping and charting, and research and 
monitoring. Four of NOAA's five Line Offices have undertaken activities 
related to coral reefs for many years.
    My remarks will briefly summarize NOAA's efforts to implement the 
CRCA and the Executive Order, and provide some suggestions for the 
future. I have three main points. First, NOAA and other agencies have 
made significant progress to implement the CRCA and the Executive 
Order. These actions have increased the capacity to conserve coral 
reefs, both in the United States and with international partners. 
Second, continuing this progress will require continued action, 
coordination, and evaluation by Federal agencies, states, territorial 
governments, other nations, and non-governmental organizations. Given 
the scale and magnitude of the problem, no one entity can successfully 
address these issues alone, and we need to track our progress carefully 
to remain on course. Third, we need to focus on using all of the 
management tools at our disposal for success. This will mean changing 
some practices so our actions sustain reefs rather than degrade them. 
The good news is that many of the solutions already exist to reverse 
current trends and mitigate the loss of these valuable resources.
The Challenge
    Coral reefs are complex ecosystems that provide many important 
products and services in the United States and around the world. 
Although, coral reefs cover less than 0.1 % of the ocean environment, 
they are home to at least a 100,000 described species, support 25% of 
all known global species of marine fish, and provide food, jobs, 
income, recreation, and other vital services for people world-wide. 
Coral reefs are found in over 100 countries, and many of these are 
developing nations where reefs contribute about one-quarter of the 
total fish catch. South East Asia has more coral reefs than any other 
region, the most diverse reef systems, and the world's most highly 
threatened reefs from over-fishing, destructive fishing practices, 
sedimentation, and pollution from land-based sources.
    About 7% of the world's reefs are located within U.S. waters. 
Although many U.S. coral reefs have not been adequately mapped, it is 
estimated that shallow water U.S. coral reefs--those in less than 150 
feet--cover about 7,500 square miles or about the size of Maryland. The 
majority of these shallow U.S. reefs are in the Pacific near Hawaii, 
Guam, American Samoa, and the Northern Marianas Islands. The remainder 
are located in the South Atlantic, the Gulf of Mexico, the U.S. 
Caribbean near Florida, Puerto Rico and the U.S. Virgin Islands. 
Although mapping efforts have not been completed, it is estimated that 
perhaps more than half of all U.S. reefs are located within state or 
territory waters, highlighting the important role states and 
territories have in managing the nation's coral reefs. Given this role, 
NOAA and other Federal agencies have made working with these partners 
and supporting their management efforts a top priority. Because many 
U.S. coral reefs often depend on reefs beyond our borders for 
reproduction and survival, effective conservation of U.S. coral reefs 
also requires international action.
    Coral reef ecosystems are extremely valuable. For example, recent 
studies by NOAA, state and local partners in Florida show that in 2001, 
28 million person-days were spent on recreational diving, fishing, 
viewing, and other reef-related activities in Southeast Florida's coral 
reefs. These activities generated about $4.4 billion in local sales, 
almost $2 billion in local income, and 71,300 full and part-time jobs. 
Overall, southeast Florida's coral reefs were estimated to have an 
asset value of $7.6 billion. Similar trends have been observed in other 
U.S. and international areas where tourism associated with coral reefs 
is a major economic sector. Healthy coral reefs are also vital to the 
commercial and recreational fishing sectors in this country. For 
example, approximately 50% of the Federally managed commercial 
fisheries species spend part of their life cycle in coral reef 
ecosystems.
    These valuable ecosystems are in serious jeopardy. Before 1998, the 
Global Coral Reef Monitoring Network estimated that 11% of the world's 
coral reefs had been effectively lost, primarily due to pollution from 
land and sea, over-fishing, destructive fishing practices, ship 
groundings and other human impacts. By 2000, the estimate had grown to 
27% due to massive coral bleaching and mortality events associated with 
climate events. The study suggests that if additional action is not 
taken to reduce these impacts, another third of the world's reefs could 
be lost in the next 10 to 30 years.
    In 1998, a global assessment of threats to reefs by the World 
Resources Institute suggested that many U.S. reefs are at high to 
medium threat levels. Many U.S. reef systems have been degraded and 
need assistance, although there are few U.S. reefs that currently have 
the monitoring and assessment needed to track reef condition over time. 
One of the most studied areas is in the Florida Keys National Marine 
Sanctuary. Data from a number of studies shows deterioration of the 
Florida Keys reefs over the past 20 years. Included are significant 
losses in amount of coral cover, fish abundance and diversity, and 
other indicators. During this time, South Florida's population and the 
number of recreational vessels has doubled, water quality has declined 
in some areas, and diseases and coral bleaching events have increased. 
In many parts of Florida and the Caribbean, what used to be the most 
common and abundant shallow water coral species (elkhorn and staghorn 
coral) have been reduced by 50 to 90% due to diseases and other 
factors.
NOAA Action: Executive Order 13089
    The U.S. has taken a number of significant actions over the past 5 
years to help sustain coral reef ecosystems and the communities and 
economies that depend on them. In 1998, the U.S. Coral Reef Task Force 
(Task Force) was established by Executive Order 13089 to help lead and 
coordinate U.S. efforts to conserve coral reefs. The Task Force, co-
chaired by the Secretary of Commerce through the Administrator of the 
National Oceanic and Atmospheric Administration (NOAA) and the 
Secretary of the Interior, includes the heads of eleven Federal 
agencies (Department of Agriculture, Department of Commerce, Department 
of Defense, Department of the Interior, Department of Justice, 
Department of State, Department of Transportation, Environmental 
Protection Agency, National Aeronautics and Space Administration, 
National Science Foundation, United States Agency for International 
Development), and the Governors of seven states, territories, and 
commonwealths (American Samoa, Florida, Guam, Hawaii, Northern Mariana 
Islands, Puerto Rico, United States Virgin Islands). Representatives of 
the Freely Associated States (Palau, Federated States of Micronesia and 
the Marshall Islands) were recently added to the Task Force, 
recognizing their rich coral reef resources.
    In March 2000, the Task Force adopted The National Action Plan to 
Conserve Coral Reefs (National Action Plan), the first national 
blueprint for U.S. action to address the loss and degradation of coral 
reef ecosystems. Based on extensive input from government and non-
government organizations, scientists, resource managers, Regional 
Fishery Management Councils, other stakeholders and the public, the 
National Action Plan: (1) identified key threats and issues driving the 
loss and degradation of coral reefs; (2) established thirteen major 
goals to address these threats; and, (3) outlined specific objectives 
and priority actions needed to achieve each goal.
    Since then, significant action has been taken to implement the 
National Action Plan. The Task Force has provided a forum for 
exchanging information, building partnerships, coordinating efforts, 
tracking accomplishments, facilitating public input, and identifying 
key issues needing attention. In addition, it also provides a mechanism 
to evaluate efforts and adapt the national blueprint in response.
    Working with many government and non-governmental partners, the 
Task Force has helped coordinate coral reef conservation and management 
efforts across Federal agencies and with state, territory, and 
commonwealth partners. New actions and new partnerships are underway, 
and there are clear signs that the capacity to conserve coral reefs is 
increasing at a variety of levels. There is much left to be done 
however. At its last meeting in December 2001, the Task Force 
highlighted the need to improve efforts that will track progress to 
implement the National Action Plan and identify key areas still needing 
attention. We agree that these actions need to be taken. The Task Force 
is a useful mechanism to increase coordination, track progress, and 
assess needs to implement and fulfill the goals of the National Action 
Plan.
NOAA Action: Implementing the Coral Reef Conservation Act
    In 2000, NOAA received $8 million in funding specifically for coral 
reef conservation activities. In fiscal years (FYs) 2001 and 2002, this 
funding increased to $27 and $28 million respectively for activities 
specifically related to coral reef conservation and management. The 
President has requested $28 million for Fiscal Year 2003. In December 
2000, the CRCA authorized NOAA to undertake four specific actions to 
help conserve coral reefs. This funding and authorization has 
significantly increased the Nation's capacity to conserve coral reefs. 
Much of the funding has gone directly to NOAA's partners in the states 
and territories, universities, and the private sector to strengthen 
their efforts and build capacity.. I will briefly summarize NOAA's 
actions to implement the CRCA, the goals and activities supported by 
the new coral funding, and progress made to achieve them.
    First, the CRCA charged NOAA with developing a National Coral Reef 
Action Strategy (Strategy) consistent with the purposes of the CRCA, 
which includes goals, objectives, an implementation plan addressing a 
number of specific topics, and a summary of funding obligated each 
fiscal year to advance coral reef conservation. Because the Coral Reef 
Task Force had already developed a detailed National Action Plan laying 
out key goals, objectives and implementation plans, NOAA has worked 
with the Task Force over the past year to develop and complete the 
Strategy. I am very pleased to report that the 2002-2003 Strategy has 
been completed and provide you with the first prepublication copies. 
The document will be printed and made available for public comment 
through the Federal Register in July. The Strategy is designed to help 
track progress to implement the goals and objectives of the CRCA and 
the National Action Plan. It provides a cross-government accounting of 
accomplishments and an initial roadmap for what still needs to be done. 
This is an important first step and we are working with the Task Force 
and other partners to improve upon this process. Ultimately we will be 
able to provide interested stakeholders with a regularly updated map of 
ongoing and future coral reef activities.
    Second, the CRCA authorizes NOAA to establish a Coral Reef 
Conservation Grant Program to issue grants for broad-based coral reef 
conservation activities. In Fiscal Year 2002, NOAA formally established 
the Grant Program according to the provisions in the CRCA, and plans to 
distribute approximately $5.1 million through the program. In Fiscal 
Year 2001 and Fiscal Year 2002, the Grant Program has focused on 
increasing capacity in six major areas based on priorities identified 
by the National Action Plan, the CRCA, and our partners. These areas 
include: state and territorial coral reef management; monitoring and 
research; international coral reef conservation; general coral reef 
conservation; and improvements to coral reef fishery management plans. 
This year, NOAA received 96 proposals requesting nearly $8.5 million in 
total. The proposals are currently undergoing peer review from 
reviewers inside and outside of NOAA and we expect to make funding 
decisions by October 1. We think this is a very important mechanism to 
help leverage limited Federal dollars and support coral reef 
conservation efforts by states, territories, fishery management 
councils and other partners. We hope to streamline the grant process 
and continue this effort in the future.
    Overall, it is important to note that in both Fiscal Year 2001 and 
Fiscal Year 2002, over 70% of the coral reef conservation funding in 
NOAA's budget will go to non-NOAA external partners including states, 
territories, local governments, fishery management councils, 
universities, and others. In Fiscal Year 2002, that is approximately 
$20 million of the $28.25 million in NOAA's budget for the Coral Reef 
Conservation Program.
    Third, the CRCA authorizes establishment of a Coral Reef 
Conservation Fund (Fund) to build public-private partnerships for coral 
reef conservation. NOAA established the Fund in partnership with the 
National Fish and Wildlife Foundation in Fiscal Year 2001 to provide 
matching grants for on-the-ground projects. In the first year, the 
Foundation received 160 applications requesting over $6 million in 
Federal funding in response to two calls for proposals. During the 
first selection process, fifteen projects were awarded. By leveraging 
NOAA resources with matching dollars, a $1.8 million on-the-ground 
coral reef restoration effort was able to be completed. The second set 
of proposals is currently under review and final decisions are expected 
in July. The Foundation has taken steps to help find additional 
partners and support for the Fund. We think this is a unique and 
valuable tool to help engage the private sector and build community-
based partnerships to support on-the-ground coral reef conservation 
efforts. We look forward to continuing this partnership in the future.
    Fourth, the CRCA authorized implementation of a National Coral Reef 
Conservation Program to conduct a variety of activities to conserve 
coral reef ecosystems. Funding for coral reef conservation in Fiscal 
Year 2001 and Fiscal Year 2002 allowed NOAA to build on the agency's 
existing programs, management responsibilities, and technical 
strengths. It also allowed NOAA to implement new activities that 
address priorities identified by the National Action Plan, the Act, our 
state and territory partners, the scientific community, and others. 
Using these as guideposts, NOAA launched major new activities to fill 
critical gaps in the nation's ability to understand and conserve coral 
reefs. These activities include mapping shallow water U.S. coral reefs, 
building a national assessment and monitoring program, improving 
assessment and management of coral reef fisheries, removing marine 
debris, and implementing the Coral Reef Ecosystem Reserve in the 
Northwestern Hawaiian Islands.
    Many of these activities focus on gathering and analyzing baseline 
information to evaluate the condition of reef resources, identifying 
key threats, and building capacity to address those threats. Will it 
make a difference? We believe it will. By providing new funding, tools, 
and information the program is increasing capacity at local, state, 
Federal and international levels to reduce adverse impacts and sustain 
coral reef ecosystems. These are significant steps in the right 
direction. However, this program alone will not reverse the decline of 
U.S. or international coral reefs, and it does not address all the 
critical needs identified by the National Action Plan and our partners. 
To reverse the decline of coral reefs, our partners must continue to do 
their part.
    I will briefly review some of the major activities NOAA has 
supported in Fiscal Year 2002. These efforts address some of the 
primary goals and priorities identified by the National Action Plan, 
and continue many of the activities begun in Fiscal Year 2000 and 
Fiscal Year 2001. Many of these are long-term activities requiring 
sustained, multi-year efforts for success. With your support for the 
President's Budget, we hope to fulfill these goals and address other 
critical needs that have not yet been met.
Coral Reef Mapping
    The National Action Plan calls for mapping all shallow U.S. coral 
reefs by 2009. With the development of new technologies and additional 
partners, we think we can do it by 2007. Working with the Department of 
the Interior, NASA, other Federal agencies and state and territory 
partners, we helped develop an out-year implementation plan and began 
multi-agency mapping efforts in 2000. Mapping coral reefs is a multi-
step process designed to characterize and assess current reef 
condition. The process involves acquiring images or other data on reefs 
from satellite, plane or boat, determining habitat types, classifying 
the habitats in the images, and producing the maps and other 
information for managers. The information provides managers and other 
users with a fundamental baseline for long-term monitoring and 
assessment of U.S. coral reefs. In Fiscal Year 2000, the Task Force 
estimated that less than 10 % of U.S. shallow reefs had been adequately 
mapped. New funding in Fiscal Year 2001, allowed us to complete mapping 
efforts already underway for the U.S. Virgin Islands and Puerto Rico, 
and launch initial efforts in the U.S. Pacific. In Fiscal Year 2001, we 
acquired mapping data for the main Hawaiian Islands and portions of the 
Northwestern Hawaiian Islands coral reef ecosystem. This year we will 
finalize maps for 30% of the main Hawaiian Island reefs, continue 
acquisition of mapping data in other U.S. Pacific areas, and conduct 
workshops with Federal, state and territory managers on using mapping 
data and techniques. Working with the U.S. Geological Survey and other 
partners, NOAA has just begun to map selected deeper coral reefs and 
banks that represent important commercial and recreational fisheries 
habitats.
Monitoring and Research
    Monitoring and research help managers assess reef condition, 
diagnose problems, prioritize and implement solutions, evaluate results 
and forecast future conditions. The Coral Reef Task Force identified 
the need for better monitoring and regular assessment of the Nation's 
reefs, and called for building an integrated monitoring system by 2005. 
In Fiscal Year 2002, NOAA is expanding efforts begun in Fiscal Year 
2001 and is continuing funding and technical support to states and 
territories to help increase their monitoring and assessment programs. 
We are working with them to develop ``report cards'' that will help 
track the condition and pressures on reefs. This information will be 
incorporated into a single nation-wide biennial report on the Status of 
U.S. Coral Reef Ecosystems that will integrate on-going monitoring and 
provide regular assessments of the condition and pressures on U.S. 
coral reefs. I am very pleased to report that NOAA will release the 
first biennial report on the Status of U.S. Coral Reef Ecosystems by 
late summer. The findings suggest that while many U.S. reefs have been 
significantly impacted by fishing and land-based pollution, all of the 
U.S. reef regions do contain some reefs that are in good to excellent 
condition.
    Funding in Fiscal Year 2001 and Fiscal Year 2002 has also allowed 
the United States to: expand the ``Coral Reef Watch'' early warning 
system to better predict and track coral reef bleaching and other 
conditions around the world; launch major cruises to assess poorly 
known reefs in American Samoa and the Northwestern Hawaiian Islands; 
and, continue assessments of reefs and reef fish in the South Atlantic, 
U.S. Caribbean and Gulf of Mexico.
    Research is critical to understanding the causes of and solutions 
to reef decline. In the past two years, NOAA's Coral Program has 
supported a variety of research efforts through the National Coral Reef 
Institute (NCRI) in Florida and the Hawaii Coral Reef Institute (HCRI) 
that provide information needed to manage reef ecosystems in the 
Western Atlantic and Hawaii. Funding also supported development of the 
National Coral Disease and Health Consortium and other partnerships to 
better understand the causes and solutions to coral diseases and reef 
decline. In January, an interdisciplinary team of experts identified 
key research areas and technologies to address the growing epidemic of 
diseases attacking coral reefs. Their findings should be available this 
fall.
    One of the areas needing additional research is how people use and 
value reefs and the economic contributions from reef related 
activities. Understanding these values is essential to effective 
conservation of coral reefs because coral reef management is really 
about managing human interactions with the reef ecosystem. This year we 
will complete an inventory of the existing information on valuation of 
reefs and conduct workshops with managers on collecting and 
incorporating social and economic information in decisions. In the 
Virgin Islands, NOAA is working with fishermen to conduct the first 
comprehensive census of the coral reef commercial fishery and to 
develop participatory co-management approaches with fishing 
communities. With all this new mapping, monitoring and research 
underway, we realized we needed a way to provide access to this 
information. At the next meeting of the Coral Reef Task Force in 
October, NOAA will unveil a new web site to provide ``one-stop-
shopping'' for access to all of NOAA's coral reef data and information. 
The site will be a virtual library of coral reef data, from satellite 
images and reef maps, to diver surveys and fish counts. It will also 
provide access to many other products and services related to coral 
reef conservation, including information, tools and materials for 
teachers, students and managers.
Increase Effectiveness of Existing Marine Protected Areas
    The National Action Plan calls for strengthening the use and 
effectiveness of marine protected areas as one of the tools in 
management of coral reefs. To support this goal in Fiscal Year 2002, 
NOAA has continued to work with states, territories, and other 
authorities at their request to help them evaluate the effectiveness 
of, and identify gaps in, the existing system of coral reef marine 
protected areas. NOAA's coral program also supported management of the 
Northwestern Hawaiian Island Coral Reef Ecosystem Reserve, including 
hiring staff to coordinate management and research activities, 
finalizing the proposed Reserve operations plan, continuing the 
Sanctuary designation process, and identifying priority issues to be 
addressed in the draft Sanctuary Management Plan and Environmental 
Impact Statement.
Reduce the Adverse Impacts of Fishing and Support Fishery Management 
        Plans
    In Fiscal Year 2002, over $2.3 million, or 8%, of NOAA's coral reef 
program funding is being used to address priority needs of managers 
responsible for Federal fisheries in coral reef ecosystems. Reducing 
over-fishing and destructive fishing practices, and supporting 
sustainable reef management efforts is one of the most important areas 
needing attention, both here in the United States and internationally. 
This includes support for reef conservation activities of the Regional 
Fisheries Management Councils through the NOAA Coral Reef Conservation 
Grant Program, and other efforts to understand and reduce the impacts 
of fishing on reefs. For example, funding is supporting: studies to 
evaluate the impacts of traps and other fishing gear on reefs in the 
Northwestern Hawaiian Islands and U.S. Caribbean; incorporating 
ecosystem approaches to fisheries management; and, completing the 
installation of radar surveillance equipment to improve enforcement of 
the new Tortugas Ecological Reserve in the Florida Keys National Marine 
Sanctuary, the Nation's largest coral reef reserve. At the request of 
our state and territory partners, NOAA is sponsoring a series of 
workshops on best practices in management of coral reef fisheries. In 
addition, in Fiscal Year 2001, funding also assisted the Western 
Pacific Fishery Management Council complete development of a Coral Reef 
Fishery Management Plan for Federally managed reef systems. The plan 
addresses reef resources not covered under other fishery management 
plans, and attempts to take more of an ecosystem-based approach to 
management. This plan is currently under review. Members of this 
Subcommittee have expressed the need to transition out fisheries 
management system away from a single-species focus and towards a more 
ecosystem-based management plan. We believe the process of developing 
this new plan will continue to provide valuable learning experiences 
about he types of information and infrastructure needed to complete 
that goal.
Reduce Pollution
    Although the human impacts on coral reefs vary between locations 
and regions, many experts consider pollution and over-fishing as the 
leading drivers of coral reef loss and degradation in the U.S. and 
around the world. Land-based sources of pollution are considered a 
major threat. The flow of sediments, nutrients, and chemicals from land 
can devastate reefs. Through the Coral Reef Conservation Grant Program 
and the Coral Conservation Fund, NOAA has provided funding to help 
address some of these issues, but this is a significant area that needs 
to be fully addressed. Given the role of other Federal agencies in 
determining land use and water quality in coastal watersheds near 
reefs, increased and coordinated efforts will serve to benefit U.S. 
reefs.
    Under the authorities provided in the Coastal Zone Management Act, 
states and territories that choose to participate are required to 
create non-point source pollution control programs. For areas adjacent 
to coral reefs, this can be a valuable tool in reducing the impact of 
sediment and nutrient runoff that can degrade coral reefs. Puerto Rico 
and the United States Virgin Islands have already provided non-point 
source pollution control programs and American Samoa's is nearly 
complete. Hawaii, the Commonwealth of the Northern Marianas Islands, 
and Puerto Rico have all included non-point source watershed or GIS 
projects in their Fiscal Year 2002 Coral Reef Conservation Act Grant 
applications.
    In the Northwestern Hawaiian Islands, the major threat to the reef 
ecosystem is pollution originating from the sea. Many of the reefs are 
covered with literally, tons of debris that was carried by ocean 
currents from fishing activities and other remote sources. In Fiscal 
Year 2002, NOAA in cooperation with the State of Hawaii, U.S. Fish and 
Wildlife Service, and other partners funded year two of a three to four 
year campaign to remove this debris. Funding is also being used to find 
ways to prevent marine debris pollution from reaching the reefs, such 
as using remote sensing technologies to identify and remove derelict 
fishing gear at sea, and initiating an outreach program to stop the 
flow at its source.
Response and Restoration
    NOAA has continued to support a variety of activities to help 
respond to damage events and to restore reefs following impacts. In 
Fiscal Year 2002, we will complete assessment restoration techniques 
and recovery models for coral reefs and associated ecosystems to help 
managers choose the most appropriate techniques for their situation. 
Restoration of coral reefs following major damage events is a very 
difficult and long-term process still requiring much research, 
development and testing. Funding will also be used to continue to 
monitor the recovery of reef fishes at restoration sites in the Florida 
Keys and Puerto Rico, and assist in seagrass restoration at a site in 
Puerto Rico. In addition, we are finalizing a database of abandoned 
vessels affecting U.S. reefs that will form the basis of a coordinated 
strategy to address the array of threats posed by grounded vessels. 
Coral program funding also is helping to build the capacity of coral 
reef managers to respond to vessel groundings, chemical spills and 
other events through training on enforcement, response, and restoration 
and through the publication of environmental sensitivity indices and 
standardized damage assessment protocols.
Reduce Global Threats
    This year NOAA is continuing small-scale efforts to assist 
international partners in the conservation of coral reefs through the 
Coral Reef Conservation Grants Program. In collaboration with global 
partners, NOAA is providing support for publication of the 2002 Status 
of Coral Reefs of the World report by the Global Coral Reef Monitoring 
Network. The new report will be released this fall. NOAA is also 
helping draft international guidelines to help improve the 
effectiveness of management in existing marine protected areas, and 
working with coral reef managers in the Caribbean and Southeast Asia to 
establish protocols for monitoring socioeconomic factors. In Fiscal 
Year 2001 and Fiscal Year 2002, Coral Program funding is also being 
used to increase the collection and analysis of data on the U.S. 
imports of coral and reef fish for the aquarium industry.
Conclusions
    Conserving coral reefs is an important and major task requiring 
coordinated effort from variety of Federal agencies, states and 
territories, other nations and nongovernmental organizations. The 
National Action Plan provides an excellent blueprint for U.S. action to 
conserve coral reefs. We must continually evaluate this blueprint and 
make changes to reflect current coral reef trends as well as new 
science. Fulfilling the Plan and helping reverse the decline of reefs 
will require sustained, coordinated efforts for many years, at multiple 
levels. NOAA and other partners have taken significant action to 
implement portions of the Plan and the requirements of the CRCA. These 
actions have strengthened U.S. capacity to conserve coral reefs, but 
continued action is needed for success. Finally, some areas still need 
additional attention, such as reducing land-based sources of pollution, 
working with international partners, and education efforts. We will 
need to use all the tools at our disposal if we are to successfully 
reduce the loss of these valuable resources. Ultimately, successful 
conservation of coral reefs will be determined by our ability to change 
the way people impact reef systems, so that our actions on land and at 
sea sustain reefs rather than destroy them. Thank you.
                                 ______
                                 
    Mr. Gilchrest. That is the second bell for the vote. So, 
this will be our first break. I will be back as soon as I can. 
We are adjourned for, hopefully, only 10 minutes.
    [Recess]
    Mr. Gilchrest. The Subcommittee will come to order. I 
appreciate your indulgence.
    We will go right to our next witness, Mr. Sobel.

STATEMENT OF JACK SOBEL, SENIOR DIRECTOR, ECOSYSTEM PROTECTION 
                 PROGRAM, THE OCEAN CONSERVANCY

    Mr. Sobel. Thank you for this opportunity. I am happy to be 
here to testify on an issue that is very important and very 
close to my heart.
    I am Jack Sobel. I am representing the Ocean Conservancy on 
behalf of our 900,000 members and volunteers. The Ocean 
Conservancy strives to be the world's foremost advocate for the 
oceans. We work to inform, inspire and empower people to speak 
and act for the oceans through science-based advocacy, research 
and public education.
    Coral reefs are among the most biologically valuable, 
fragile and endangered ecosystems on earth. They are also among 
our most spectacular diverse marine ecosystems providing homes 
to nearly 100,000 organisms that we know about and a million 
more that are yet to be discovered.
    Their remarkable diversity is rivaled by an extraordinary 
degree of complexity, interdependence and specialization among 
reef dwellers. Reef fish composition profoundly affects the 
entire reef community. Consequently, when fishing and other 
extractive activities remove critical living components of 
reefs, the reef community becomes less stable and losses its 
ability to respond to other natural and anthropogenic stresses.
    Even moderate fishing levels can dramatically alter reef 
fish communities in remarkably short timeframes. Though full 
impact of these changes on reef health may be delayed for 
years. Therefore marine-protected area networks, including no-
taking in reserves are increasingly recognized as essential to 
reef conservation.
    The last three decades have brought an increasingly broad 
consensus that coral reefs are tremendously valuable, highly 
threatened by multiple stresses and rapidly declining.
    In 2000, a large multinational group of coral reef 
scientists concluded that roughly two-thirds of the world's 
reefs had already been destroyed or would be destroyed within 
30 years unless stronger action was taken to address human 
impacts quickly.
    The U.S. has taken several key steps in recent years to 
address the growing coral reef crisis. In 1998, President 
Clinton issued Executive Order 13089 to establish a non-
degradation policy for all Federal agency actions that might 
affect coral reef ecosystems in the U.S., required Federal 
agencies to implement conservation measures to protect and 
restore coral reefs and create the multi-agency Coral Reef Task 
Force for the purpose of addressing these impacts.
    Congress reinforced the Federal commitment to coral reef 
conservation when it enacted the Coral Reef Conservation Act in 
December of 2000. The Federal Government has also taken steps 
to create coral reef protected areas and has supported State 
and territorial efforts to do likewise under several 
authorities.
    The Coral Reef Executive Order, 13089, and the Coral Reef 
Conservation Act are both important steps in the right 
direction. To improve and build on these initiatives, I have 
the following recommendations:
    First, the administration should recommit, with 
Congressional support to strong implementation of Executive 
Order 13089. Executive Order 13089 elevated coral reef 
protection to a national issue. It also pledged to bring the 
full force of existing tools to bear on addressing threats to 
coral reefs.
    It demonstrated Presidential and agency commitment to 
conservation of coral reefs by adhering to a no-degradation 
standard and adopting a multi-agency, multi-jurisdictional 
approach in the creation of the task force. It deserves your 
support.
    Second, the administration should commit to and Congress 
should support a reinvigorated task force with a strong multi-
agency approach and improved implementation of the National 
Action Plan. The release and adoption of the National Action 
Plan in March 2000 represents a high water mark in the task 
force's effort.
    The plan does an excellent job of summarizing the 
importance, value and plight of coral reefs. It clearly and 
accurately identifies the major threats to coral reef 
ecosystems, including fishing and pollution. Its two 
fundamental themes, eight core conservation principles and 
identification of 13 individual conservation strategies are 
sound.
    During its first 2 years, the Coral Reef Task Force was 
quite active, engaged and effective. It reached out to the 
public, across all levels of government through a variety of 
public meetings and public comment periods and expanded its 
membership and created working groups. It raised awareness in 
and outside of government regarding the coral reef crisis.
    The Administration and Congress need to revitalize the task 
force by bringing strong multi-agency involvement to improve 
implementation, including devising benchmarks and monitoring 
progress with respect to the National Action Plan. The task 
force should also finalize its oversight policy and utilize it 
and the charter to improve reporting, tracking and monitoring 
of progress.
    Third, strengthening improved implementation of individual 
action plans including marine protected areas, pollution 
abatement, international global threats and international 
trade. All of the elements identified in the plan are 
critically important to implement, some more so than others. I 
touched on some of the ones that we feel are the most 
important.
    Fourth, the Coral Reef Conservation Act should be 
strengthened by providing additional new authority and 
determination to implement coral reef conservation measures 
including involving other Federal agencies and increasing 
funding levels.
    Enactment of the Coral Reef Conservation Act was an 
important opportunity to build on the existing Coral Reef 
Executive Order. The act is a step in the right direction, but 
it has important limitations. It provides very limited new 
authority to protect coral reefs. It adopts more of a single 
agency focus versus a multi-agency approach. It authorizes only 
a modest level of new funding.
    One of the primary shortcomings of the Act is that it 
relies almost exclusively on NOAA. NOAA has done great work to 
protect coral reefs, but there are other important agencies. 
NOAA cannot do it alone and there are other important agencies 
that need to be more involved in such legislation.
    Finally, the current authorized levels are insufficient 
given the magnitude of the crisis facing coral reefs.
    Fifth, although the Executive Order and the Coral Reef 
Conservation Act can be more effective, I believe more 
comprehensive legislation is ultimately going to be needed to 
protect coral reefs. Although it may be possible to amend the 
existing Coral Reef Conservation Act to expand and strengthen 
its existing authorities, provide an increased role for other 
agencies and increase funding, a new and separate act may be 
needed to fully and adequately address the crisis confronting 
our coral reefs.
    One approach to this would be legislation that focuses 
exclusively on coral reefs and increases the protection 
afforded. Alternatively, it could provide new authority and 
funding for protection and restoration of a broad array of 
ecologically valuable and increasingly vulnerable marine 
ecosystems with specific protections tailored to coral reefs.
    Mr. Chairman, in your opening remarks you mentioned the 
test of time and what our grandchildren will look back on. What 
is particularly important to me as a new father and an 
expectant father as well, I think you know probably better than 
I that 100 years ago in this region we also had great living 
reefs. They were not coral reefs. They were oyster reefs.
    The test of time looking back has not been favorable on how 
those reefs were protected. The high three-dimensional oyster 
reefs that once existed in the bay are largely gone or 
completely gone. I hope that as you suggested we can look back 
100 years from now, well probably not ourselves, but our 
children or grandchildren can look back on the coral reefs and 
have them healthier than they are today.
    Thanks, that completes my testimony. I would be happy to 
answer any questions you may have.
    Mr. Gilchrest. Thank you very much, Mr. Sobel.
    [The prepared statement of Mr. Sobel follows:]

Statement of Jack A. Sobel, Senior Director, Ecosystem Protection, The 
                           Ocean Conservancy

    Good Morning. I am Jack Sobel, Senior Director for Ecosystem 
Protection for The Ocean Conservancy (TOC), formerly the Center for 
Marine Conservation. The Ocean Conservancy strives to be the world's 
foremost advocate for the oceans. With a nearly-100 member staff 
serving 900,000 members and volunteers, we work to inform, inspire, and 
empower people to speak and act for the oceans through science-based 
advocacy, research, and public education. Headquartered in Washington 
D.C., The Ocean Conservancy has additional offices in Alaska, 
California, Florida, Maine, Virginia, and the U.S. Virgin Islands.
    During my tenure with The Ocean Conservancy, I have directed its 
habitat, marine protected area, and ecosystem programs, and served as 
its Senior Ecosystem Scientist. These positions have provided 
opportunities to lead and participate in several coral reef 
conservation policy and science efforts. Prior to joining TOC, I 
acquired extensive coral reef field experience, first by working as a 
researcher at the West Indies Laboratory in the Virgin Islands, and 
then by establishing and directing a research program in Belize. Living 
in these island communities contributed greatly to my appreciation, 
understanding, and concern for not only the remarkable living systems 
we call coral reefs, but also for those who most directly depend on 
them. I am an angler, a diver, a conservationist, a scientist, and most 
recently a father. My introduction to and love for coral reefs dates 
back nearly four decades ago to family vacations and fishing with my 
father in the Florida Keys.
Coral Reefs: Diverse, Complex, Valuable, Important, Endangered
    Coral reefs are among the most biologically valuable, fragile and 
endangered ecosystems on Earth. They are also among our most 
spectacular, diverse and complex marine systems, providing homes to 
nearly 100,000 known organisms and likely a million or more species yet 
to be discovered. These reefs are much more than just corals. They are 
a myriad of interwoven and interdependent habitats and associated 
organisms. The coral reef community includes more than 4,000 species of 
fish, as well as extraordinary plant and algal diversity. Coral reefs 
and marine systems in general are much more diverse at higher taxonomic 
levels and consequently may harbor much more of the world's genetic 
diversity than terrestrial systems. For example, the diversity of 
photosynthetic machinery in green algae alone dwarfs that found in all 
terrestrial plants.
    This remarkable diversity is rivaled by an extraordinary degree of 
complexity, interdependence, and specialization among reef dwellers. 
Amazing symbiotic relationships and fierce predator-prey, grazer-
producer, and competitive interactions are commonplace on reefs. The 
remarkable relationships among species are critical to structuring reef 
communities, controlling energy and nutrient flow on reefs, and to 
maintaining the tight recycling of materials typical of reef systems. 
Corals, algae and other species constantly compete for space on a reef 
and fish grazing profoundly impacts the distribution and abundance of 
reef seaweeds, altering the balance among combatants. On shallow reefs, 
fish may consume from 50-100% of algal production and take 40,000-
156,000 bites/square meter/day. Predators and herbivores are often 
highly specialized in their feeding preferences. Reef fish composition 
profoundly affects the whole reef community. Consequently, when fishing 
and other extractive activities remove critical living components of 
reefs, the reef community becomes less stable and loses its resistance 
and resilience to respond to change. Its ability to respond to other 
disturbances or withstand poor water quality, global change and other 
stresses may be markedly impaired.
    The array of threats facing U.S. and global coral reefs is powerful 
and taking a heavy and increasing toll on them. Multiple stressors are 
affecting most, if not all of the world's reefs. There is strong 
recognition within the scientific community that fishing and pollution 
impacts are among the most critical threats to the health of coral 
reefs and that it is therefore imperative to address those impacts as 
immediately as possible. Fishing impacts are especially widespread, 
weaken the resistance and resilience of reefs to other natural and 
human stresses, and often act in consort with other threats to 
undermine the health of reefs. Fishing impacts can act synergistically 
with pollution, global change and other threats at the local, regional, 
and global levels to exacerbate the harm they cause. Global change may 
be among the greatest long-term threats to coral reef health, but many 
reefs may be gone before its impact is fully felt. Marine protected 
areas, especially marine ``no-take'' reserves are among the most 
critical, science-based tools available to address fishing impacts and 
protect coral reef ecosystem integrity.
    Coral reefs have great economic and intrinsic value. In addition to 
their incalculable ecological value, studies have estimated that the 
world's reefs provide up to $375 billion per year in goods and services 
despite covering less than one percent of the Earth's service. On a 
more local scale, recent studies estimate the capitalized value of the 
reefs surrounding the Florida Keys alone at close to $2 billion. Guam's 
69 square kilometers of reefs contribute greatly to a $1.5 million 
diving industry and support a $143 billion tourism industry. 
Admittedly, it is difficult to place a price tag on these natural 
systems, but such figures are still worth considering. Aesthetic, 
spiritual, biodiversity, and existence values are especially hard to 
calculate, but may be among the most important provided by reefs.
    The last three decades have brought an increasingly broad consensus 
that coral reefs are tremendously valuable, rapidly declining and 
highly threatened due to multiple stressors, and that their decline has 
high human and ecological costs. In 2000, a large multi-national group 
of coral reef scientists concluded in the Status of Coral Reefs of the 
World: 2000 that roughly two-thirds of the world's reefs had already 
been destroyed or would be destroyed within 30 years unless strong 
action was taken to address human impacts quickly. Without additional 
effort and protection, we face the continued decline and loss of these 
complex, spectacular and fragile natural systems.
Administrative and Legislative Tools for Coral Reef Protection
I. Executive Order 13089 on Coral Reef Protection
    In recent years, the United States Government has taken several key 
administrative and legislative steps to address the growing coral reef 
crisis. In 1998, President Clinton issued Executive Order 13089 on 
Coral Reef Protection to establish a ``no-degradation'' policy for all 
Federal agency actions that might affect U.S. coral reef ecosystems, 
and to require Federal agencies to implement conservation measures to 
protect and restore coral reefs from human impacts, such as fishing and 
pollution.
II. Coral Reef Task Force
    The Executive Order also created the U.S. Coral Reef Task Force 
(CRTF), which is jointly chaired by the Secretaries of Commerce and 
Interior and includes the heads of at least thirteen other agencies. 
The Task Force is charged with addressing activities impacting reefs 
and developing plans and strategies for protecting coral reef 
resources. The CRTF's duties include: (a) Coral Reef Mapping and 
Monitoring, (b) Research, (c) Conservation, Mitigation, and 
Restoration, and (d) International Cooperation.
    Between its inception and the close of last year, the Coral Reef 
Task Force met seven times. It created six working groups to help carry 
out its work and responsibilities: 1) Mapping & Information; 2) Coastal 
Uses; 3) Air & Water Quality; 4) Education & Outreach; 5) 
International; and 6) Ecosystem Science & Conservation. Members 
developed, finalized, and adopted a first-ever ``U.S. National Action 
Plan to Conserve Coral Reefs'' on March 2, 2000, and implemented 
various elements of the National Action Plan prior to and following its 
official adoption. The Task Force unanimously adopted a Charter in 
December of last year. An Oversight Policy, which was initially drafted 
on November 2, 1999, put out for public review, and subsequently 
revised was never formally adopted. The Task Force is next scheduled to 
meet in October.
III. The Coral Reef Conservation Act
    Congress reinforced the Federal commitment to coral reef 
conservation when it enacted the Coral Reef Conservation Act (CRCA, 
P.L. 106-562) in December of 2000. The CRCA called for NOAA to develop 
a parallel National Coral Reef Action Strategy and submit it to 
Congress within six months. It also established a Coral Reef 
Conservation Program to fund coral reef conservation projects, enabled 
the creation of a Coral Reef Conservation Fund in cooperation with a 
non-profit organization to solicit donations and raise additional 
funding, and authorized a National Program to carry out activities to 
conserve coral reefs and coral reef ecosystems. Congress authorized $16 
million dollars annually to carry out the Act.
IV. The Northwestern Hawaiian Islands Coral Reef Reserve
    The Federal Government has also taken steps to protect special 
geographic areas. The Northwestern Hawaiian Islands contain a 
significant percentage of U.S. coral reefs, perhaps more than half. The 
Northwestern Hawaiian Islands Coral Reef Reserve (CRR) came into 
existence through a series of administrative and legislative actions. 
On May 28, 2000, President Clinton issued Executive Order 13158 on 
Marine Protected Areas (MPAs) and included direction to the Secretaries 
of Commerce and Interior to review and provide recommendations on 
protection for this area. Shortly thereafter, Congress passed the 
National Marine Sanctuaries Amendments Act of 2000 (P. L. 106-513), 
which specifically provided President Clinton with the authority to 
designate the Northwest Hawaiian Island Coral Reef Ecosystem Reserve, 
which he did on December 4, 2000 with the issuance of Executive Order 
13178. The public was provided an opportunity to comment on the reserve 
designation, which was finalized by the issuance of Executive Order 
13196 on January 18, 2001.
Evaluation and Recommendations
    The Coral Reef Executive Order 13089 and the Coral Reef 
Conservation Act are both steps in the right direction. Each has had 
positive and significant impacts on the health of coral reef 
ecosystems. Although they have not succeeded in reversing the decline 
in coral reefs, this is not surprising given their short time frame, 
inherent limitations, and the extent of the problems facing coral 
reefs. To some extent, it may be possible to improve the effectiveness 
of these tools by strengthening their design and execution. In my 
opinion, however, new authorities will ultimately be necessary to 
arrest the degradation of coral reefs, either under a framework of 
regional marine protections or coral reef-specific directives.
I. The Administration Should Recommit, with Congressional Support, to 
        Strong Implementation of Executive Order 13089.
    Chief among the Executive Order 13089's strengths was the fact that 
it elevated coral reef protection to a national issue. It also 
reflected the need to address human impacts, including those due to 
fishing and pollution, and pledged to bring the full force of existing 
tools to bear on addressing threats to coral reefs. It demonstrated 
presidential and Federal agency commitment to conservation of coral 
reefs by adhering to a ``no-degradation'' standard and adopting a 
multi-agency, multi-jurisdictional approach in the creation of the Task 
Force.
    Among its limitations was its necessary reliance on existing 
statutes, none of which were coral reef specific or provided a clear 
and overriding standard for the level of protection. This translated 
into a dependency on continued Administration and Congressional support 
and commitment to execution. Finally, this approach lacked a formal 
legal mechanism for the public to hold government accountable for its 
implementation.
II. The Administration Should Recommit to, and Congress Should Support, 
        a Reinvigorated Task Force, a Strong Multi-Agency Approach, and 
        Improved Implementation of the National Action Plan.
    During its first two years, the Coral Reef Task Force was quite 
active, engaged, and effective. It reached out to the public and across 
all levels of government through public meetings, opportunities for 
public comment, and by expanding its membership and creating Working 
Groups to address major issue areas. It raised awareness within and 
outside of government regarding the coral reef crisis and the need to 
address threats to coral reefs. It provided opportunities for academic, 
scientific, and other non-governmental institutions to exchange 
information with the Task Force itself, its Working Groups, and the 
public. For our part, The Ocean Conservancy sponsored two independent 
symposia/workshops, utilizing Task Force meeting venues, to highlight 
key threats to coral reefs and mechanisms for addressing them.
    The release and adoption of The National Action Plan to Conserve 
Coral Reefs on March 2, 2000 represents a high-water mark in the Task 
Force's efforts. This first such U.S. plan is extraordinary in many 
ways and was a major positive achievement for the Task Force. The plan 
does an excellent job of summarizing the importance, value, and plight 
of coral reefs. It clearly and accurately identifies the major threats 
to coral reef systems, including fishing and pollution. Its two 
fundamental themes, eight core conservation principles, and 
identification of thirteen individual conservation strategies (action 
plans) are on-target, sound and strong. They provide an outstanding 
framework on which to build truly comprehensive coral reef protection.
    The individual conservation strategies (action plans), however, are 
variable in degree of detail and inconsistent with respect to their 
level of specificity on measurable objectives and timelines for 
achieving them. The Mapping and Marine Protected Area plans were among 
the more detailed, specific and concrete. The Socioeconomic and 
Pollution plans were among the less specific. Although some progress 
has been made on implementation of individual action plans, plan 
implementation has slowed considerably over the past two years. In some 
cases, earlier accomplishments may be at risk of reversal. Not 
surprisingly, the more detailed, specific, and concrete plans have 
achieved the most.
    In general, the Task Force seems unable to build on the momentum 
generated by the adoption of the generally strong National Action Plan 
and to maintain the energy and productivity of the Working Groups. In 
other words, follow-through has been disappointing. The Administration 
and Congress should revitalize the Task Force by bringing strong, 
multi-agency involvement to improved implementation, including devising 
benchmarks and monitoring progress with respect to the National Action 
Plan.
    The Task Force spent considerable time on development of two other 
important items, a Charter and an Oversight Policy. Unfortunately, the 
Charter was not finalized and adopted until December 5th, 2001 and the 
Oversight Policy was never formally adopted. The Task Force should 
adopt the Oversight Policy at its next meeting in October and utilize 
it and the previously adopted Charter to improve reporting, tracking 
and monitoring of progress, implementation of conservation measures, 
and public responsiveness.
III. The Coral Reef Conservation Act Should be Strengthened by 
        Providing Additional New Authority and Direction to Implement 
        Coral Reef Conservation, Mitigation and Restoration Measures, 
        Involving Other Federal Agencies in Conservation of Coral 
        Reefs, and Increasing Authorized Funding Levels.
    Enactment of the Coral Reef Conservation Act was an opportunity to 
build on the existing Coral Reef Executive Order, support and 
strengthen its underlying legislative mandate(s), provide a new 
legislative mandate and new authority for coral reef protection, and 
dramatically increase funding for coral reef conservation. As enacted, 
the Act is a step in the right direction, but it has important 
limitations to its effectiveness.
    It contains a strong opening purposes section that includes ``to 
preserve, sustain, and restore the condition of coral reef 
ecosystems,'' provides language to develop a National Coral Reef Action 
Strategy that mirrors language in the Executive Order and the National 
Action Plan, and authorizes some new funding for coral reef protection 
and mechanisms to raise additional funds. However, it provides very 
limited new authority to protect coral reefs, adopts a single agency 
versus multi-agency approach, and authorizes only a modest amount of 
new funding (i.e. $16 million annually) relative to the magnitude of 
the coral reef crisis.
    Although the Act requires the development of a National Coral Reef 
Action Strategy, authorizes the Secretary to carry out certain 
specified conservation activities, and establishes a grant program to 
assist others in carrying out coral reef conservation projects, the Act 
lacks adequate direction and authority, relying principally on existing 
Federal authorities and the help of local, state, and regional entities 
to achieve its objectives. Given the threats confronting our coral 
reefs and their ecological and economic importance, this approach is 
inadequate.
    The Act should be amended to direct and provide the authority and 
funding necessary to the Secretary to implement the National Coral Reef 
Action Strategy Implementation Plan called for by section 6402. The 
National Program to conserve coral reefs and coral reef ecosystems 
authorized by section 6406 of the Act also lacks adequate direction and 
authority and needs to be strengthened. This section should be amended 
to require the Secretary, as well as other Federal agencies, to 
undertake activities to conserve coral reefs and coral reef ecosystems 
and should provide the necessary new authority and funding to undertake 
those activities.
    One of the primary shortcomings of the Act is that it relies almost 
exclusively on the National Oceanic and Atmospheric Administration. To 
its credit, NOAA has apparently elected not to reinvent the wheel and 
has indicated it is largely adopting and building on the multi-agency 
National Action Plan and is working with other agencies to develop the 
new National Coral Reef Strategy. Nonetheless, tasking the development 
of this new National Coral Reef Strategy to a single agency after a 
multi-agency Task Force had developed the prior National Action Plan 
may have impeded collaboration, limited available staff resources, and 
slowed down its completion. (Although the Strategy is now long overdue, 
I understand that it is nearing completion.) In considering amendments 
to the Act, we urge the Committee to consider ways in which to better 
use the full resources of the Federal Government to achieve the Act's 
lofty and important objectives. Clearly, conservation of coral reefs 
cannot be accomplished without the support and active involvement of 
other Federal agencies and departments.
    Finally, the authorized funding levels need to match or exceed the 
need. Although a total of $16 million annually is a significant down 
payment, this is not sufficient given the crisis confronting our coral 
reefs. Furthermore, authorized funding for coral reef conservation 
activities should not be restricted to activities carried out or funded 
by the Secretary of Commerce.
V. Developing New Authorities
    Although the Executive Order and the Coral Reef Conservation Act 
are important steps in the right direction and, with your support and 
the support of the Administration, can be made more effective, more 
sweeping changes will be necessary for healthy coral reefs to persist 
in the future. A couple of weeks ago Gerry Davis from Guam testified 
before this Subcommittee that ``[t]here is still no clear law that 
protects coral reefs Federally. There are many laws which are used to 
attempt to do this but this is a piecemeal approach to the issue.'' I 
believe he is right and that such comprehensive legislation is sorely 
needed if we are to protect coral reefs.
    Although it may be possible to get there by amending the existing 
Coral Reef Conservation Act to expand and strengthen its existing 
authorities, providing an increased role for other Federal agencies in 
achieving its purposes, and significantly increasing Federal funding 
for coral reef conservation activities, a new and separate Act may be 
needed. Such legislation could focus exclusively on coral reefs or; 
alternatively, it could provide new authority and funding for 
protection and restoration of a broader array of ecologically valuable 
and increasingly vulnerable marine ecosystems.
Conclusion: Safeguard Coral Reefs for Our Kids & Future Generations
    As we enter the 21st century, considerable attention concern and 
discussion revolves around the prior loss, continued degradation, and 
threatened future of valuable coral reefs around the world. Yet a 
century ago, similar attention, concern and discussion about then-
valuable oyster reefs failed to avert their demise.
    At the time, seeing the handwriting on the wall, biologist and 
oyster commissioner W.K. Brooks stated ``We have wasted our inheritance 
by improvidence and mismanagement and blind confidence.''
    George Santayana once said: ``Progress, far from consisting in 
change, depends on retentiveness. Those who do not remember the past 
are condemned to repeat it''. The wholesale destruction of oyster reefs 
and concurrent decline of oyster populations in many parts of the world 
provides a stunning portrait of severe ecosystem level damage due to 
intense fishing focused on critical ecosystem components and offers 
lessons for the future. Can we learn from the lessons of the past?
    I hope we can learn and make the progress necessary to save our 
coral reefs, so that I can share the experience, awe, and wonder with 
my children that my father first shared with me.
                                 ______
                                 
    Mr. Abercrombie. Mr. Chairman?
    Mr. Gilchrest. Mr. Abercrombie, I didn't see you.
    Mr. Abercrombie. Before we proceed, may I ask your 
permission to submit three testimonies; that from a colleague 
and friend, Bob Underwood, a statement from him for the record.
    Mr. Gilchrest. Without objection.
    [The prepared statement of Mr. Underwood follows:]

Statement of The Honorable Robert A. Underwood, a Delegate in Congress 
                               from Guam

    Thank you, Mr. Chairman, for scheduling this morning's hearing 
regarding the status of coral reefs and to review Federal activities to 
protect and conserve these precious marine ecosystems.
    Former NOAA Administrator Dr. James Baker once said that the 
``sustainable use and conservation of our coral reef ecosystems is a 
goal that should be above partisan politics.'' I could not agree more 
with that admonition.
    lt was in a genuine bipartisan spirit that the Congress passed, and 
President Clinton signed, the Coral Reef Conservation Act of 2000. This 
innovative legislation--the first of its kind to exclusively focus on 
the preservation and restoration of coral reef ecosystems--included 
several provisions important to members of this Subcommittee, including 
myself. I am eager to learn about NOAA's efforts to implement this 
important statute.
    I will be particularly interested to hear about NOAA's success in 
providing grant assistance for local coral conservation projects 
authorized under the section 204, Coral Reef Conservation Program.
    The value of a locally-driven coral reef grant program is 
especially beneficial for U.S. Pacific Island territories and freely 
associated states where village communities are tied culturally, 
economically, and ecologically to their coral reef resources.
    Specific requirements to guide the distribution of grant assistance 
were included in the Act to ensure that no region is overlooked. I will 
be interested learn if applications for coral conservation projects in 
the Pacific region have received the level of financial assistance they 
are entitled to receive under this program.
    The overall declining health of coral reef ecosystems also remains 
an overarching concern of mine. Unfortunately, the lack of historical 
research data on the health of ``normal'' reef ecosystems remains a 
persistent hindrance in our ability to assess the severity, or to 
understand the true significance, of new outbreaks of diseases or the 
recurrence and spread of bleaching events.
    If we ever hope to be able to compare and assess future changes in 
coral reef health, progress must be made to develop a definitive 
ecological baseline for coral reef ecosystems.
    To address this need, and in part, to fully identify and inventory 
all coral reef resources under U.S. jurisdiction, Congress authorized 
the National Program under section 207 of the Act. I will be interested 
in hearing the progress made by NOAA in implementing the National 
Program and the status of its activities.
    I will also be interested to hear about the contributions of the 
other members of the U.S. Coral Reef Task Force towards fulfillment of 
the National Action Plan and conformance with the directives under 
Executive Order 13089.
    In closing, the world's coral reef resources currently face of 
large-scale climate changes of a severity not seen in the last 300 
years. And with only 10% of surface corals still living in some areas, 
we certainly don't have time to contemplate their fate.
    That is why is it crucial that we hold this oversight hearing this 
morning. Together, we have recognized the threat, and together, we have 
engaged the Federal Government and their state and territorial partners 
in a great effort to conserve ``the rainforests of the sea.''
    Yet it is also our responsibility in Congress to make sure that 
implementation of the Coral Reef Conservation Act fulfills its goal of 
restoring coral reef ecosystems, and to that end, our work remains far 
from over. Thank you.
                                 ______
                                 
    Mr. Abercrombie. I would also like to submit testimony 
submitted by Lelei Peau, who is the Chair of the U.S. All 
Islands Coral Reef Initiative Coordinating Committee.
    Mr. Gilchrest. Without objection.
    [The statement of Lelei Pea submitted for the record 
follows:]

 Statement submitted for the record by Lelei Peau, Chairman, The U.S. 
       All Islands Coral Reef Initiative, Coordinating Committee

    On behalf of the U.S. All Island's Coral Reef Initiative, I provide 
this testimony to appeal for continued support by Congress of the Coral 
Reef Conservation Act of 2000 and Executive Order 13089.
    A dramatic increase in efforts and implementation of projects aimed 
at protecting and enhancing coral reef resources in the United States 
has taken place since 1998. These activities had their roots in the 
International Coral Reef Initiative launched in 1994 at the United 
Nations Conference on Sustainable Development in Small Island 
Developing States in Barbados. At the time, Federal agencies were 
hoping to see as much as $10 million per year in new Federal funding 
for international and domestic coral reef management. The reality at 
this time was short lived as limited allocations were received.
    The lack of funding did not deter the governments of American 
Samoa, Commonwealth of the Northern Mariana Islands, Guam and Hawaii 
who spearheaded the U.S. domestic component of the Coral Reef 
Initiative. In December 1994, they produced the first Coral Reef 
Initiative Management Strategy with support from the Pacific Basin 
Development Council, the Office of Ocean and Coastal Resources 
Management at NOAA and the Office of Insular Affairs at the Department 
of the Interior. This strategy assessed coral reef threats and existing 
efforts and identified a series of activities aimed at improving the 
management of coral reef ecosystems through public education and 
awareness, research and monitoring, and enhanced regulation and 
enforcement. When the strategy was originally developed, the island 
governments saw the prospects of new Federal funding as remote. But, 
they made a commitment to implement the island strategy with no new 
funding.
    The Office of Ocean and Coastal Resource Management and the Office 
of Insular Affairs between 1995 and 1998 made a limited amount of 
Federal funding available to island governments but the vast majority 
of efforts to implement the Coral Reef Initiative Island Management 
Strategy came from existing sources of funding. In 1997, the island 
strategy was updated and expanded to include the Commonwealth of Puerto 
Rico and the U.S. Virgin Islands and it was published as the U.S. 
Islands Coral Reef Initiative Summary Report, sometimes know as ``the 
Blue Book.
    In 1998, President Clinton issued the Coral Reef Protection 
Executive Order 13089. It established the U.S. Coral Reef Task Force 
and mandated Federal agencies to ``protect and enhance the conditions 
of (coral reef) ecosystems'' and to ensure that their actions would not 
``degrade the conditions of those ecosystems.'' The President appointed 
the Governors of U.S. states, territories, and commonwealths with coral 
reef resources to be full members of the Task Force. The Administrator 
of NOAA also recognized the U.S. Island Coral Reef Initiative Summary 
Report at the National Ocean Conference as the kind of grass roots and 
cooperative effort that the Executive Order was intended to support.
    A series of working groups were set up by the U.S. Coral Reef Task 
Force to develop a National Action Plan to implement the Presidential 
Coral Reef Protection Executive Order. At the urging of the All Islands 
Governors, the Task Force formally recognized what came to be known as 
the All Islands Coordinating Committee and resolved to give priority to 
the activities identified in the All Islands Coral Reef Initiative 
Strategy, which was further updated as ``the Green Book'' in 1999.
    Since 1999, substantial amounts of Federal funding have been 
appropriated for coral reef management activities developed largely in 
response to priorities identified by the U.S. Coral Reef Task Force. 
These have included projects identified in the U.S. Islands Coral Reef 
Initiative Summery Report and the All Islands Coral Reef Initiative 
Strategy. Funds for All Island projects have been provided primarily 
through the Office of Ocean and Coastal Resources Management at NOAA 
and the Office of Insular Affairs at Department of the Interior. Other 
NOAA offices and programs have also cooperated closely with the All 
Islands Committee to develop and implement activities aimed at 
improving the management of coral reef ecosystems.
    The majority of the funding appropriated for the management of 
coral reef ecosystems has been devoted to projects and programs planned 
and managed by Federal agencies. A total of $25 million in Federal 
funding was appropriated for coral reef management activities in 2001 
of which $1.35 million was allocated to fund All Island's activities. 
In 2002, a total of $34 million was appropriated for coral reef 
management activities and a portion of that is devoted to furthering 
All Islands projects.
    Most of the Federal initiated activities have been aimed at science 
and research-based activities including resource assessments, 
monitoring, habitat classifications, and mapping. Almost no resources 
at the Federal level have been aimed at public education and awareness. 
Unfortunately, all of these science-based coral reef management 
activities at the Federal level will have little or no impact on the 
health of coral reef ecosystems without broad based public and 
political support at the state, territorial and commonwealth level.
    The All Islands efforts have strong support from island Governors, 
attributing a tremendous success in terms of channeling local resources 
and new Federal funds into coral reef management activities at the 
state, territorial, and commonwealth level. Some of these activities 
have been aimed at public education and awareness. Unfortunately, given 
the already strained local budgets in Island Governments these efforts 
have not convinced local legislatures that significantly more local 
funds need to be appropriated for basic resource management activities 
including public education and awareness.
    The monumental accomplishments to date would not have occurred 
without the partnerships between the Federal entities and states, 
commonwealths and territories and the supporting legislation and 
continued appropriation to commit to coral reef management as a 
collaborative domestic approach. This testimony is an appeal for your 
support to continue our efforts to support management of coral reef 
systems at the domestic level.
                                 ______
                                 
    Mr. Abercrombie. With your permission as well, I would like 
to offer the testimony of the Chair of the Board of Land and 
Natural Resources of the State of Hawaii, Gilbert Coloma-
Agaran.
    Mr. Gilchrest. Without objection.
    Mr. Abercrombie. Thank you so much.
    [The statement of Gilbert Coloma-Agaran submitted for the 
record follows:]

Statement of Gilbert S. Coloma-Agaran, Chairperson, Department of Land 
                 and Natural Resources, State of Hawaii

    Thank you for the opportunity to present written testimony on this 
oversight hearing. My apologies for not being able to attend the 
hearing and testify in person. I provide testimony as the Chairperson 
of the Department of Land and Natural Resources on behalf of the State 
of Hawaii as the Governor's representative to the U.S. Coral Reef Task 
Force, and also offer observations that pertain to coral reef resource 
management throughout the U.S. insular Islands. It is clear that Hawaii 
and the other U.S. Islands in the Pacific and the Caribbean, Guam, 
America Samoa, the Commonwealth of the Northern Mariana Islands, Puerto 
Rico, and the U.S. Virgin Islands share common problems regarding the 
decline in the health of their coral reef resources and the need to 
develop innovative solutions to address this decline.
The Importance of Coral Reefs
    Hawaii's coral reefs are of critical importance to us, and our 
island neighbors. In the Hawaiian creation chant, the Kumulipo, coral 
was recognized as part of the foundation of emergent life. Corals are 
one of the principle building blocks of our islands and supply the sand 
for our world class beaches, protect our shores from storm and wave 
damage, and are a star attraction in the economic engine that drives 
our economy--tourism. Hawaii ranks on par with the most popular dive 
destinations worldwide due to our clear waters, coral reefs and unique 
marine life. Over 25 % of our reef species our found nowhere else on 
earth. The majority of the nations coral reefs are found in our waters.
Executive Order 13089, Coral Reef )Protection
    Executive Order 13089 on Coral Reef Protection directed all Federal 
agencies whose actions may affect U.S. coral reefs to utilize their 
programs and authorities to protect and enhance the conditions of such 
ecosystems. The EO also created the U.S. Coral Reef Task Force and 
raised the importance of coral reefs to a national level. The Federal 
agencies for the first time were tasked to work together to develop 
strategies to better manage our nations coral reefs and to assess their 
actions and how they affect this ecosystem. The Co-Chairs of the Task 
Force recognizing that the majority of the nation's coral reefs lie 
within the jurisdictions of the States and Territories took an 
innovative step forward and invited the Governor's of these 
jurisdictions to be full members of the Task Force. The Governors and 
their staff were able to obtain direct access to key members of the 
administration to address management of these resources on the local, 
regional and national level. The National Action Plan to Conserve Coral 
Reefs was a product of the Task Force, developed in a true Federal/
State/Territorial partnership. Participation on the Task Force has 
resulted in agencies focusing on initiatives that cut across normal 
agency boundaries to target strategies to conserve our nations coral 
reefs.
U.S. All Islands Coral Reef Initiative
    Even before the advent of the Task Force and Executive Order 13089, 
the resource managers in the islands had recognized the need to work 
together to address the growing impacts to our coral reefs--The issues 
and management concerns facing all our jurisdictions created a desire 
to share common ideas and work towards innovative solutions to 
addressing reef decline. In many islands, the concepts of the 
integration of coral reefs with the overall health and well being of 
their ecosystems have long been recognized. The islands have taken the 
lead in working together to develop a foundation for management 
including a long-term strategy, a vision, mission statement and goals. 
This initiative helped form the basis for the U.S. Coral Reef Task 
Force strategy and set the parameters for working collaboratively to 
develop solutions.
Coral Reef Conservation Act of 2000
    The funding provided initially via appropriations to implement the 
strategies of the U.S. Coral Reef Task Force and subsequently via the 
Coral Reef Conservation Act of 2000 have been pivotal in bridging the 
gaps between a growing problem of reef decline and our collective 
ability to address this crisis. The funding allocated directly to the 
islands has provided significant opportunities to increase local 
management capacity, provide the foundations to leverage additional 
funds to address larger research questions regarding the status of the 
reefs and to begin to develop recommendations for management measures 
to address the issue of reef decline. The funding has brought several 
agencies within the State and numerous community groups together to 
collectively determine the needs and develop creative solutions to 
minimize impacts. However, the threats to our reefs have increased for 
several years, and coral reefs are complex and diverse ecosystems. 
Identifying solutions and raising awareness about these solutions will 
take time and will likely be measured in incremental changes to those 
circumstances that are causing the decline.
    A focused strategy, adequate funding and coordinated Federal/state 
partnerships are all needed on a sustained basis to address the decline 
and initiate steps towards recovery. It is with this in mind that I 
would like to recommend the continued support for the Coral Reef 
Conservation Act of 2000. Using the model designed by the islands and 
addressing their needs on the local level in coordination with 
approaches, expertise and technology from the Federal level will 
provide solutions. The outcomes to date and the collaboration 
undertaken thus far have been outstanding and should be continued.
    Thank you for the opportunity to provide testimony on these issues. 
The Department would be happy to work with your Committee Staff to 
provide additional State perspective on the proposed programs and their 
administration. The State Point of Contact for the U.S. Coral Reef Task 
Force and the coral reef initiative is Ms. Athline M. Clark of the 
Division of Aquatic Resources, and she can be reached at (808) 587-0099 
to assist the Committee in their work..
                                 ______
                                 
    Mr. Gilchrest. We are talking about the Executive Order and 
this task force and implementing a whole series of coordinating 
efforts to deal with the degrading situation of coral reefs on 
an international basis.
    The first question, though, which I would like all of you 
to respond to is: Can we save the coral reefs if the climate 
continues to warm even in the least predicted fashion? Can we 
save coral reefs, considering the increase in CO2, which has a 
degrading effect by increasing water temperature, which has a 
degrading effect in an increase in disease, because of the 
increase in water temperature that has a degrading effect on 
the change in composition of the salinity of the water which 
has a degrading effect?
    So, can we save coral reefs if we don't move boldly to have 
a different energy policy?
    Mr. Keeney. Mr. Chairman, we at NOAA believe that if the 
warming trends in the tropics continue and sea surface 
temperatures are raised beyond the coral tolerance levels, 
there is a fairly narrow range there within which there is a 
tolerance for corals.
    It could cause significant additional coral bleaching, 
events that result in coral mortality. So, I think we will hear 
more about it from Dr. Strong, who represents NOAA's National 
Environmental Data Information Service on the next panel. But, 
I believe there is a connection between global warming and the 
continued existence of coral reefs.
    Judge Manson. Mr. Chairman, in my written remarks I refer 
to several recent incidents of coral bleaching and some of the 
presumed causes of that. Your precise question, though, I think 
is one that is better left to the next panel.
    In my oral testimony I made reference to Dr. Buddemeier's 
proposed study. As I indicated, he is one of the world's 
leading coral researchers. One of the reasons we are interested 
in his study is that it will give us some answers to the kinds 
of questions that you have asked.
    Mr. Gilchrest. I will say, though, and this is partly my 
responsibility as well, is to take that information that we 
have and as government officials, assess it with all deliberate 
prudence which means we have a certain amount of speed attached 
to that.
    I think we are due to make some bold statements about some 
of these problems. The administration needs to make a bold 
statement. The Congress needs to make a bold statement. The 
NGO's, I think, have been making bold statements but it never 
quite seems to get into a national deliberate policy.
    So, I just throw that out there. I think Mr. Sobel will 
say--well, I shouldn't say what Mr. Sobel will say, but if you 
want to make a quick comment on ``If we don't stop climate 
change, what can we do about coral reefs?''
    Mr. Sobel. I think you probably have the ability to read my 
mind on this. I think we clearly need a more enlightened 
response to global change and we need to move quickly in that 
direction, as you have mentioned.
    I would also like to say that I have indicated in my 
written remarks that global change is not the only major threat 
that we are facing on coral reefs. And if we don't address some 
of the other issues, including the fishing issue and including 
the pollution issue, the reefs may not last even until the time 
that the global climate change impacts will really kick in.
    So, we do need to address global change, but one of the 
best responses for that is also addressing the other threats 
because robust, healthy reefs with the full array of species in 
the natural abundances are much better equipped to response to 
changes in climate.
    I think that that is really critical. That is why we have 
put an emphasis on the creation of highly protected, marine 
protected areas, so at least in a portion of our coral reefs we 
can see the full abundance of organisms that are supposed to be 
there and so that they can respond not only to global climate 
change, but to the multiple stressors that our coral reefs are 
facing today.
    Mr. Gilchrest. So, it is an all-encompassing, comprehensive 
approach which would include the elements of climate change, a 
major factor there, which I would assume would then include in 
the task force the Department of Energy and EPA and the State 
Department to coordinate that international effort and then 
also look at what would be CO2 and ultraviolet and climate 
change and weather patterns and coral disease, I suppose, and 
sea level, so that is a whole bailiwick in and of itself, all 
related to climate change.
    Then land use is critical and fishing regulations are 
critical and the development of sanctuaries and marine-
protected areas and some type of, I would assume, of marine-
protected areas/sanctuaries in the nation's economic zones or 
certainly in the international arena.
    I meant to ask that as a question instead of making a 
statement. I would like to continue to work, certainly, with 
Judge Manson and Mr. Keeney, specifically, on these issues. You 
may be light years ahead of me, but I would like to hook onto 
your star. It seems to me it is all interconnected, from the 
erosion due to increased weather patterns and storms and sea 
level to development pressures from hotels and subdivisions to 
gear type in the fisheries, all these things.
    So, as we move forward, I hope we have this conciliates of 
effort with all the various aspects.
    I yield to the gentleman from Hawaii, Mr. Abercrombie.
    Mr. Abercrombie. Thank you very much, Mr. Chairman. Judge 
and Mr. Keeney, perhaps you both can answer this. I had a 
concern for a long time that the harvesting, if you will, of 
coral is something that is almost impossible to regulate or 
measure.
    I wonder whether you can speak authoritatively at all, 
either of you, on the effect of the high demand for coral on 
coral reef ecosystems and why this trade is allowed when corals 
appear to be in drastic decline or the possibility of drastic 
decline due to global warming and other factors that may be 
involved.
    Do you have a view?
    Judge Manson. Well, I think that harvest is --
    Mr. Abercrombie. Other than simply an opinion?
    Judge Manson. Well, I have an opinion and a view. Again, I 
think the scientific facts are best left to the next panel. But 
it does seem to me that harvest is a factor in the degradation 
of coral reefs.
    In terms of how we get our hands around that, that is an 
appropriate task --
    Mr. Abercrombie [presiding]. Well, we have closing, for 
example, in fisheries. I submitted a statement from our Board 
of Land and Natural Resources Chair. Off Waikiki, for example, 
the ancient Hawaiians themselves had periods of time in which 
it was a kapu, it was forbidden to fish for recovery's sake.
    We had an extensive discussion yesterday about possible 
rolling closures that might take place in vast reaches of the 
ocean. So, it would not be unusual if we had a closure with 
respect to the reefs if we thought that made sense.
    I don't want to get involved and I don't think the 
Committee wants to get involved in legislation that would 
simply be arbitrary on our part. It wouldn't be capricious, but 
it might be arbitrary, if it wasn't wanted. I don't mind doing 
arbitrary legislation in the sense that it's better to be safer 
about what we are doing than sorry about it afterwards, keeping 
in mind what was stated about oysters and reefs 100 years ago.
    So, I am not concerned about being accused about being 
arbitrary, but I am concerned about whether or not we could 
legislate with respect to possible closures in regard to 
decline.
    Judge Manson. Right. Well, may I suggest that that is a 
fair subject for the task force to take a look at. Before the 
Congress would have to legislate, I think it would be a good 
idea for the task force to look at that and figure out some 
recommendations between the agencies. Of course, the task force 
involves more than just the agencies. The States are 
represented on the task force as well. That would be a great 
opportunity to get the input of all of the effected entities.
    Mr. Abercrombie. Thank you. Mr. Keeney?
    Mr. Keeney. Congressman Abercrombie, thank you for the 
question. With regards to the harvesting of corals in the U.S. 
waters, they are very strictly regulated. There is still some 
going on, but we are moving in the direction of prohibiting it 
entirely. Right now there is still some harvesting going on.
    I think the bigger issue for the United States is one of 
trade. The U.S. is by far the world's largest importer of 
ornamental coral reef species, including 60 to 80 percent of 
live coral, 95 percent of the live rock, and an estimated 50 
percent of all live reef fishes. So, we are definitely part of 
the problem and therefore need to be part of the solution.
    Mr. Abercrombie. Right. What about the reef fish question? 
You know I am very, very much concerned about CITES, you know, 
the Convention on International Trade in Endangered Species. 
That has had its fits and starts and all the rest of it. But 
the idea is good and it is taken seriously by people. What 
about reef fish in that context, if you feel competent to 
comment on it inasmuch as you raised it in conjunction with my 
question.
    Mr. Keeney. I know there is certainly concern about the 
taking of reef fish and the way that they are taken, which is 
one of the reasons why there is so much interest in holding 
significant portions of coral reefs apart from the ability to 
take any resources from those.
    Mr. Abercrombie. As you say, most of this is imported. Do 
you think what we might need is legislation that would forbid 
the importation if we thought that that would do it? We can't 
regulate overseas.
    Mr. Keeney. No, but there could be legislation that would 
have an impact on how it is taken. In other words, we could put 
restrictions on importations from areas where certain practices 
are used to harvest the coral. Therefore, I think it could have 
an impact.
    Mr. Abercrombie. And if we had evidence that the material 
was not being harvested in a manner that was acceptable to us 
that we could forbid its importation?
    Mr. Keeney. I believe we could.
    Mr. Abercrombie. OK, that is a good thing to know. Thank 
you.
    Judge Manson. Mr. Abercrombie, if I might add to that, Mr. 
Keeney mentioned CITES and you mentioned CITES in your question 
as well. Of course, the coral trade is regulated through CITES. 
The CITES Conference of the Parties will take place this 
November and I will be heading the U.S. delegation to that 
conference.
    The Coral Reef Task Force meets in October, so we will have 
an opportunity to discuss it at the task force meeting in 
October.
    Mr. Abercrombie. Where will that be held?
    Judge Manson. That will be in San Juan on October 2nd and 
3rd. Then the CITES conference will take place in Santiago in 
November 3rd through the 15th. So, there is an opportunity 
coming real soon to have the task force discuss the issue and 
although there is not a formal proposal in front of CITES, but 
certainly an opportunity to discuss it with all of the parties 
at the CITES conference as well.
    Mr. Abercrombie. I will follow up with you as well because 
there is interest in perhaps a delegation from this Committee 
going to the meeting in Santiago, I know that. Maybe we could 
follow up on that with each other.
    Judge Manson. Sure. We would be glad to assist the 
Committee in that respect.
    Mr. Abercrombie. Mr. Pombo has that responsibility.
    Judge Manson. Right.
    Mr. Abercrombie. Now, for the both of you also, in your 
testimony you mentioned the USGS scientists are mapping patch 
reefs in Hawaii and Indonesia. I presume this is part of a 
larger international effort that kind of follows up on what we 
just said. Where else in other countries are U.S. Federal 
agencies conducting research or are we? That is really my 
question. Are we conducting research then in any cooperative 
way with any other countries on the mapping of the reefs?
    The reason I asked the question, I think it is fundamental 
to getting a perspective, a legislative perspective on what we 
need to do legislatively.
    Judge Manson. I am told, Mr. Abercrombie that we are not 
doing any more than just a very minimal amount.
    Mr. Abercrombie. But you are authorized to do so, are you 
not?
    Judge Manson. That would seem to be the case.
    Mr. Abercrombie. No, wait a second. It is Section 207. If 
we can do this, then we can get appropriations to do it. That 
is what I am saying. We are authorized and I am interested in 
whether or not this is progressing. Because if we don't get the 
other countries involved in this, we are going to have a 
problem making it work.
    Judge Manson. Well, we don't presently have funding to do 
it on a broad scale. There is some international effort ongoing 
that we participate in that is funded by grant monies 
primarily, but it is on a very, very low level.
    Mr. Abercrombie. Well, do we need to increase the USGS 
budget for this? Do we have scientists who can do it?
    Judge Manson. Well, we certainly have scientists who can do 
it. Of course, you are aware of how the budget process works. I 
certainly will discuss this with the USGS as we go forward.
    Mr. Keeney. Congressman, I have a couple of things I would 
like to mention. We put a priority first of all on our State 
areas and territory areas and also working closely with the 
freely associated States. We had, in the beginning part of this 
year, from January to February of 2002 NOAA major research 
crews to American Samoa to share assessment and monitoring 
approaches and techniques with local researchers and managers.
    We had the NOAA research vessel, Townsend Cromwell and 
allowed Samoan researchers to conduct some of their first 
assessments on coral reef resources in remote outer islands and 
deployed several satellite linked coral monitoring stations to 
predict coral reef bleaching.
    Mr. Abercrombie. Do you think that needs to be expanded?
    Mr. Keeney. Well, we have expanded the dollars.
    Mr. Abercrombie. In other words, the NOAA budget is an 
appropriate vehicle for this, right?
    Mr. Keeney. It is. That is how we are able to do this work. 
We have expanded our international program from $81,000 in the 
year 2001 to $500,000 this year in the international arena.
    Mr. Abercrombie. For purposes of informing the Chair, could 
you go over what kind of a budget might be necessary in order 
to do as comprehensive a job as you think would be warranted 
under the circumstances and conditions of the perspective that 
you folks have outlined so far today?
    Mr. Keeney. Certainly. If we could, we would like to 
provide that for the record.
    Mr. Abercrombie. Sure.
    Mr. Abercrombie. Mr. Chairman.
    Mr. Gilchrest [presiding]. Thank you very much, Mr. 
Abercrombie. I appreciate your help. I had a group from the 
Philippines in the back here.
    Mr. Abercrombie. Yes. For those of you who may not have 
realized it, Mr. Gilchrest had to leave for a little while, so 
theoretically I was in charge of this Committee for the moment. 
But if all of you promise not to tell Mr. Armey so that his 
heart doesn't have palpitations, why, we will just go on with 
the hearing at this point.
    Mr. Gilchrest. I don't think it was in theory. It was in 
fact, Mr. Abercrombie. Thank you very much.
    I guess I would have just one other quick follow up 
question. I will read the testimony and the report that you 
have given us here this morning. Can you point to, and maybe 
you related this to Mr. Abercrombie, and I appreciate the 
questions about the funding issues.
    Those are, I think, a shared responsibility between the 
Administration and us as Members of Congress. We do the 
authorizing so we try to push it as far as we can for the 
appropriators. I'm sure it would be of great help if the 
Administration would put the number at a higher level. But all 
of us in this room, probably, have to deal with the mysterious 
entity of OMB.
    I am always amazed when I see some live human being from 
OMB. I actually have to shake their hand and touch them because 
we don't get to do that very often. But I think the effort 
between the administration and the Congress would be helpful if 
we pushed some of these numbers up. We will on this side.
    There were a number of comments made earlier about 
solutions to the coral reef problems, more aggressive 
implementation for a no-degradation standard? Can you point to 
an area where coral reefs are beginning to come back that were 
suffering the effects of bleaching or soil erosion or disease 
or something of this nature, partly so we can tell our 
colleagues that because of this program these coral reefs have 
been restored to a healthy State or are being restored?
    Mr. Keeney. Mr. Chairman, we are aware of certain areas in 
the Florida Keys that are especially protected areas that are 
recovering and improving because of their protection.
    Mr. Gilchrest. Now that means that there are certain --
    Mr. Keeney. Areas set aside.
    Mr. Gilchrest. Are those areas that are set aside also 
protected from degradating practices of land use? Has land use 
changed? Was it necessary to change land use to protect those 
coral reefs?
    Mr. Keeney. I think the protection is more so from the more 
direct impacts of fishing and diving, recreational uses, and 
the taking for specific commercial use.
    Mr. Gilchrest. Of the coral?
    Mr. Keeney. Yes.
    Mr. Gilchrest. Mr. Manson?
    Judge Manson. You asked about bleaching and the recovery 
from bleaching. The Howland Baker Jarvis Refuge suffered a 
bleaching incident. Department of Interior and NOAA scientists 
worked together on that issue. I understand that they are 
seeing some signs of recovery with respect to that.
    On the Virgin Islands, DOI is currently monitoring the 
recovery of Elk Horn Coral there as well. I can certainly get 
some more specifics about that and provide them for the record.
    Mr. Gilchrest. Well, we would appreciate that. It would 
help.
    Mr. Gilchrest. Maybe I should ask the next panel how they 
come back if they were being bleached. What was the reason for 
the bleaching and what was the remediation technique used to 
restore that?
    Do we have any idea how much coral is brought into the 
United States and might the Administration make a 
recommendation to prohibit the importation of coral into the 
United States?
    Mr. Sobel. Mr. Chairman, there have been some good reports 
put together on the volume of trade, including ones that were 
generated through the Coral Reef Task Force. I believe at least 
one report that came through the trade subgroup from the task 
force and there was a second one, I think, also done through 
AAAS addressing some of that. That information is available.
    Mr. Gilchrest. Do the reports describe where it comes from 
and to whom it is sold?
    Mr. Sobel. I believe it does. It does identify the portion 
the U.S. is responsible for. I believe that Mr. Keeney covered 
some of those percentages in his testimony. That information is 
available and has been compiled in terms of where it comes 
from.
    Mr. Gilchrest. Is that both live coral and dead coral?
    Mr. Sobel. I believe it goes to both the live rock issue 
and to the living coral that was removed and then became dead 
as it was transported. I don't know all the specifics on that 
report, but I can get back to you and provide a copy if you 
would like.
    Mr. Gilchrest. I would appreciate it.
    Mr. Gilchrest. Is there any recommendation from the task 
force to prohibit or limit the sale of coral in the United 
States? Does the sale of coral have an impact on coral reefs?
    Mr. Sobel. I think it unquestionably does, particularly on 
foreign reefs.
    Mr. Gilchrest. I guess I am asking too many questions.
    Mr. Sobel. No. In terms of foreign reefs, I think it is an 
important factor in some countries. In the U.S., as I think Mr. 
Keeney said previously, we don't allow much coral harvest in 
this country. So, that is not a big issue.
    I think we were also asked about reef fish. There is a lot 
of harvest of reef fish and invertebrates and those practices 
have considerable impacts on U.S. reefs.
    Mr. Gilchrest. And that is still allowed right now.
    Mr. Sobel. Yes, that is still around. We would not suggest 
that all of that be banned, but we would certainly suggest that 
we need some areas that are set aside so that you can protect 
those practices in the future to be sustainable and continuing, 
that you have those areas as reference points so you understand 
what the impact of that harvesting is.
    Mr. Gilchrest. Mr. Keeney, are the coral reefs in the 
Florida Keys protected from any harvesting of any type?
    Mr. Keeney. There are certain areas. It is a zone 
management complex for the Florida Keys National Marine 
Sanctuary. There are certain areas where harvesting is allowed, 
but to a very limited extent.
    Mr. Chairman, I also have with me some information which I 
would like to provide for the record, along with some 
additional information on your questions of live coral imports 
by the United States.
    In the year 1988, there were 100,000 items imported of live 
coral into the United States. And in the year 2000, there were 
400,000. So that is an increase of 300 percent.
    Mr. Gilchrest. Did these come from a variety of places? 
Where did all that come from? Is there a syndicate that deals 
with this issue, buying and selling, or a few companies you 
look at? How does that work?
    Mr. Keeney. I believe most of this came from Indonesia and 
the Western Pacific. I am not aware of any particular 
companies, but we can provide additional information for the 
record.
    Mr. Gilchrest. Would you say that those 400,000 pieces 
would have an minimal impact on coral reefs, a negligible 
impact on coral reefs, a major impact on coral reefs?
    Judge Manson. Mr. Chairman, if I could just add something 
that may help illuminate this, there is a group called the 
Marine Aquarium Council that tracks harvest and trade in coral 
items to determine if it is done in a sustainable manner. They 
have a recent report out. They have worked closely with the 
task force on that endeavor. We can certainly supply to the 
Committee the report of the Marine Aquarium Council.
    Mr. Gilchrest. What is the Marine Aquarium Council? Is that 
a government entity or a private entity?
    Judge Manson. As far as I know, it is a non-governmental 
entity, but they track harvest and trade of coral with the goal 
of ensuring the sustainable harvest.
    Mr. Sobel. Mr. Chairman, if I could comment on two things 
quickly, just to be clear about some things, in the Florida 
Keys about 6 percent of the reefs are currently protected from 
harvest. Almost all of that is in the most remote area known as 
the Tortugas and resulted from a tremendous inter-agency 
process that developed a very strong consensus for setting that 
area aside.
    There are also some other areas that through task force 
action or in relationship to the task force that have recently 
been developed in terms of monuments in the Virgin Islands, in 
terms of some of the big refuges in the Pacific and in terms of 
the Northwest Hawaiian Islands where there is a developing 
coral reef reserve. There is a coral reef reserve and a 
developing National Marine Sanctuary that would set aside some 
of those areas almost free of extraction. Those are the main 
areas that have been set aside.
    With respect to the U.S. Virgin Islands and the two 
monuments there, the implementation of those has been slow 
because of some jurisdictional questions. There is a pending 
GAO report that I understand has largely been completed but has 
not been released that goes to that jurisdictional issue. We 
would urge you to get that information out if possible.
    Mr. Gilchrest. What do you mean, jurisdictional issue? What 
are the conflicting jurisdictions?
    Mr. Sobel. When those monuments were set up there were some 
questions regarding Federal versus territorial control in some 
of those areas.
    Mr. Gilchrest. I see. OK.
    Mr. Sobel. So, those monuments were set up. Some questions 
had been raised. We think the answers are available, but that 
report has not come out. As a consequence, we understand that 
the monuments are not moving forward to implementation the way 
they should be.
    We would encourage you to at least get the information out 
and then let the cards fall where they may. On a more 
encouraging note in the Virgin Islands, I understand that there 
is also a territorial park plan that is moving forward and it 
looks like it is also going to set off some areas within the 
territory. So, you have the potential there for some good 
developments.
    In Guam you have had a very long process, a 14-year 
process, which I think the gentleman from Guam has already 
reported to this Committee on testimony on Marine Protected 
Areas, about how they got to the point where they were setting 
aside, I believe it was 10 or 11 percent of their inshore coral 
reefs.
    So, there is some progress being made in those areas and 
that progress needs to keep going.
    One of the real potential areas is in the Northwest 
Hawaiian Islands where you have a very large reserve set up, 
some small areas that have been set up that are nearly fully 
protected. But there has been a delay in the implementation of 
those closed areas.
    We would, again, seek to see those being implemented.
    Mr. Gilchrest. We will take a look at what is causing the 
delay.
    I have another assignment today and we have one more panel. 
I would like to spend the rest of the day here. But I 
appreciate, you have given us some good insight, Mr. Sobel, on 
many fronts. The jurisdictional issue and the delays will be a 
high priority of ours over the next couple of days.
    Judge Manson. If I could just add one thing, Mr. Chairman.
    Mr. Gilchrest. Yes, sir, Judge.
    Judge Manson. I would like to add one thing about the 
jurisdictional issue in the Virgin Islands, Mr. Sobel is 
correct, there have been questions raised about that. I am told 
that the GAO, which was looking into the jurisdictional issue, 
has actually completed its report and may have in fact already 
transmitted it to the Member who requested it.
    I am also told it may be publicly available within a very 
few days. So, we are looking forward to that as well so we can 
make some decisions about the planning process in the Virgin 
Islands.
    Mr. Gilchrest. Well, thank you very much, Mr. Manson. We 
will follow up on that as well and get a copy of that GAO 
report.
    Mr. Keeney?
    Mr. Keeney. Mr. Chairman, you asked a question at the 
beginning today's hearing with regard to the communication of 
scientific data, moving it from the scientific community to 
policymakers.
    I just wanted to answer that Vice Admiral Lautenbacher had 
recently completed a program review for all of NOAA's programs. 
As part of that review, he placed a certain priority on 
environmental education and environmental literacy as well as 
improved communication with policymakers.
    So, this is a report which is currently in the process of 
being completed. It should be available within the next few 
weeks. I think you might find it interesting.
    Mr. Gilchrest. Thank you very much, Mr. Keeney. If there is 
any assistance we can provide in that area as far as 
cosponsoring an event or a breakfast or a dinner, or even 
having Judge Manson invite us up to Interior, a dozen or two 
dozen members for breakfast sometime, or even an evening meal. 
I say ``meal'' because we as Members are jumping around eating 
a hot dog at 3 o'clock in the afternoon after we missed 
breakfast. Well, I shouldn't say. We will bring the food.
    I think Mr. Keeney, Vice Admiral Lautenbacher is to be 
praised for something like that. If there is any way that 
myself or other Members can connect with helping to cosponsor 
an event, we would like to do that so that we could also help 
with certain key Members on both sides of the aisle, come and 
help learn more about these issues.
    Mr. Keeney. Chairman Gilchrest, we did just have a NOAA 
fish fry about 3 weeks ago. If the Congress would have 
cosponsored it, we probably could have brought the price down 
to a more reasonable amount.
    Mr. Gilchrest. Well, we would like to do the next one, help 
you with the next one.
    Mr. Keeney. Fine. Thank you.
    Mr. Gilchrest. Mr. Keeney, Judge Manson, and Mr. Sobel, 
thank you all very much for coming this morning.
    The next panel will be Dr. Anne Cohen, Woods Hole 
Oceanographic Institution; Dr. Alan Strong, Supervisory 
Physical Scientist, Oceanographer, for NOAA; Dr. Robert 
Buddemeier, Senior Scientist, Geological Survey, University of 
Kansas; and Dr. John Ogden, Director, Florida Institute of 
Oceanography.
    Mr. Gilchrest. Welcome, folks. We appreciate your 
attendance here this morning. We look forward to your 
testimony.
    Dr. Cohen, welcome to Maryland from Massachusetts. I hope 
it is not as hot in Massachusetts as it is in Maryland. You may 
begin.

    STATEMENT OF ANNE COHEN, RESEARCH ASSOCIATE, WOODS HOLE 
                   OCEANOGRAPHIC INSTITUTION

    Ms. Cohen. thank you, Mr. Chairman and members of the 
Subcommittee for this opportunity for me to talk about my work 
to you today. My name is Anne Cohen. I am a geochemist at the 
Woods Hole Oceanographic Institution in Massachusetts.
    My work involves the chemical analysis of fossil coral 
skeletons. From those chemical analyses, we learn about the 
conditions in the ocean in which those corals grew.
    My first slide shows a process in three photographs of 
coral bleaching. What you are seeing here is a vast area of 
pristine coral reef in June 1998, followed by a couple of 
months later the bleaching process which involves expulsion of 
the algasymbions on which the corals depend for life.
    The process is called bleaching because the corals turn 
white in the process, following by a month later death and 
mortality of a vast area of that reef.
    Over the past two decades, Mr. Chairman, we have seen --
    Mr. Gilchrest. Could I just interrupt for a quick second 
and ask where that is.
    Ms. Cohen. This the Red Sea.
    Mr. Gilchrest. And what year was that?
    Ms. Cohen. This is 1998.
    Mr. Gilchrest. Thank you.
    Ms. Cohen. Over the past two decades, at least since the 
late '70's, we have seen a dramatic increase in the frequencies 
of severity and geographic extent of coral bleaching events. In 
fact, only 2 percent of all known coral bleaching events 
occurred 1979 and 98 percent of those bleaching events have 
occurred since 1979 in the succeeding years.
    This dramatic rise in coral bleaching has coincided with an 
increase in global temperatures. This slide shows the increase 
in the heat content of the global ocean since 1948. You can see 
that the coral bleaching in the 1970's coincides with the 
anomalous warming of the global oceans, which has continued 
since then.
    The increase in global air temperatures and global ocean 
temperatures since the 1950's coincides with an increase in the 
carbon dioxide content of the atmosphere, which is directly 
related to the human consumption of fossil fuels.
    This slide shows the direct correlation between increase in 
global temperatures in the blue line and the increase in the 
carbon dioxide concentration of the atmosphere in the red line.
    We know, Mr. Chairman, that corals bleach when the ocean 
temperature exceeds approximately one degree Celsius, exceeds 
one degree above what they are used to, what the maximum summer 
temperature is in that region.
    Thus, even at Bermuda which we once thought was immune from 
coral bleaching because it is situated in the middle latitudes 
and it is generally cooler than the tropical regions, we have 
seen since 1988 extensive bleaching events coincident with the 
anomalous warming of the surface ocean.
    These arrows indicate coral bleaching events in 1988, in 
1993 and in 1998, coincident with high temperatures at Bermuda.
    So, the question is: Are the increased temperatures and the 
extensive coral bleaching that we are seeing, is this something 
that corals have seen before? Is this something anomalous, 
unprecedented or is it something to which the coral have 
adapted in their million year long history?
    What I do is, I analyze the chemical composition of coral 
skeletons to allow me to reconstruct past oceanic conditions 
and attempt to answer this question.
    What this slide is showing in the red is a history of the 
sea surface temperatures at Bermuda over the past 350 years, 
which we read from massive brain corals. What you can see is 
that the sea surface temperatures at Bermuda have indeed 
fluctuated quite dramatically over the past 300 years, since 
the early 1700's.
    These fluctuations coincide with natural variations in the 
climate system. We know that there was a little ice age in the 
mid 1700's due to changes in the solar output of the sun. We 
know that in 1815 Mount Tambora in Indonesia erupted and that 
caused a dramatic cooling of the surface oceans. These are all 
natural climatory items that we expect in the record.
    But the corals, as you can see since 1979 at Bermuda have 
seen nothing like the dramatic increase in the sea surface 
temperatures that prompted the first bleaching events in 1988.
    Tree rings can take us even further back in history. What 
you are seeing here are the average temperatures between 30 
degrees north and 30 degrees south, read from the rings of 
fossil trees, going back 1200 years ago.
    The red line shows the air temperatures read from the 
trees. You can see that air temperatures are fluctuated over 
the past 1200 years due to natural climate variability. Indeed, 
about 1,000 years ago the temperatures were about as high as we 
recorded them in the 1950's.
    However, if you look at the blue line, which is the 
instrumental record of temperatures over the same time period, 
you can see that in the last 20 years these trees have seen 
nothing like the dramatic rise in the air temperatures that we 
are recording today, at least over the past 1200 years.
    So, in summary, Mr. Chairman and members of the 
Subcommittee, you can say that the magnitude of the global 
warming that we recorded since 1980 is unprecedented, at least 
in the past 1,000 years. It is probable that the extent of the 
coral bleaching and the severity in the global extent of the 
bleaching that we are seeing in the past 20 years is also 
unprecedented in the past 1,000 years.
    We can say that the rate of change is probably too high to 
enable the corals to adapt. There is no sign now that the 
corals are actually adapting to the rapid rise in ocean 
temperatures. A long term target of one degree Celsius above 
the 1990 global temperatures may prevent eradication of the 
world's coral reefs because we know that this mass bleaching 
occurs when the ocean temperatures rise about one degree 
Celsius above what the corals are used to.
    Therefore, CO2 emissions which we know are directly related 
to the rise in the global air temperatures must be stabilized 
accordingly.
    Thank you very much.
    [The prepared statement of Ms. Cohen follows:]

      Statement of Dr. Anne Cohen, Research Associate, Woods Hole 
          Oceanographic Institution, Woods Hole, Massachusetts

    My name is Anne Cohen. I am a scientist at the Woods Hole 
Oceanographic Institution, in the Department of Geology and Geophysics. 
My research involves the reconstruction of climate variability over the 
past 1000 years. The goals of this research are threefold: first, to 
place our direct observations (i.e. experience) of climate over the 
past century within the context of longer term climatic variability; 
second, to enable recognition of the impact of human activity on 
climate and third, to enable assessment of the impact of climate 
variability on marine ecosystems, specifically on coral reefs.
    The thrust of my comments today is that the climate change that we 
observe in the instrumental records since the middle of last century 
are unprecedented in the past 1000 years. The climate change to which I 
refer includes the observed increases in ocean and atmospheric 
temperature, changes in atmospheric circulation patterns and increases 
in atmospheric CO2. The increases that we have experienced during our 
lifetimes and which we have directly measured fall outside of the range 
of natural variability as we know it to have been prior to the 
industrial revolution.
    Large-scale eradication of coral reef ecosystems is one of the 
risks of continued anthropogenic interference with the climate system. 
The two major threats of the current climate change to coral reef 
health are
        (1) Lincreased surface ocean temperature, which causes coral 
        bleaching and death,
        (2) Lincreased atmospheric CO2, which may acidify the ocean 
        causing reefs to dissolve, and reducing the ability of corals 
        to make new skeleton.
    My testimony today will focus on the threat to coral reef 
ecosystems of increased surface ocean temperature due to greenhouse gas 
emissions. In the past two decades, frequent and severe episodes of 
coral reef bleaching (see figure below) have occurred on a scale that 
is unprecedented in the history of coral reef observations. These 
episodes are coincident with a rapid rise in global temperatures 
recorded since the mid-1970's. I will demonstrate, using several 
independently derived datasets, that the rate and magnitude of global 
warming observed in recent decades is unprecedented in the past 1000 
years of Earth's climate history.




[GRAPHICS NOT AVAILABLE TIFF FORMAT]

Coral Death and Climate Change: Our Direct Observations
    Since the early 1980's we have witnessed extensive, basin-wide 
coral reef bleaching and mortality that have claimed, on some reefs, up 
to 90% of the living corals. While localized and reversible bleaching 
events had been recorded by scientists since the 1920's (Williams and 
Bunkley-Williams, 1990), these are dwarfed by the global extent, 
frequency and severity of the bleaching episodes of the past 20 years.
    All major events in the past 2 decades coincide with extended 
periods of anomalous warming of the surface ocean. Although most of the 
damage thus far has been to tropical reefs, the cooler, more northerly 
reefs of Hawaii, Johnston Atoll and Bermuda (see below) first showed 
signs of bleaching in the late 80's and continued through the 90's.




[GRAPHICS NOT AVAILABLE TIFF FORMAT]

Has This Happened Before?
    Intensive scientific monitoring of coral reefs and scientific 
understanding of the factors affecting coral reef health are relatively 
recent. Observations of extensive reef bleaching and mortality began in 
the early 1980's, following the 1982/1983 El Nino. From field 
observations and laboratory experiments we know that corals bleach when 
sea temperatures increase about 1'C above the normal summer ambient 
temperature for that region. We also know from information stored in 
coral skeletons (the work that I do), tree rings and other biological 
archives, that climatic conditions have fluctuated significantly in the 
geologic past. Ocean temperatures have oscillated between periods of 
cool and periods of warmth and coral reefs have survived these 
fluctuations. Is it possible that bleaching events of the severity and 
extent of the past 2 decades have occurred in the past in response to 
natural fluctuations in the climate system?
    To answer this question we need to look into the distant past. 
Scientists have not yet developed a technique by which we can tell 
whether a fossil coral died from bleaching. However, we can tell what 
the ocean temperatures were at the time of death. We also know that the 
species found on reefs in the past 1000 years were the same as they are 
today and that they tolerated the same range of temperature. Therefore, 
to answer the question posed above, we need to address the question 
posed below:
    Are the ocean temperature anomalies of the past 2 decades 
unprecedented in history or are they part of the natural cycle of 
climate variability to which corals have adapted?
    The instrumental record of temperature indicates that the 1990's 
were certainly the warmest decade on record (see below). However, the 
instrumental record is short, giving us a limited perspective of 
variability through time. For example, a program to monitor ocean 
temperatures off Bermuda (Hydrographic Station S) began in 1954; global 
sea surface temperatures have been recorded remotely, by satellite, 
since 1981.




[GRAPHICS NOT AVAILABLE TIFF FORMAT]

Climate Change: The Past 1000 Years
    To gain some perspective on climate change over a longer period of 
time, we need an alternative source of climate information. Longer 
records of past climate are preserved in geological and biological 
archives--in deep ocean sediments, ice cores, in tree rings and in the 
skeletons of massive corals. These proxy records--many of which are 
based upon the biological response to climate change--enable us to see 
into the past, back beyond the start of instrumental recordings. While 
the sources of data, their resolution and their coverage in space and 
time are varied, they all show fairly large and consistent fluctuations 
in ocean and atmospheric temperatures over the past 1000 years. These 
fluctuations are associated with natural climate forcings including 
changes in solar output and volcanic eruptions.
    However, all records show a large, rapid and unprecedented increase 
in temperature over the last half of the 20th century.
    Past Ocean Temperatures: From brain corals at Bermuda, we get a 
record of ocean temperatures since 1725 AD. The density of the 
skeleton, shown by the x-radiograph below left, increases when it is 
warm and decreases when it is cool. The coral record (below right) 
shows that water temperatures on the Bermuda platform have fluctuated 
over the past 300 years, but the magnitude and persistence of the warm 
temperatures since 1980 are clearly a recent phenomenon. The timing of 
the first extensive reef bleaching at Bermuda is indicated by the 
arrow.



[GRAPHICS NOT AVAILABLE TIFF FORMAT]

    The temperature record from sediments cored nearby on the Bermuda 
Rise (from Keigwin 1997) enables us to see even further back into the 
past, although in less detail. The record shows that open ocean 
temperatures oscillated between generally warmer and generally cooler 
periods between 3500 and 250 AD (open circles, below).



[GRAPHICS NOT AVAILABLE TIFF FORMAT]

    However, these historical fluctuations are small when seen against 
the most recent recorded summertime temperatures on Bermuda (below). 
The red circle indicates the temperature at which corals bleached at 
Bermuda in 1998. The temperature obtained at this time is unprecedented 
in the past 3500 years.



[GRAPHICS NOT AVAILABLE TIFF FORMAT]

    Past Atmospheric Temperatures: Tree rings (below left) preserve a 
record of atmospheric temperature. The combined northern and southern 
hemisphere tree ring record shows atmospheric temperature changes over 
the past 1800 years (red line, below right--from Cooke 2002). 
Oscillations between warmer and cooler periods are seen throughout the 
record, but the magnitude and rate of warming of the atmosphere in the 
past 2 decades clearly exceeds all previous warm events. The timing of 
the 1983 Pacific bleaching event is indicated by the arrow.



[GRAPHICS NOT AVAILABLE TIFF FORMAT]

    Underground Temperatures: Underground temperature measurements were 
examined from a database of over 350 bore holes in eastern North 
America, Central Europe, Southern Africa and Australia (from Pollack et 
al.) The data below show the 20th century to be the warmest of the past 
five centuries. The timing of the first observations of extensive coral 
reef bleaching is indicated by the arrow.



[GRAPHICS NOT AVAILABLE TIFF FORMAT]

Where to from Here?
    Coral reefs as we know them have been in existence for millions of 
years. They have survived major changes in the climate system, 
including oscillations between glacial and interglacial cycles that 
involved fluctuations in mean air temperature of 7-10 'C over fairly 
short periods of time. They have survived through periods of sea level 
rise and fall, meteor impacts, volcanic eruptions and changes in solar 
activity, and somehow the reefs have recovered. But the time scales of 
those recoveries were long, often many thousands of years and certainly 
outside of the time frame of our comparably short-term interests.
    If we kill the reefs, the waiting time to get them back may be tens 
of thousands of years.
    The frequency, severity and extent of coral reef bleaching and 
mortality that we have witnessed over the past 2 decades coincide with 
a rapid warming of the surface oceans. The evidence from proxy records 
over the past 1000 years indicates that atmospheric and oceanic 
temperatures have oscillated during this time between periods of 
relative warmth and periods of relative cooling. However, the rate and 
magnitude of the recent warming is unprecedented. Therefore, it is 
probable that the extent and severity of the observed coral reef 
bleaching is unprecedented as well, at least in the past 1000 years. 
Corals today show no signs of adapting to the rise in ocean 
temperatures and physiological constraints prevent corals from 
retreating to deeper waters or to higher latitudes to escape warming in 
the tropics. We can relieve coral reefs of the additional stresses 
imposed by pollution, development, exploitation and recreation that may 
slow the recovery from severe bleaching events. However, the evidence 
indicates that the impact of global warming affects coral reefs 
indiscriminately, independent of their health.
    Modeling studies show that the warming of the past 2 decades is not 
due to natural forcing; it is anthropogenic in origin (Levitus et al., 
Science, 2002).
    If preserving these unique and valuable ecosystems is considered to 
be in our best interest, then defining a long-term goal for climate 
change policy remains a critical international challenge. A long-term 
target of 1 'C above 1990 global temperatures would prevent severe 
damage to at least some reef ecosystems. However, the implications of 
this target for limiting CO2 emissions is uncertain because the extent 
to which biological uptake of CO2 will counteract the build-up is not 
predictable at this stage (O'Neill and Oppenheimer 2002). Model 
predictions for CO2 stabilization at 450 ppm by 2100, i.e. the Kyoto 
target, predict an average global warming of between 1.2 and 2.3 'C 
(Cubasch et al. 2001), insufficient to prevent loss of many reef 
systems and widespread reduction in reef health. Therefore, 
preservation of coral reef ecosystems requires immediate implementation 
of globally co-ordinated actions to stabilize greenhouse gas 
concentrations at a level that avoids dangerous anthropogenic 
interference with the climate system.



[GRAPHICS NOT AVAILABLE TIFF FORMAT]

                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Cohen.
    Dr. Strong.

   STATEMENT OF ALAN STRONG, SUPERVISORY PHYSICAL SCIENTIST, 
OCEANOGRAPHER, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION 
                         SCIENCE CENTER

    Dr. Strong. Good morning, Mr. Chairman, and others on the 
Subcommittee and staffers. Thank you for the opportunity this 
morning to give you some of our perspective at NOAA where we 
have been working with a program we call, ``Coral Reef Watch.''
    This program has developed largely through many folks that 
had been working with our satellite data, not only globally, 
but internationally, concerned about bleaching, looking for 
early warnings, looking for insight from satellite, 
particularly sea surface temperature data, like Anne has just 
been referring to, that give you some insight as to the 
potential of getting information out quickly in the field that 
a bleaching event may be occurring.
    People want this information. Information is power, you 
know, so not only reef managers but, as I say, internationally 
information is sought and now the Internet makes it a great 
vehicle to get these data out from satellite.
    To move on to the next illustration, bleaching as we have 
already heard, obviously, there is background information, but 
more recently there has been this unprecedented El Nino that we 
had in 1998. We are look now, I know, for another one. 
Hopefully it won't be of the magnitude of that unprecedented El 
Nino in '98, but along with it, much bleaching, an extreme 
amount of bleaching that occurred, particularly in the Indian 
Ocean, but globally, where coral reefs saw more bleaching and 
more damage, more mortality than had ever been noted before.
    I would like to say, obviously, with the satellite data we 
are now able to look at this information and to get information 
out to folks in the field and to warn them that there might be 
events like this. So, data are coming even out of drawers that 
had not been processed, realizing these events sometimes have a 
more massive overview, particularly like in the Indian Ocean, 
than they have been able to put together before because they 
saw that not only in Kenya, but over in Indonesia and other 
areas that bleaching was occurring.
    Obviously, behind it all we have this underlying global 
rising baseline of temperatures. I am going to be showing you 
in the next slide in a second just what we have been seeing 
from our satellite data.
    Fortunately, with the satellite data we can look at the 
total global oceans and we can see over the last two decades 
where these rises have been occurring, where any decreases have 
been occurring and it gives us a lot more insight about not 
only things like El Nino, but other things that oceanographers 
are becoming increasingly curious about.
    I think we all are. As scientists, we want to understand 
Pacific Decadal Oscillation and how this plays into variability 
in the climate system. The North Atlantic Oscillation, the 
Conveyor Belt, these are all terms that have sprung up recently 
since I went to school. There is certainly a lot of us to 
learn. I am hopeful the satellite data will show us this 
because as we look at the next overview, the upper panel, we 
wanted to show you the most recent data that we put together.
    We believe this a very accurate set of sea surface 
temperature data, reprocessed to take advantage of the latest 
techniques. So, what you are looking at here are trends in 
temperature tendencies over the last 16 years, a couple of 
years after El Nino, so that hopefully we have gotten 
statistically beyond that major event.
    But we see areas in the ocean that I have colored in red 
where temperatures are increasing at a rate equal to or greater 
than two-tenths of a degree Celsius per decade or two degrees 
per. If this were to occur over a century, which is an alarming 
rate.
    There are also areas as you can see in the central Pacific, 
for example, that are cooling. There are some reefs in these 
areas, maybe some promise for a while. Then there are the other 
areas that I have highlighted in green where it is not so 
alarming increase or decrease.
    What this is contrasted with, though, and for those of us 
looking at these data sets always wondering why things keep 
changing, it is that as we look back at the earlier subset of 
this data where we only had 12 years to process before the past 
El Nino, in the Pacific Ocean I think you can very quickly see 
there is a very marked change. Whereas earlier temperatures off 
California had been rising dramatically, now that is not the 
case as we had the more recent data in. There has been enough 
of a cooling off California upwellings that that rate over all 
has diminished and now it is on the other side of the Pacific 
Ocean. We are thinking that this very likely to be part of the 
Pacific Decadal Oscillation that we are finally seeing that we 
can wrap our arms around and say, see the extent of the ocean 
that is involved.
    We know it also involves the Southern Hemisphere, the 
Southern Pacific Ocean. We know very little about the 
oscillations there, even oceanically, it is much bigger than 
the North Pacific and certainly we expect to find a lot more 
interesting data there.
    But you can see the Southern Hemisphere and why some of our 
colleagues like the folks we work with from Australia, for 
example, up until the last El Nino, they weren't really 
concerned about global temperature changes because you can see 
a lot of cooling in that hemisphere.
    Now, that is changing. As you can note, off Australia, and 
I think I have an exhibit for you of the recent bleaching event 
in Australia that has just occurred in the Great Barrier Reef 
where they have seen unprecedented bleaching. It wasn't couple 
with El Nino. There was a weather event during the summer where 
a tremendous amount of bleaching occurred.
    I'll move to the next illustration. We are putting out 
buoys. We have a number of towers that we are putting out as 
directed by the task force. These are sights where these towers 
are going in. Some have already gone in. You can see the dates 
where they are proposed.
    For example, in Hawaii, midway already in place. These are 
the temperature trends that we are seeing presently with our 
satellite data. I have helped you out by colorizing those 
installations where we are going to get now long-term records 
in situ to keep the satellite on us and to also get other 
information that we need to get about our reefs that the 
satellite can't get. At least right now we haven't figured how 
to do nutrients and some of these other things.
    Also, there is some hope. Some of these areas down here, 
Palmyra, Howland Baker are domestic reefs where we are seeing 
cooling trends. So, there is hope for at least continuing to 
learn more about the bleaching in those areas or the lack of 
bleaching and how these reefs might protect the whole 
environment and ecosystem so we have a way to survive 
increasing bleaching events.
    OK, to the next illustration, it is conclusions. I would 
just point out that climate changes are likely to alter 
existing reefs worldwide. I think we are all in agreement. 
There are going to be some changes. Things change. What we want 
to do is to obviously, hopefully help to negate or to keep 
these impacts at a minimum.
    What can we do? We have seen since 1998 this massive 
bleaching event. This is coupled with El Nino and these other 
events and PDO changes. They are likely to be more severe as we 
go through the next few decades. But we need to monitor. We 
need to get better indices for looking at the health of the 
ecosystem, to understand it, to understand recovery, to 
understand adaptation.
    We are being sought out now and asked to be involved in 
international efforts. We can look at other reefs other than 
domestic.
    Finally, the following conclusion, what we are finding out 
that the practical steps are, we have to be able to work with 
the managers of these reef systems to get them information in a 
timely fashion. Before they were getting blind-sided and 
bleaching would happen and other events. They would be hearing 
from their constituents that something is happening, what can 
you do.
    Obviously, people weren't too impressed with someone who 
was finding things out from them. Whereas now, we are able to 
get the information, as I say, from our products, get answers 
to the reef managers. They can go into the field and say, 
``Temperatures are warming. Please let us know when it is going 
to bleach.''
    Often we have even had comments back from the folks in the 
field, ``Bleaching? It is not going to happen.'' Then it does a 
few weeks later. They start listening. Now that of course 
equips the reef managers so that they have more power, not only 
to manage the reef and hopefully during times of bleaching, to 
reduce other stresses.
    Then their constituents are more impressed and they become 
more involved in their environment and they vote. So, we are 
happy to have them on board.
    That concludes my oral testimony. I will be happy to take 
any questions. Thank you.
    Mr. Gilchrest. Thank you very much, Dr. Strong.
    [The prepared statement of Dr. Strong follows:]

    Statement of Dr. Alan Strong, Project Manager, Coral Reef Watch 
   Program, National Environmental Satellite, Data, and Information 
    Service, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

    Chairman Gilchrest and members of the Subcommittee, thank you for 
the opportunity to appear before you today. It is my privilege to spend 
a few minutes with you this morning to share what we have been learning 
at NOAA about recent climate events over the tropics and how they apply 
to our coral reefs. Our operational satellite data now make it possible 
to measure short-term trends, or tendencies, of sea surface 
temperatures (SST) at global scales since the mid-1980s.
    Coral reefs flourish mainly in the tropical latitudes, extending 
beyond 30'' north or south of the Equator in only a few cases. Every 
coral species, as well as numerous other reef inhabitants, maintains a 
special symbiotic relationship with a microscopic algae called 
zooxanthellae. These algae provide their hosts with oxygen and a 
portion of the food they produce through photosynthesis. When stressed, 
many reef inhabitants have been observed to expel their zooxanthellae 
en masse. Without the characteristic color the of the algae, the coral 
appear as a nearly transparent layer over their white skeleton. This 
phenomenon is referred to as coral bleaching. The ability of the coral 
to feed itself in the absence of zooxanthellae may be very important to 
its survival during and after a bleaching event. Recovery rates appear 
to differ, however, by species and even by colony, and the time 
required to attain full recovery of symbiotic algae may vary from as 
little as two months to as much as one year. If the level of 
environmental stress is high and sustained the coral may die.
    Although recently noted as occurring during El Nino or La Nina 
events, bleaching cannot be explained by localized stressors, natural 
variability, or El Nino alone. Nonetheless, mass bleaching is likely 
accentuated by an underlying rising baseline of global marine 
temperatures, and exacerbated by human-based activities such as 
overfishing, localized pollution and coastal land development. As 
oceanographers, we need to address other less known and poorly 
understood natural oceanic variations when attempting to understand our 
changing climate.
    As you have heard, coral bleaching, and high SSTs, have been 
observed with increasing frequency in the last twenty years--the period 
of time recorded in NOAA's satellite data. Over most of the 20th 
Century, coral bleaching was an infrequent event, and certainly nothing 
had been witnessed as large as the recent worldwide bleaching event of 
1998, or the unprecedented bleaching across the Great Barrier Reef 
earlier this year.
    It should be noted that the coral bleaching events we have been 
witnessing with increased frequency during the past two decades are 
caused by weather events--clear skies and light winds occurring roughly 
at the time of highest overhead solar angle, causing anomalous 
increases in SST. Although bleaching has been around as long as corals 
themselves, the paleo-climate record (shown in coral cores) shows that 
corals have adapted surprisingly well to these infrequent events in the 
past. Climate change acts as a modulator of these weather events. 
Virtually all the climate models predict that if warming trends 
continue or increase these bleaching events will continue to increase 
in frequency, as well as severity.
    The Pacific Decadal Oscillation (PDO) is a long-lived El Nino-like 
pattern of Pacific climate variability, whose fluctuations are 
generally believed most energetic in two general periods, one from 15-
to-25 years, and the other from 50-to-70 years. The North Atlantic 
Oscillation (NAO) is the dominant mode of winter climate variability in 
the North Atlantic region ranging from central North America to Europe 
and much into Northern Asia. The NAO is a large-scale seesaw in 
atmospheric mass between the subtropical high and the polar low. The 
corresponding index varies from year to year, but also exhibits a 
tendency to remain in one phase for intervals lasting several years. 
The ``Ocean Conveyor Belt'' transports warm ocean water from the 
Pacific Ocean through the Indian Ocean and into the Atlantic Ocean. In 
the North Atlantic, the warm water, which turns very salty due to 
evaporation during the journey, runs into cold water coming down from 
the north. The warm water cools quickly, and sinks due to greater 
density. This creates a sub-surface countercurrent which carries the 
cool water back to the Indian and Pacific oceans.
    To address coral bleaching we need to separate out, not only the 
shorter term variability of El Nino, but also the PDO, especially as it 
relates to Conveyor Belt variability of the global ocean and 
interactions between the tropics and the Southern Ocean. Our knowledge 
of these linkages to the tropics and potential involvement with coral 
reefs is still limited. Yet, it is critical that we enhance our 
knowledge of these links and put this recent upsurge of increased 
bleaching into proper perspective.
    In an additional attempt to understand the linkages of bleaching, 
SST anomalies and short term variability, we have recently reprocessed 
all of NOAA's operational satellite SST data from 1985 through 2000. 
These data are the most complete and accurate means for assessing short 
term global SST trends. Viewed globally, the trends show some 
noteworthy regions of SST increases and decreases over the 16-year 
interval. Of concern for coral reefs, notable rises in SST (in excess 
of +0.2 deg C/decade--noted in red in Figure) are seen in the ocean 
area off the southern Caribbean and off SE Asia-Japan. Significant 
decreases in SST are being seen by satellite (in excess of-0.2 deg C/
decade--noted in blue in Figure), over this time period, covering large 
portions of the central Pacific from Hawaii to American Samoa; falling 
SSTs are also shown over some of the more biologically diverse coral 
reefs of the southern Indian Ocean.
    When these most recent satellite SST trends (1985 through 2000) are 
compared with a sub-set of the SST data from the 10 years just prior to 
the 1997/98 El Nino, what appears to be a late-1990s reversal in trend 
is suggested over large regions of the Pacific Ocean. This change in 
trend is most dramatic over the North Pacific, where many regions that 
prior to the 1997/98 El Nino had been (1985-1996) exhibiting increasing 
trends (red) have now (1985-2000) become regions where decreasing 
trends (blue) are seen, and vice versa. This may be an early indication 
of a reversal underway in the PDO--only time will tell. (The last PDO 
reversal took place in the 1970s before satellite SSTs were available.) 
If this is a PDO reversal, it will only remain in this phase for a few 
decades (20-35 years) before flipping again. So, for many of those 
regions that are now experiencing a cooling trend, or a decreased 
warming trend, this must be viewed as only temporary.
    An overview of the tropics (30N to 30S), based on our satellite 
SSTs, shows that northern hemisphere tropical SSTs, on average, are 
increasing at a rate of +0.16 deg C/decade (+0.016 deg C/yr). Over the 
southern hemisphere tropics, the rate of increase is gradually 
increasing, but presently this upward rise is merely a third of the 
rate in the northern hemisphere.
    The best way to examine and understand these phenomena is to 
continually monitor the environment. NOAA's ``Coral Reef Watch'' 
program is a joint effort between the National Environmental Satellite, 
Data, and Information Service (NESDIS) and the Office of Oceanic and 
Atmospheric Research (OAR). Coral Reef Watch plans to install 
approximately 20 in situ Coral Reef Early Warning System (CREWS) towers 
to cover most domestic coral reef regions over the next five years (see 
Figure). Five of these systems will be located in regions where SSTs 
have been exhibiting notable (red) upward tendencies, namely the 
Commonwealth of the Northern Mariana Islands, U.S. Virgin Islands, and 
Puerto Rico, and two will be located in the central Pacific, a region 
presently demonstrating a cooling (blue) trend (Palmyra/Kingman & 
Howland/Baker). These stations continuously monitor key environmental 
parameters such as SST, UV, wind speed, salinity, and turbidity and 
provide ``anchor points'' to maintain satellite calibration throughout 
our domestic coral reefs. During fiscal year 02, NESDIS and OAR 
received $1.25M ($0.75M for NESDIS; $0.5M for OAR), via the NOAA coral 
reef program, to fund Coral Reef Watch and CREWS. Funding to continue 
these efforts are also included in the fiscal year 03 budget request.
    Based on these reprocessed and globally complete SSTs along with 
other observations, it is my conclusion that:
    <bullet> The first impacts of anomalous SSTs have already been 
seen in the 1998 bleaching and are likely to be more severe in the 
coming decade--only lessened in some regions (during the next two or 
three decades) by PDO;
    <bullet> There is a need to monitor environmental indices, 
ecosystems, impacts, recovery, and adaptation;
    <bullet> There are practical steps that reef managers can take, 
but to truly be effective they need timely information;
    <bullet> Reef managers with timely and accurate information 
(``early warnings'') gain credibility with their constituents enabling 
them to reduce ecosystem stress brought on by human pressures.
      * LRemote Sensing--Products--Answers
      * LKnowledge--Credibility--Empowerment
    Once again, Chairman Gilchrest, thank you for the opportunity to 
testify before you today. As my testimony indicates, using NOAA's 
environmental satellites to observe and monitor climate trends in the 
world's oceans has yielded significant information on the health of our 
coral reefs on a global scale. We hope to continue these efforts, and 
enhance our ability to provide useful, timely and accurate information 
to coral reef managers, to assist them in maintaining the health of 
these vital ecosystems. I would be happy to respond to any questions 
the Committee may have.
    Exhibits:
    1. LAnnual Bleaching HotSpot Composites: 1985-2000
    2. LCoral Reef Watch - 2002
    3. L2002 Great Barrier Reef Bleaching Event
                                 ______
                                 
    [The exhibits attached to Dr. Strong's statement follow:]


[GRAPHICS NOT AVAILABLE TIFF FORMAT]
    
    Mr. Gilchrest. Dr. Buddemeier.

  STATEMENT OF ROBERT W. BUDDEMEIER, SENIOR SCIENTIST, KANSAS 
            GEOLOGICAL SURVEY, UNIVERSITY OF KANSAS

    Dr. Buddemeier. Thank you very much, Mr. Chairman and 
members of the Committee. As usually happens when you are next 
to last on a panel, a number of my points have been anticipated 
by my colleagues. With your permission, I will skip rather 
lightly through some of the presentation.
    Mr. Gilchrest. Dr. Buddemeier, it wouldn't hurt to be 
repetitious in this place. You could repeat it a thousand times 
over and we could only benefit from it.
    Dr. Buddemeier. I won't miss any of the points, I promise 
you that. I have taken the tack of trying to answer some of the 
questions that were posed in the letter of invitation sent to 
me.
    The first one was about the issues of the nature of the 
marine climate, coral ecosystems and the effects of 
interactions. I think you will have heard already the point I 
make here that human society has systematically altered both 
the chemical composition and dynamics of the atmosphere and the 
ocean on a global scale. I want to keep emphasizing the global 
scale of this issue.
    At local levels there have been even more dramatic changes 
in terms of land use, hydrology and so on. The result has been 
that as the quality of the built environment has improved, the 
natural environment has suffered. We have lost productivity, 
diversity in ecosystem services.
    The issues for the future in one sense are very easy. We 
are going to have more of the same. We are going to have 
continued climate change effects due to the lags in the system, 
committed warming. The population is going to continue to grow. 
The pressures for development are going to continue to exist.
    Quantitative predictions are much harder to come by, in 
part because we are entering an era without precedent certainly 
in human experience and to a significant extent in earth 
history. We don'thave a model that we are working on. Our 
theoretical understanding is not up to the task of predicting 
unknown territory.
    The issue of natural variations, they are, I think by now 
and increasingly in the future of not totally trivial, but they 
are small compared to the larger scale trends we are looking 
at. Those are not the issue.
    Climate related stress, it is now, as we have heard, 
probably the dominated factor in areas not under heavy local 
stress. It is going to be a continuing contribution to combine 
stresses and it is going to increase in intensity and important 
over the coming decades, essentially no matter what we are able 
to do at a local level.
    To underscore on a somewhat longer time scale some of the 
points Dr. Cohen made, if we look at the history for half a 
million years of atmospheric CO2 retrieved from the ice cores 
of Antarctica, we see that the earth has a natural range of 
stable oscillation that is repeated over and over.
    We have in the course of a very few decades driven the 
atmospheric system outside of that natural range. We don't know 
what it means to be up here because nothing we can extract from 
the recent paleontological record tells us about that kind of 
condition.
    Similarly, on a shorter time scale here I show the same 
sorts of things with respect here not to ocean, but general 
Northern Hemisphere temperature. The yellow line shows the 
range of natural variations. The blue fur around it shows the 
level of our uncertainty about those estimates of the yellow 
line and the most recent point being 1998 here, it shows you 
how far we have gone, not only away from what nature has been 
doing by itself, but even beyond the level of our own 
uncertainty about that. We are in unchartered territory.
    If we add the projections from the IPCC onto these changes 
already noted, we see even at the low range of projected 
change, very substantial further increases in expected 
temperature, CO2 and other greenhouse gases.
    We have entered a no-analog period of earth history that 
some are calling the ``anthroposcene.'' These trends will 
continue for decades. They are not easily reversed. This does 
not mean we should not do our best to reverse them. But even if 
we do our best to reverse them, but even if we do our best, 
they are going to be with us for some time.
    As I have noted, accelerated climate change is or soon will 
be the dominant global factor in coral reef stress.
    What recommendations would I make? First, I think it is 
very important that we recognize that we are facing a situation 
that can't be reversed and can't probably be slowed down on a 
very short time scale, that the point has been made, and I 
repeat, adaptation of organisms or ecosystems to changing 
climate can be helped by minimizing the other stresses over 
which we do have short term control.
    We need a more effective way of measuring the extent and 
nature of biological effects of climate change. The issue of 
preservation and protection for future generations is important 
for aesthetics, for science, for diversity. Because this is 
such a large issue at both national and global levels, 
cooperation among agencies, organizations and even countries is 
a critical step.
    However, I think we have some real potentials here because 
as has been noted earlier, within the existing U.S. reef 
holdings, the refuge and sanctuary locations administered by 
Interior and by NOAA, there is the basis for a combined 
preservation and research and monitoring effort to deal with 
these issues.
    I will quickly run through a few pictures. This color 
coding is for the carbonate saturation state. The greener it 
is, the more easy it is for corals to build their calcium 
carbonate skeleton. We calculate that 150 years ago all of the 
Pacific, at least all of the Pacific where we have the 
indicated reef locations, was in pretty happy shape.
    If we go forward once to the present time--that is the next 
slide--things are not looking bad, but there has been a 
distinct decline in saturation state associated with rising 
atmospheric CO2, which is what drives this process.
    Here we see some of the advantages of a monitoring 
transect. As this front has moved, it has moved across these 
islands. We can't go back and get as much information as we 
would like, although Dr. Cohen's techniques permit us to 
retrieve some of that.
    But, next slide, we can be watching quite closely as we 
head toward what the modeled future is in terms of conditions 
in the Pacific. Whether it actually gets here or not, we don't 
know, but it is headed in that direction and we need to know 
what it is doing.
    So, if we can get the final slide, please. The suggestion 
that I urge upon the group is for an integrated network of 
research, conservation and monitoring sites providing 
complementary transects. I have focused on the Pacific because 
that area has the more wider latitudinal distribution and the 
less impacted sites. But I think a parallel set of studies in 
the Atlantic province in the Caribbean would permit us to work 
out human effects and their interactions with the climate.
    We have the existing real estate. We have the programs. 
What we need is the integration, the will and probably some 
modest increase in funding.
    Global community participation, this is very important. It 
has been alluded to. It is starting to happen. We need more of 
that. We can be leaders, but we can't do it alone.
    Finally, the idea would provide not only the means for 
understanding what is going on, but implicit in this is also 
the conservation and protection approach.
    I would suggest that this is something that is rapidly 
implementable because it builds on existing structures and 
programs. It is affordable for the same reason, and it is a way 
in which we could make some fairly rapid progress on what is a 
very large scale, large, but also urgent, problem.
    Thank you very much.
    Mr. Gilchrest. Thank you, Dr. Buddemeier.
    [The prepared statement of Dr. Buddemeier follows:]

    Statement of Dr. Robert W. Buddemeier, Senior Scientist, Kansas 
                Geological Survey, University of Kansas

1. Executive Summary
    In his letter of invitation, Chairman Gilchrist requested 
information on five questions or topical areas. These questions, quoted 
below, are used as the organizing theme for the testimony. This 
Executive Summary section presents capsule overview responses to the 
points, each of which subsequently is addressed in more depth in an 
individual section of the testimony. Key points are underlined.
Requested topics of discussion:
    1.1 ``...how the interplay between climate, the marine environment, 
and coral ecosystems has changed, and the resultant and predicted 
effects.''
    1.1.1 Humans have altered the carbon, nitrogen, phosphorus, water 
and sediment cycles in major ways, with effects at both local and 
global scales on systems that take hundreds to thousands of years to 
fully respond.
    1.1.1 Overexploitation of fisheries and the ecosystems that support 
them have added a direct and immediate impact to the changes set in 
motion by larger-scale geochemical modifications.
    1.1.2 Some of the results of these changes are understood and some 
predictions are possible, but the critical fact is that the combined 
changes have put the earth system on a trajectory for which there is no 
precedent or analog in evolutionary history, and from which we cannot 
turn back in any prompt or easy fashion.
    1.2 ``...whether the range of atmospheric and marine conditions and 
the extent and intensity of coral declines is expected to be from 
natural climatic cycles and variations or if these declines stem from 
human-driven factors.''
    1.2.1 There is undoubtedly a component of reef stress and decline 
that is related to natural cycles and variability; however, we are 
unable to determine that with any precision because it is being 
overwhelmed and reinforced by human factors.
    1.2.2 In areas where local and regional human environmental 
degradation and overexploitation are significant, these factors far 
outweigh any effects of natural variability.
    1.2.3 Human-driven, global-scale changes in climate and in ocean 
chemistry are becoming the dominant stress factors in areas removed 
from direct human impacts, and are also contributing significantly to 
the combined stresses elsewhere, and will increase in importance in the 
future.
    1.3 ``...of what importance compared to other factors are climate 
effects in coral reef declines.''
    1.3.1 Climate effects are almost certainly the dominant cause of 
massive, global-scale bleaching events, although vulnerability and 
mortality may be influenced by local factors in many locations.
    1.3.2 Where reefs are close to, and exploited by, human 
populations, or where they are under stress from local or regional 
sources, climate factors will be a contributory but not necessarily 
primary factor in decline.
    1.3.3 The relative importance of climate factors will continue to 
increase for decades, as present-day ``commitments'' to additional CO2 
release and climate change play out in the earth system. Local-scale 
human impacts can be controlled and reversed in the short term; major 
climate and earth process changes cannot.
    1.4 ``...what recommendations would you provide for stopping and 
reversing these declines.''
    1.4.1 The first and most critical recommendation is that we must 
recognize that it will take at least a generation to ``stop'' (that is, 
stabilize conditions) the climate and global-scale changes we have set 
in motion, and that it is doubtful that we can ever ``reverse'' them 
(in the sense of getting back to baseline conditions of the past few 
thousand years).
    1.4.2 We must work to reduce and reverse direct, local human 
impacts in order to preserve the natural robustness and resilience of 
reef organisms and ecosystems to survive the inevitable climate stress. 
This can be done with a combination of enforced regulation, education, 
and political and economic incentives, but it will not be adequate by 
itself.
    1.4.3 We must do a far better job of protecting, monitoring, and 
understanding those coral reef systems that are NOT threatened by 
direct local stresses, both to ensure preservation of the genetic 
diversity and the natural heritage, and to develop a predictive 
understanding of how continuing climate change affects reefs so that we 
can make our protection and management strategies as effective and 
realistic as possible.
    1.4.4 Finally, we should recognize that complex global problems 
cannot be addressed on a single issue basis. Not only is international 
cooperation critical, but we should not allow the obvious importance of 
coral reefs to divert us from holistic considerations that encompass 
global change effects on, and the interactions of, other coastal and 
marine systems.
    1.5 ``...other information...pertinent to the discussion.''
    1.5.1 The United States is one of only a few countries that has the 
possessions and resources to develop a comprehensive program of 
understanding, predicting, and mitigating the effects of climatic and 
other stresses on coral reefs and other marine systems.
    1.5.1.1 The Caribbean and Gulf of Mexico is a relatively enclosed 
region with high population loads, and in almost all areas will reflect 
a combination of local and regional human stresses with climate-related 
stresses. It can serve as the ``high-to-moderate local stress'' 
component of an ecosystem-based research and monitoring program.
    1.5.1.2 The diverse U.S. Islands and atolls in the central Pacific 
are among the most pristine and remote from direct human impacts, and 
provide both a natural laboratory for documenting the nature and 
mechanisms of climate change effects, and a potential bio-reserve of 
global importance.
    1.5.2 Relatively few new resources are needed to develop and 
implement a global-scale U.S. comparative program to understand and 
respond to the effects of climate change (alone or in concert with 
other stresses) on coral reefs and their related marine environments 
and associated ecosystems. Modest additional funding for the USFWS and 
NOAA for baseline studies, protective enforcement, and management of 
both the sites and the research and data, would have a major effect if 
combined with focused coordination of existing coral reef and global 
change research and funding programs.
2. Earth system changes and interactions (``...how the interplay 
        between climate, the marine environment, and coral ecosystems 
        has changed, and the resultant and predicted effects.'')
2.1 Climate change background--a reef perspective
    Climate change is not new; climate has changed between glacial 
conditions and interglacials (like the present) many times over the 
past several million years. Figure 2.1 shows detailed records of 
temperature and the atmospheric concentrations of carbon dioxide and 
methane over the past 450,000 years, derived from analysis of glacial 
ice cores. A striking and important observation is that there are 
stable limits to the oscillations--a range of atmospheric CO2 values 
from about 180 to about 280 parts per million bounds the natural 
system, with similar behavior by temperature and other factors. Other 
evidence suggests that it has been millions and probably tens of 
millions of years since the earth system has operated outside of these 
boundaries.




[GRAPHICS NOT AVAILABLE TIFF FORMAT]

    Figure 2.1: Records of temperature, atmospheric carbon dioxide, and 
methane over the past 450,000 years derived from analysis of the Vostok 
ice core. Note the consistent highs and lows in the cyclic pattern. J. 
R. Petit et al. (1999) Nature 399: 429-436
    Even within the natural range of variation, the past several 
thousand years have had a relatively ``extreme'' climate--it was 
warmer, with higher atmospheric CO2 and higher sea levels than all but 
a few percent of the period for which we have good records. The long-
term average natural condition for geologically modern coral reefs is a 
tropical surface temperature 2-3 degrees Fahrenheit (1-2 degrees 
Celsius) lower than the recent past (with even lower temperatures at 
higher latitudes), with about two thirds of the present day atmospheric 
CO2 concentration, and sea level 125-250 feet (40-80 meters) below 
present. From an evolutionary standpoint, ecosystems and organisms were 
already living close to the global upper limit of past experience.
2.2 Environmental changes and results
    The recent human-caused increase in atmospheric CO2 and the 
increasing temperature and variability is rapidly moving the 
environment outside of natural evolutionary experience. Figure 2.2 puts 
into perspective the dramatic ``spike'' in atmospheric CO2 associated 
with the growth and industrialization of human society. Figure 2.3 puts 
temperature records--measured and inferred--into perspective on a 
thousand-year time scale. Temperatures of the last few decades have 
risen well above not only the long-term pattern, but also above the 
estimated range of uncertainty about the values (displayed by the 
``fuzzy envelope'' around the trend line).
    Temperature and carbon dioxide concentration have been emphasized 
above because these are known or very probable coral reef stresses. 
Both field and laboratory studies implicate elevated temperatures 
(along with light and reduced water motion) in the dramatic increase in 
bleaching events. Elevated carbon dioxide concentration equilibrates 
with the surface ocean, making it more acidic and thus a less favorable 
environment for precipitating calcium carbonate--the building material 
of coral skeletons and reef structures. To these global changes we can 
add others; it is well-documented that human activities have very 
substantially altered the nitrogen, phosphorus, water, and sediment 
cycles as well as the carbon cycle and climate. These other alterations 
are not necessarily benign with respect to reefs and marine 
ecosystems--accelerated nutrient cycles are responsible for excessive 
algal growth and major community shifts.



[GRAPHICS NOT AVAILABLE TIFF FORMAT]

    Figure 2.2 (above): long-term atmospheric CO2 oscillations, showing 
the recent human-caused upward trend upper left) that appears as an 
almost instantaneous spike on geologic time scales (upper right).
    Figure 2.3 (below): 1000-year temperature record showing historic 
pattern, uncertainty, and recent trend.



[GRAPHICS NOT AVAILABLE TIFF FORMAT]

2.3 Problems of prediction
    This current and ongoing departure from ``normal'' conditions has 
been referred to as the ``no analog'' earth--we have nothing in either 
human experience or geologic history that we can reliably compare it 
with to assist us with understanding and predictions. This is further 
complicated by direct as well as indirect human alterations of the 
marine environment. The rapid growth of human population and the 
attendant pressures for development, especially in the coastal zone, 
have added local and regional stresses connected with overexploitation, 
pollution, and direct destruction. These are not alternatives to the 
global stresses on marine ecosystems; they are additive or synergistic, 
so that organisms weakened by one stress will be more vulnerable to 
others.
3. Relative importance of natural variability and human impacts 
        (``...whether the range of atmospheric and marine conditions 
        and the extent and intensity of coral declines is expected to 
        be from natural climatic cycles and variations or if these 
        declines stem from human-driven factors.'')
    The information, and especially the figures, presented in the 
preceding section contain the answer to the question around which this 
section is formulated. Figures 2.1 and 2.2 show natural cycles on 
thousand-year time scales, with Figure 2 illustrating the recent human-
driven change in carbon dioxide. Figure 2.3 shows natural temperature 
variability at 10-100 year time scales, also with the recent 
displacements from the natural pattern.
    These human-driven changes in the climate factors are not only 
large and rapid, but they take the atmosphere and oceans into 
`unfamiliar territory'--combinations of conditions not experienced over 
recent evolutionary history. The changes are both large and abrupt 
compared to records of natural variations, and coincide very well with 
the onset of major large-scale coral reef declines.
    While these comparisons do not prove that human-derived climate 
changes constitute the non-local causes of coral decline, the 
circumstantial evidence is extremely strong, and the argument can 
reasonably be reversed--if the substantial human-driven changes are not 
causing the decline, then it is very unlikely that the smaller and more 
modulated natural fluctuations would be imposing significant stresses.
    This conclusion is further supported by results of coral and reef 
coring studies that indicate that the recent community shifts and 
mortality are unprecedented in the last several thousand years.
4. Relative importance of climate and other factors (``...of what 
        importance compared to other factors are climate effects in 
        coral reef declines.'')
4.1 Climate effects, past and present
    Local and regional human-induced stresses have taken a heavy and 
accelerating toll on reefs over the past half-century. nutrient 
loading, contamination, overfishing, sedimentation, and direct 
destruction have all been factors in general, but with large geographic 
variations and a variety of combinations. It seems likely that these 
local-to-regional human factors were the dominant factors in reef 
degradation and decline until about 10-20 years ago, although 
deteriorating climatic conditions may have contributed to overall 
vulnerability.
    Recent past events strongly suggest that climatic factors are 
increasingly causing widespread degradation in areas remote from major 
local stresses. Local stresses will remain important, but we are in a 
transition period from dominance by local stresses with climate stress 
reinforcement, to predominance of climate related stress, with 
additional local impacts in many areas.
4.2 Climate effects, present and future
    Figure 4.1 connects the record of evidence on past climates with 
the range of IPCC scenario projections to 2100, for both temperature 
and CO2. Even with the most optimistic view of the future, the trends 
that have already taken the planet outside of the natural environmental 
range of the recent geologic past will move it even farther into 
unknown territory in the coming decades.
    An important aspect of these changes is the inertia of the trends. 
The changes that have been set in motion cannot be easily or quickly 
reversed; lags in both the earth's geochemical systems and human 
socioeconomic systems mean that temperature and CO2 levels will 
continue to increase for several decades no matter what action is taken 
to stabilize the earth system. Eventual stabilization is possible if 
greenhouse gas emissions are carefully controlled, but in the short- to 
intermediate term we have no alternative to trying to understand and 
adapt intelligently to the changes that have been set in motion.
    A climate-driven future for earth's ecosystems--- Figure 4.1 
illustrates the possible range of changes in temperature and greenhouse 
gas concentrations over the present century. Even with the greatest of 
effort and the best of luck, changes to the lower end of the projected 
range will probably occur, creating environmental conditions that are 
unprecedented in recent geologic history. Major challenges include: (1) 
measuring, understanding, and eventually predicting ecosystem and 
organism responses to extreme and rapid climate change; (2) separating 
these responses from other human-driven or independent stresses arising 
from development or environmental change; and (3) protecting 
ecosystems, their biodiversity, and the services that they provide to 
humans from avoidable stresses and insults, to maximize their chances 
of surviving the unavoidable climate stress. The U.S. is fortunate 
possess a system of reserves and sanctuaries that can be readily 
adapted to those ends.



[GRAPHICS NOT AVAILABLE TIFF FORMAT]

5. General recommendations related to coral reef declines (``...what 
        recommendations would you provide for stopping and reversing 
        these declines.'')
5.1 Definition of issues and recommended actions
    We cannot expect to stop or reverse the effects of the global-scale 
changes we have set in motion on time scales of decades. In order to 
have a positive effect on the ability of all marine and coastal 
ecosystems (including coral reefs) to survive both increasing direct 
climatic stress and the much broader associated ecosystem and 
environmental changes, selective but extensive protection from other 
stresses (which can be controlled or eliminated) needs to be combined 
with a substantial improvement in our understanding of stress-response 
mechanisms and natural limits. (See section 6 below for a specific 
proposal)
5.1.1 Critical needs
    5.1.1.1 Establishment and support of research sites and facilities 
that permit studies of relatively healthy, unimpacted reefs from a 
variety of natural environments. These areas are essential if we are to 
establish baselines and identify, understand, and mitigate the effects 
of climate change. Many marine labs and study sites are in areas so 
degraded that field research on stress-response physiology and ecology 
is done on moribund systems and stressed individuals rather than those 
that are responding normally and could effectively be protected.
    5.1.1.2 Continued investigation of the nature and effects of non-
climatic stresses, how these interact with climate-derived factors, and 
development of both fundamental and applied understanding of organism 
and ecosystem stress responses and how these may be applied to 
management.
    5.1.1.3 Effective links to the larger global change and marine/
coastal ecosystems communities, agencies and programs, both within the 
U.S. and internationally--coral reefs are a focal organism, but their 
problems illuminate larger issues, and any solutions will certainly 
draw on a broad base of knowledge, experience, and cooperation.
5.1.2 Recommended actions
    5.1.2.1 Establish a genuinely cooperative, adequately supported 
interagency program that will develop a network of coral and related 
ecosystem research and monitoring sites along gradients of both climate 
change and human stress. Information assimilation and dissemination 
will be a critical component of this program and its links to other 
recommended actions. Primary agencies would be the U.S. Fish and 
Wildlife Service and NOAA, but participation by NSF, ONR, EPA, USGCRP, 
relevant state governments, and private foundations and NGOs will 
ultimately be necessary for maximum effectiveness.
    5.1.2.2 Link presentation of results, output, and new biological 
and environmental findings to the umbrella programs currently being 
developed to support such diverse efforts. A particularly promising 
example is the Ocean Biogeographic Information Systems (www.iobis.org) 
which links species-level taxonomic and occurrence data to geospatial 
environmental information.
    5.1.2.3 Develop more effective links with international non-
governmental programs that can serve as impartial networking agents and 
information brokers. One of the most potentially useful such programs 
is the Land-Ocean Interactions in the Coastal Zone (LOICZ; www.nioz.nl/
loicz) project of the International Geosphere-Biosphere Programme 
(IGBP; http://www.igbp.kva.se/), which is currently seeking to develop 
a U.S. national program contact.
5.2 Perspectives on planning and implementation
    The nature of the problem we face calls for some modification of 
the ``business-as-usual'' approach to both science and government. We 
are working on a constantly changing, as-yet-unpredictable problem with 
a time constant very long and a spatial scale very large compared to 
the problems our institutions were designed to solve. An open, 
``adaptive management'' approach to both the scientific activities and 
the practical applications of the knowledge acquired is needed, and 
responsible, informed innovation will be at a premium.
6. Other information and specific recommendations (``...other 
        information...pertinent to the discussion.'')
    This section is devoted primarily to further elaboration on the 
concept of developing a global-scale research park and biological 
reserve system based on U.S. territories containing coral reef 
ecosystems.
    Such a system would have two conceptual and design components and 
two organizational components. The basic concept would be to establish 
a set of long-term research and monitoring transects and reserves along 
existing and expected gradients in human-driven local environmental 
stress and the progression of climate change. The organizational 
structure would be based on coordinated use of the refuge system of the 
U.S. Fish and Wildlife Service, and the NOAA Sanctuary program, with 
additional participation from the NOAA remote sensing and monitoring 
programs.
6.1 Transect design
    6.1.1 Pacific climate transect: The nature of the world's oceans, 
the locations of U.S. territories, and the expected pattern of climate 
change dictate the establishment of two coordinated programs. In the 
Pacific, U.S. possessions include some of the most remote, unpopulated, 
and pristine coral reef systems, located in oceanic settings remote 
from both population and land effects. These cover a large latitudinal 
gradient, which is particularly important to monitoring climate change, 
since carbon-dioxide impacts on calcification are expected to move 
progressively from high to low latitudes and temperature changes will 
progress in the other direction. The available locations also grade 
from uninhabited and unimpacted to some regions of human impact and 
local degradation around the inhabited larger islands of Hawaii, Guam, 
and American Samoa. The Pacific holdings thus provide an excellent 
coverage of the climate change dimension, with some overlap into 
combined local impacts.
    The primary components of the Pacific network would be the USFWS 
refuge system and the NOAA Northwest Hawaiian Islands (NWHI) Sanctuary. 
Figures 6.1, 6.2, and 6.3 show the island features of the central and 
eastern Pacific against a backdrop of the calcium carbonate saturation 
state in preindustrial (mid-1800s), present, and mid-21st century 
times. Saturation state is a measure of the ease with which calcium 
carbonate is precipitated from the water, and is reduced by rising 
atmospheric CO2. The contours show the expected progression of 
calcification stress on coral reef organisms over the course of time, 
and illustrate the opportunities for monitoring and studying similar 
systems concurrently at different stages of impact development.




[GRAPHICS NOT AVAILABLE TIFF FORMAT]


    6.1.2 Caribbean/Gulf terrestrial impacts transect: In contrast to 
the Pacific, the Caribbean and Gulf of Mexico region is by its nature 
an interconnected, semi-enclosed basin with strong terrestrial 
influences, large populations on its coasts, and a high level of reef 
access and use. Because of the strong, and widely recognized, local 
human derived stresses, it is a particular challenge to discern the 
possible role of climate change or large-scale regional interactions, 
although these must be occurring.
    However, the U.S. possessions in that area represent a transect 
complementary to the Pacific climate transect, in that there is a 
system of parks, refuges, and protected areas that extend from the high 
population-high-stress regions of the Florida Keys, Puerto Rico and the 
USVI to the relatively more isolated Dry Tortugas and the remote Flower 
Garden Banks. These sites grade from high local and regional impacts to 
low local and (possibly) moderate regional impacts, and provide a 
logical complement to the Pacific sites that grade from no local or 
regional impact to low or no regional, and moderate local effects. The 
combination permits systematic detection not only of climate change 
effects, but also of the nature of their interactions with other 
stresses.



[GRAPHICS NOT AVAILABLE TIFF FORMAT]


    6.1.3 Preservation and management issues: It needs to be stressed 
that in addition to a critical scientific role, the network of refuges, 
sanctuaries, and ``science parks'' would expand and enhance the 
preservation of biodiversity and living examples of natural ecosystems 
for future generations.



[GRAPHICS NOT AVAILABLE TIFF FORMAT]


6.2 Institutional and implementation issues
    The habitats, ecosystems and marine real estate that would be 
involved in the proposed development are already in the possession of 
the U.S. government or one of the states; no capital cost of 
acquisition would be required. In addition, nearly all of the areas of 
interest are already under the jurisdiction of an agency with a mission 
that includes preservation and understanding of the systems, so the 
basic goals and necessary administrative/legal framework is in place.
    Substantial amounts of data, information, and experience are also 
available from the agency research plans and scientific personnel, 
although this is not necessarily as readily available to the larger 
scientific community as might be desired. NOAA projects have been 
proposed that fit within the overall approach, but as yet there is no 
programmatic home for these activities.
    Integration of the existing facilities and programs into a two-
ocean study of reef stress across natural and human gradients could be 
readily implemented, but would require some new resources and even more 
new administrative approaches:
    <bullet> Enhanced budgets for monitoring, protection and 
enforcement would need to be provided to the lead agencies, along with 
development of measures of effectiveness, and effective means of 
communication of results.
    <bullet> Incentives and mandates for effective cooperation within 
and between agencies are needed to ensure success; one possibility 
might be independent funding of a consortium program that would 
complement but not compete with or replace existing agency programs.
    <bullet> Two scientific components are required--one that would 
operate within the lead agencies (either by staff activities or grants 
and contracts), and another that would require and assist the agencies 
to provide administrative and infrastructure support for external 
research programs (e.g., NSF, or possibly international consortia).
    <bullet> Outreach beyond the conventional limits of the research, 
environmental management, or ``coral reef'' communities can provide 
both broader participation and effectiveness, and political and 
educational benefits inside and outside the US. NGOs, international, 
and private partners have potentially important roles to play in 
realizing the full potential of the approach.
                                 ______
                                 
    Mr. Gilchrest. Dr. Ogden.

    STATEMENT OF JOHN OGDEN, DIRECTOR, FLORIDA INSTITUTE OF 
                          OCEANOGRAPHY

    Dr. Ogden. Thank you, Mr. Chairman. My name is John Ogden. 
I am Director of the Florida Institute of Oceanography and a 
professor of Biology at the University of South Florida. You 
mentioned earlier at the start of the hearing, Mr. Chairman, 
the exclusive economic zone.
    It is interesting to look at the maps of that zone and 
realize that while we tend to think here in Washington and 
elsewhere that coral reefs are distant and remote and exotic, a 
considerable amount of what we call our ocean is made up of 
areas which have coral reefs as their principal ecosystem. They 
are indeed a part of our national patrimony and well deserved 
of our attention and protection.
    That map, I wish I had it with me but I was wary about the 
projection here today, having had an experience at Capital 
Hill's oceans week that was sort of negative in the projection 
department. But that is all right.
    I first testified before Congress in 1987 at the time of 
the first major international episode of coral bleaching. The 
increasing concerns with global warming were, of course, on the 
table and that happened to be the hottest summer on record to 
date in Washington, D.C.
    Since that time, we have seen through the testimony of my 
colleagues exactly what has happened to us. Coral bleaching, as 
a manifestation of this change, has increased in severity and 
frequency globally.
    We established through various programs, one of them 
prominently at NOAA research programs in which corals were 
called the canary in the cage after the 19th Century canaries 
that were carried into the coalmines to detect poison gases. 
They were harbingers of global warming in the oceans.
    Then came 1997 and 1998. Arguably, this was the most 
coherent response of a global ecosystem to a disturbance linked 
to human activities. Imagine, if you will, if all the puppy 
dogs across the band of the earth died or all the family cats. 
I mean essentially we have not seen a coherency of ecological 
response due to human disturbance before. I truly believe that.
    Mr. Gilchrest. I should hesitate, but I won't hesitate to 
comment about all the domestic cats. The neotropical songbirds 
will be very happy about that, I am sure.
    Dr. Ogden. At any rate, having identified this canary in 
the cage, we ignored its fall from the perch and now it is sort 
of on the bottom of the cage twitching. And we are 
prevaricating about the human role in climate change.
    Are coral reefs doomed? It is a fair question to ask. I 
don't believe that anybody knows the answer to that. But I do 
know that throughout our history as a nation we have often been 
in a position where things seem hopeless and that exactly makes 
us rise to the occasion and be determined to make them 
otherwise.
    I am convinced, for one, that good science, common sense 
integrated with good policies can make a difference for coral 
reefs.
    As my colleagues have so eloquently stated, climate change 
is the umbrella under which a variety of human activities 
disturb coral reefs. The other principal ones are land-based 
sources of pollution, that whole panoply, including some of 
these emerging coral diseases that are linked to human enteric 
pathogens and over-fishing, the direct and indirect impacts of 
that.
    Assessing the health of a coral reef is analogous to a 
patient with general ailments visiting a doctor in my view. We 
take note of history. We conduct a general examination of vital 
signs. We are informed by science, but we are guided as much by 
our experience as professionals, as managers, as scientists and 
by common sense. As stressors we know operate in synergy and 
with global climate change in this case, we accept the 
principle that reduction of stresses is good and that this will 
help reefs resist stresses that we cannot or will not manage, 
namely this enormous lag time in climate change.
    So, I don't believe that the situation is hopeless. I 
believe science has already provided us with sufficient data to 
recognize a crisis in these respects and sufficient information 
to sort of craft the forms of a solution to it.
    We have to sort of confront this scientific uncertainty, 
however, in doing this. My first recommendation is that we need 
to continue to ramp up the funding for the national action plan 
to conservation coral reefs and especially concentrating on 
partnerships between the principal agencies. I would name these 
as NOAA, the Department of Interior and the Environmental 
Protection Agency. I watched a partnership between NOAA and EPA 
work for 7 years in the creation of the Florida Keys National 
Marine Sanctuary and it is still working.
    It is in many ways an uneasy fit between two agencies that 
don't share the same kind of culture, but it works and I 
believe particularly, NOAA, Interior and EPA could work 
together on these things.
    I support the implementation of the integrated and 
sustained ocean observing system, which is a general U.S. 
target, but of course, directed at that significant portion of 
the EEZ which is coral reef.
    Dr. Strong's dramatic visualizations of the power of this 
is space-based and in situ instrumentation cannot be denied. 
This is as basic to our future understanding and management of 
coral reefs as the map or the chart is itself.
    We are all concerned with over-fishing. It has an object 
dramatic impact on coral reefs largely because coral reef 
fishes are so sedentary. It is hard to imagine a 600-pound 
Grouper being sedentary, but they are indeed very sedentary. 
So, when you fish them out and continue to remove these larger 
sized classes of fishes, you change the entire functioning of 
reefs.
    This whole over-fishing crisis, and it extends to the rest 
of the Nation as well with very important lessons from coral 
reefs, has driven this interest in marine reserves. I believe 
that that needs to be pushed forward clearly.
    You mentioned networks and corridors of reserves. That is 
clearly the direction in which we have to go. It is important 
to note, though, that marine protected areas are for the whole 
system; they are not just about fishing.
    The Nature Conservancy and World Wildlife, for example, 
have identified areas of the world that escaped serious impact 
from the 1997-1998 coral bleaching. These happen to be areas 
with particular oceanographic or/or latitudinal locations where 
corals did not bleach. The inclusion of places like this in 
networks of marine reserves is an obvious benefit for future 
reference.
    Another thing about marine protected areas is that they are 
necessary, but they are not sufficient. We need to raise the 
scale, the geographic scale, at which we are approaching the 
whole problem of ocean management and by extension, coral reef 
management and science.
    We need an equal regional approach. We have ample 
scientific data to show that coral reefs behave in an 
ecologically coherent way across large regions. The Greater 
Caribbean is the one that I am most familiar with, but this 
happens in other parts of the world as well.
    This ecoregional approach sounds complicated, but we have 
excellent examples at various scale on how this might be done, 
in Florida, in Latin America and in the Great Barrier Reef of 
Australia.
    So, my next recommendation is that we should use the 
Executive Order that we have on marine protected areas and the 
Coral Reef Conservation Act and the Oceans Act and the 
Essential Fish Habitat and Ecosystem Protection Provisions of 
our Fisheries Management Acts, all of which contain ample 
rationale to push forward with large ecoregional planning 
projects and zoning plans for significant areas.
    I submit to you, as Bob has emphasized, that the Northwest 
Hawaiian Islands, which I love, is almost the size of the Great 
Barrier Reef. I have heard for years from my Australian 
colleagues that they own the reefs of the world. We will, we 
own a significant reef area ourselves and we ought to do as 
well as they have done over the last couple of decades in 
planning it. I think, of course, we can do that.
    This ecoregional approach should include an inter-
disciplinary research support program in what I call for want 
of a better term, ``Ocean Conservation and Management 
Science.'' This is would encompass our major science agencies 
and the NSF. It would include appropriate elements of physical 
and chemical oceanography and also biologically concentrate on 
the issue of connectivity, which you mentioned in the idea of 
how connected are reefs and how close or far apart can marine 
reserves be and what I would call seascape ecology and also the 
whole issue of ecological resilience.
    How many species can we afford to lose in the human 
footprint on the earth before we lose ecosystem function and, 
of course, climate change itself has been emphasized by my 
colleagues.
    Finally, I urge, along with everyone else, that education 
is a key here. All of these programs should hold significant 
components that are dedicated to education at all levels. Coral 
reefs have this extraordinary charisma. It is really a 
relatively easy manner for us to act individually in our areas 
to deal with this, but if we can act in a more programmatic way 
in terms of education using these examples from reefs, I think 
we will be way ahead of the game.
    Thank you very much, Mr. Chairman.
    Mr. Gilchrest. Thank you, D. Ogden.
    [The prepared statement of Dr. Ogden follows:]

      Statement of John C. Ogden, Director, Florida Institute of 
  Oceanography, and Professor of Biology, University of South Florida

    My name is John C. Ogden. I am Director of the Florida Institute of 
Oceanography (FIO) and Professor of Biology at the University of South 
Florida. We are a 17-member consortium of universities, agencies, and 
marine laboratories, which operates two ships and a marine laboratory 
and administers and leverages funding for inter-institutional projects 
in research and education on coral reefs and in coastal oceans in 
Florida and the greater Caribbean Sea. I have spent my career of over 
30 years working on coral reefs all over the world, introducing 
students and the public to their beauty and their importance to science 
and society. I had a role in the design of the International Coral Reef 
Initiative and the implementation of the Global Coral Reef Monitoring 
Network. I served as the Secretary of Commerce's appointee for science 
on the founding Advisory Council of the Florida Keys National Marine 
Sanctuary. I am the ex-president of the International Society for Reef 
Studies, a 750-member organization of scientists, resources managers 
and conservationists from over 50 countries dedicated to the scientific 
understanding and protection of coral reefs. I currently serve on the 
Boards of the World Wildlife Fund and The Ocean Conservancy and am a 
Fellow of the American Association for the Advancement of Science.
    I am honored to be here to testify on coral reefs before this 
Subcommittee for the second time. I remain acutely conscious that we 
have a narrow window of time in which to establish an integrated 
national strategy to conserve our nation's coral reefs and to influence 
other nations, with far more of the world's reefs, to do the same.
Background: Are coral reefs doomed?
    I first testified before this Subcommittee in 1999 on the Coral 
Reef Conservation Act, which was our nation's response to the 
International Coral Reef Initiative, established under U.S. leadership 
in 1995. Since then, the Coral Reef Task Force has produced The 
National Action Plan to Conserve Coral Reefs--a comprehensive statement 
of the scope of coral reef problems. Under the Coral Reef Conservation 
Act of 2000, key agencies including NOAA and the Department of the 
Interior have action plans and statements of capability at various 
stages of preparation. This national effort has been backed up by 
international coral reef status reports and calls for action. Yet we 
still do not have a coherent national strategy of conservation, 
management, and research on coral reefs.
    Against this background, coral reefs have continued to decline, 
most dramatically in the global coral bleaching event of 1997-98, 
coincident with the El Nino of the century. This event and the growing 
public concern with climate change is increasing the pressure for a 
long-term, comprehensive energy national policy including CO2 emissions 
into the atmosphere as outlined in the Kyoto Protocol. However, even if 
we implemented such a policy today the lag times are significant and 
there is considerable pessimism about the future of coral reefs even 
under the most optimistic scenarios of emissions control.
    It is legitimate to ask the question: Are coral reefs doomed? No 
one knows the answer. However, through our history we as a nation have 
often been in the position of being able to see that things are 
hopeless and yet we remain determined to make them otherwise. I am 
convinced that good science, common sense, and integrated policy can 
make the difference for coral reefs.
Recommendations
    <bullet> Implement with adequate funding the National Action Plan 
to Conserve Coral Reefs through the detailed action strategies of key 
agencies, particularly NOAA, the Department of the Interior, and the 
Environmental Protection Agency.
    <bullet> Use the Executive Order on Marine Protected Areas, the 
Coral Reef Conservation Act, the Oceans Act, and the essential fish 
habitat and ecosystem protection provisions of the Fisheries Management 
Act to push forward with large, ecoregional zoning and protection 
plans, particularly in the Northwest Hawaiian Islands Coral Reef 
Reserve, other Pacific territories, and in the Caribbean Sea.
    <bullet> Support the implementation of the Integrated and 
Sustained Ocean Observing Network, now in the advanced planning stages, 
in conjunction with ecoregional coral reef zoning plans.
    <bullet> Support a program of Ocean Conservation and Management 
Science within the NSF deliberately directed at the partnering of 
Federal agencies and academic scientists in the understanding of the 
impact of climate change and other human disturbances on large marine 
ecosystems.
    <bullet> Use the extraordinary charisma of coral reefs to 
implement education programs informing people of the problem of human 
disturbances to coral reefs and to the oceans and their role in the 
solutions, including the need for a comprehensive national energy 
policy dealing directly with climate change.
Coral Reefs in an Era of Climate Change
    The coral bleaching response to climate change first appeared on 
the policy stage in the summer of 1987, coincident with a major 
international episode of bleaching, increasing concern about global 
warming, and one of the warmest years on record in Washington, DC. The 
Senate held hearings on coral bleaching and testimony reported 
preliminary scientific evidence that linked bleaching with unusually 
warm seasonal seawater temperatures.
    Corals bleach when stresses, including high temperatures, stimulate 
the coral animal to expel its intra-cellular single-celled plant 
symbionts, which are characteristic of all reef-building corals and 
critical to coral health. As the color of corals is determined in large 
part by the plant cells, the corals appear to bleach. Bleaching does 
not immediately kill corals and they are capable of recovery if the 
stress is removed, but if it is prolonged corals may die.
    Since 1987 episodes of bleaching increased in geographic extent and 
severity. Bleaching was associated with the El Nino-Southern 
Oscillation (ENSO) which had come to be recognized as driving global 
climate patterns. Research in the late 1980's and 1990's strengthened 
the link between bleaching and seasonally warm seawater temperatures 
and corals were called ``canaries in the cage'' (after the canaries 
used by 19th century coal miners to detect poison gases)--harbingers of 
global warming in the oceans.
    Coral bleaching isn't the only detrimental effect of climate change 
on coral reefs. Prolonged seasonally warm temperatures stress corals 
and can increase the growth rate of the potentially pathogenic 
microorganisms responsible for coral diseases. Increased CO2 in the 
atmosphere lowers the saturation state of calcium carbonate (CaCO3) in 
the ocean. This has been shown to decrease coral reef calcification and 
may over time be an even more important factor than bleaching in the 
global adjustment of coral reefs to climate change. Another recent 
hypothesis links long-term drought in the Sahel region of Sub-Saharan 
Africa with increased deposition of dust carried across the Atlantic to 
the Caribbean by prevailing westerly winds. The dust contains iron, 
which has been shown to stimulate planktonic algal blooms. It may also 
be inimical to coral health and stimulate the growth of benthic algae. 
The dust may also contain coral pathogens such as fungi and bacteria.
    In 1997-98, coincident with the ENSO of the century, corals all 
across the world's tropics bleached and many died. This was arguably 
the most coherent response we have ever seen of a global ecosystem to a 
disturbance linked to human activities. This unprecedented episode of 
bleaching touched areas that had rarely experienced bleaching before, 
including parts of the Great Barrier Reef of Australia. The event was 
well covered by the global press and caused great concern. It is 
disturbing, however, that in spite of solid scientific evidence linking 
bleaching to ocean warming, we ignored the fall of the canary from its 
perch. Now, while it is twitching on the bottom of the cage, we 
prevaricate about the human role in climate change.
Coral Reefs Under Multiple Stresses: A Thousand Cuts
    Human activities influence coral reefs in a variety of ways, but 
the general categories of disturbances make a remarkably short list:
    1. LClimate change including ocean warming, sea level rise, and 
increased atmospheric CO2..
    2. LLand-based sources of pollution, including land destabilization 
and sedimentation, sewage disposal, toxic pollution, and pathogens.
    3. LOver-fishing, including both the consequences of removal of 
fishes from reefs and the damage of fishing techniques and gears.
    Note that these disturbances operate on distinctly different 
geographic scales. Climate change is the only global influence in the 
list and is the umbrella under which all other stresses to reefs 
operate. Land-based sources of pollution are both regional and local. 
For example, a significant proportion of marine pollution is aerosols 
and runoff originating far from the ocean. Over-fishing is largely a 
local problem and responds to relatively simple if not easily 
implemented management regimes. Finally, note that these disturbances 
are characteristic not only of coral reefs but any coastal ocean area 
near human populations.
A Human Health Analogy
    Imagine a coral reef as a patient with general ailments visiting 
the doctor. The doctor, whose degree is Medical Arts and Sciences, 
first takes a medical history and conducts a general examination of 
vital signs. The doctor is informed by science but, assuming the 
absence of an acute condition requiring immediate intervention, is 
guided as much by experience and common sense. The diagnosis might 
include a listing of the stresses of modern life: a high pressure job, 
not enough sleep, poor diet, too much coffee or alcohol, and so on. 
Medicine operates on the principle that reduction of stresses is good 
and that it helps the patient cope with stresses that she or he cannot 
or will not address.
    I believe that the diagnosis of ecosystem health operates in the 
same way. I can think of no coral reef in the world where a few 
informed people, including, but not limited to scientists, could not 
come to reasonable conclusions as to the sources of disturbances to the 
reef and reasonable if not easy suggestions for conservation or 
management action. These actions will necessarily be limited to human 
disturbances that can be managed locally or regionally and will not 
address the umbrella stress of climate change. Nevertheless, the 
inference, perhaps an article of faith, is that reducing the impacts of 
pollution and fishing, for example, will make the reef better able to 
cope with climate change.
    Science has already provided us with sufficient data and 
information to recognize a coral reef crisis. We must act by facing 
scientific uncertainty and using the precautionary principle. The 
National Action Plan to Conserve Coral Reefs implicitly assumes that 
future research on coral reefs should be done within the context of 
national programs of conservation, management, and education. A 
national research program, including but not limited to coral reefs, in 
Ocean Conservation and Management Science would include: (1) 
connectivity or seascape ecology at wide geographic scales; (2) 
ecological resilience and the functioning of biodiversity; and, (3) 
global climate change. This program could be based at the NSF with the 
cooperation of other agencies.
The Ecoregional Approach: Reefs Do Not Live Alone
    Reefs are connected to the land and to other coastal ecosystems in 
a ``seascape'' of linked ecosystems (Figure 1). In addition to the 
exchange of energy and materials via transport processes and the 
movements of organisms, the ecosystems of the coastal seascape act as 
buffers. The landward seagrass beds and coastal forests buffer offshore 
coral reefs from the inimical influences of sedimentation and nutrients 
originating on land. In turn, offshore coral reefs buffer the nearshore 
ecosystems from the effects of ocean waves and erosion. Human 
interference with this buffering capacity has damaged coral reefs, 
smothering corals with destabilized sediments and promoting the growth 
of algae thorough excessive nutrients. Maintaining and restoring a 
fully functioning coastal seascape is a major goal of coral reef 
restoration.



[GRAPHICS NOT AVAILABLE TIFF FORMAT]

    Not all land influences are local. So-called ``dead zones'' on 
coastal shelves off the mouths of major rivers have been reported 
around the world. For example, massive algal blooms fertilized by 
runoff from agricultural areas far inland create the seasonal dead zone 
off the mouth of the Mississippi River in the Gulf of Mexico. In 
addition, a major component of marine pollution (up to 50% in some 
estimates) is from aerosols, which may originate many miles away from 
where they are deposited.
    Coral reefs are connected to each other over large regions by ocean 
currents (Figure 2). For example in the Caribbean, remote sensing has 
shown that the outflow of the Orinoco River in Venezuela seasonally 
moves across the entire Caribbean Sea as far as Puerto Rico and perhaps 
beyond. These currents can carry marine organisms, with larval lives 
ranging from several weeks to over a year, over long distances. Of 
course, currents can also carry pollutants.



[GRAPHICS NOT AVAILABLE TIFF FORMAT]

    The importance of understanding ocean currents and other physical 
features of the ocean have driven the development of an Integrated and 
Sustained Ocean Observing System (IOOS) which should be supported by 
the Congress. While physical features are basic, we must include key 
features of the biology of the oceans, including coral reefs, in the 
national monitoring scheme.
A Lesson in Ocean Zoning
    Over-fishing has grown in scientific and public concern. Recent 
work has suggested that fishing was the first human disturbance to 
coral reefs, altering their functioning long before the modern era. 
Coral reef fishes exert top-down control of reef ecosystems. The 
elimination of the larger size classes of predatory groupers and 
snappers, for example, causes population increases of fishes lower in 
the food chain, changing the natural functioning of the reef. Fishing 
has a major impact because most reef fishes are extraordinarily 
sedentary, associated with particular reef areas for their whole lives.
    Fishing with explosives and toxic chemicals including bleach and 
cyanide has laid waste to huge regions of reefs in Indonesia and the 
Philippines and stimulated a variety of international management and 
conservation efforts. Fishing gears can damage reef areas and lost nets 
and line damage and destroy corals and entangle fishes and 
invertebrates.
    These concerns have driven a rapidly increasing interest in marine 
protected areas, particularly marine reserves fully protected from all 
extractive human activities. In every case where fully protected marine 
reserves have been implemented, the result within a relatively short 
time has been more and larger fishes. Most of our current fully 
protected marine reserves in coral reefs areas are in the Florida Keys 
National Marine Sanctuary.
    It is important to note, however, that marine protected areas are 
concerned about protection of the whole ecosystem, not just fishes. For 
example, The Nature Conservancy and World Wildlife Fund examined areas 
of the world which escaped the devastating impact of the 1997-98 coral 
bleaching episode. These include: areas where upwelling cools the 
water; areas of strong currents; regions where existing stresses have 
caused corals to adapt to extreme conditions; areas where corals are 
shaded by steep islands or by turbid waters. Strategically networked 
marine protected areas including these special situations might have 
the best possibility of mitigating the impact of climate change over 
time.
Ecoregional Planning: A Vision of the Future
    Marine protected areas are necessary, but not sufficient. We should 
implement ecoregional plans to protect and manage coral reefs in which 
the whole country, not just fishing, has a stake. We have some 
excellent case studies of how this might be done. The Florida Keys 
National Marine Sanctuary management plan was a 7 year process 
involving a broad cross section of stakeholders in a plan that is based 
upon zoning, including but not limited to fully protected marine 
reserves. The plan includes water quality management and 8 other action 
plans dealing with everything from education, channel marking, 
recreational boat use, to high seas commercial ship traffic.
    The Meso-American Coral Reef project of the World Wildlife Fund and 
the World Bank is the most advanced international ecoregional planning 
project involving coral reefs. The presidents of Mexico, Belize, 
Guatemala, and Honduras signed the Tulum Declaration in 1998, agreeing 
to co-manage the region. Subsequently, a series of major international 
planning exercises were held in which major features of the region 
including ocean currents, river drainages and key resources were mapped 
with population centers, industrial areas, marine discharges, existing 
protected areas and so on. Overlay maps provide the basis for decisions 
on protection and development which have every hope of leading to 
sustainable use of this major global coral reef region. It should not 
escape our attention that the Meso-American Coral Reef is directly 
upstream from Florida.
    The Northwest Hawaiian Islands Coral Reef Ecosystem Reserve is a 
critical coral reef region for the nation. It is equivalent in size to 
the Great Barrier Reef Marine Park of Australia and far enough to the 
north to escape major coral bleaching episodes. It is virtually 
unpopulated and protected by distance from major fisheries. The Ocean 
Conservancy has identified it as a premier site for protection under 
their Ocean Wilderness campaign. Following on the examples of the 
Florida Keys and the Meso-American Coral Reef, the next steps should be 
involvement of the broad range of stakeholders in a major ocean use 
planning project.
Conclusions
    Some scenarios for coral reefs in this era of climate change are 
not optimistic. However, there is a great deal of scientific 
uncertainty about the reef response and ample opportunity to implement 
local and regional reef protection schemes which may be our best 
prospect to mitigate climate change in the near term. At the same time, 
we should use the lessons of coral reefs to argue for implementation of 
a comprehensive, long-term national energy policy which directly 
addresses climate change. There is every reason to expect that this 
will have beneficial social and economic impacts even if there may be a 
considerable lag in reef mitigation. We have had over a decade of 
discussions, research, planning, meetings, workshops, and status 
reports. There is sufficient scientific information. We should act now.
                                 ______
                                 
    Mr. Gilchrest. The ecoregional approach --
    Dr. Ogden. Right. I apologize for that little bit of 
jargon.
    Mr. Gilchrest. No. I had a question about it. As far as you 
say there is clearly enough data to pursue an ecoregional 
approach in certain areas of the ocean. I would guess inside 
our EEZ and in an international way.
    Dr. Ogden. Yes.
    Mr. Gilchrest. When you use the term ``ecoregional 
approach'' in the way I think you described it, you are fairly 
comprehensive. I suppose that means the interaction of all of 
the variables in that region of the ocean at any given time, 
including currents, temperature, nutrients, phytoplankton and 
catching black sea bass.
    Dr. Ogden. Right. The sociological elements as well, 
exactly.
    Mr. Gilchrest. So, you are saying that there is now 
sufficient data, let's say, for the National Marine Fisheries 
Service to work with the councils along with other aspects of 
NOAA and Interior and EPA and whoever to not only look at that 
as an ecoregion, but also manage the fisheries within that 
region from an ecosystem plan?
    Dr. Ogden. Absolutely. You know, I get so tired of hearing 
from people who ought to know better that we know more about 
the dark side of the moon or the surface of Mars than we do 
about our own ocean. This is absurd. We have a lot of 
scientific information about our oceans.
    Do we have enough? Who knows what enough scientific 
information is? The point is that we need to gather it together 
within these regions of the world that can be called ecoregions 
that have a certain similarity.
    Mr. Gilchrest. Can you give us an idea where you can 
identify a particular ecoregion where enough is know to 
implement this kind of a program?
    Dr. Ogden. I suggest in terms of what is in front of us 
today, the Northwest Hawaiian Islands are an ecoregion par 
excellence, linked by ocean currents in a particular 
latitudinal zone with a certain coherence of inhabitation by 
animals and plants and so on, a commonality of geologic history 
and so on and so on. Yes, indeed, I believe that.
    Mr. Gilchrest. Would you say the South Atlantic is one?
    Dr. Ogden. The southern ocean do you mean?
    Mr. Gilchrest. Actually, I am looking at eight regional 
fishery management areas as a curiosity, the South Atlantic 
Council or the Gulf Council.
    Dr. Ogden. I see. I see where you are going with it.
    Mr. Gilchrest. Adapting that with your idea of an 
ecoregion.
    Dr. Ogden. Absolutely, absolutely.
    Mr. Gilchrest. It would be ready this year, 3 years?
    Dr. Ogden. Well, I think at this level, Mr. Chairman, is a 
national goal of decadal strength. It is not going to be 
something that happens overnight. But I firmly believe that 
this is something that was intended by the ecosystem provisions 
of our Fisheries Management Act and is what is essentially 
required by some of the international law conventions which, of 
course, we have not firmly signed off on.
    Mr. Gilchrest. Now, you didn't come in to testify about 
this, but I'll ask you one more question. We are sort of in a 
different Subcommittee now. Anybody can pitch in here. I'm 
going to stretch the prerogative of the Chairman, I guess, 
because we didn't ask you to come in and talk about management 
councils.
    You don't have to answer, but if you have an idea in the 
coming week or so, give us a response. The question is: In the 
new reauthorization for the fisheries, the Magnuson-Stevens 
Act, we have a provision where we ask NOAA to do a 2-year study 
to collect data or to see what data is available to implement 
an ecosystem fisheries plan.
    In the legislation there is a 1-year additional study which 
we assume there will be a data vacuum of certain pieces of 
information. That 1 year additional study will be able to fill 
in that information about how to approach a fisheries plan from 
an ecosystem perspective.
    The third year, though, after 3 years, the beginning of the 
fourth year, we would pursue two pilot projects for an 
ecosystem fisheries plan in the Pacific and the Atlantic. Is 
that too long a timeframe? I was told yesterday that I am going 
too slow on that.
    Dr. Ogden. I think it is a very ambitious idea. I think the 
2-year time period is enough to assemble the existing 
information and put it in appropriately geo-referenced formats 
and so forth. This information that is alleged is larger than 
we suspect because it is so scattered in different places.
    I think that would seem to me about the right timetable for 
what I would consider to be an ambitious, may I say, first step 
in what will be a much longer process, I think, to come to what 
I would call an ocean-use plan in the end by merging, let us 
say, regional plans which have at their core this sort of a 
design philosophy.
    Mr. Gilchrest. Thank you. Anybody else? Yes, sir.
    Dr. Buddemeier. I agree with John's comment that that is 
about the right kind of time scale for an effort of this 
magnitude, but I would like to suggest that we have to be very 
careful about the usual problem that we run into that the best 
is the enemy of the good.
    We are dealing with a very urgent issue, in spite of the 
long time horizons on it. The usual process of two or 3 years 
to study something, make a recommendation, sell it, fund it, 
start it, I think just doesn't cut it any more. I think part of 
the answer to that can lie with the examples that Alan Strong 
gave us.
    We have been finding, I and some other related projects, 
that doing the assembly and the preliminary interpretation of 
these things in a public and transparent fashion, essentially 
of involving the community, by not waiting until you have it 
all done and reviewed and peer reviewed and published, but of 
responsibly putting up things as you go along to solicit other 
inputs, to solicit ideas, can greatly accelerate the process of 
coming to not only a conclusion, but consensus.
    I think some modifications in the way we go about doing our 
planning and implementation business could have some very 
salutary effects. The example is the rapid information delivery 
over the Internet.
    Mr. Gilchrest. You are saying the timeframe is right, but 
the manner in which the research is conducted is critical to 
include --
    Dr. Buddemeier. Yes. I am suggesting that to look, what was 
it, three or 4 years ahead on something like this is 
reasonable, but not for just getting the plan. The plan ought 
to be done in such a way that the result has been developed as 
a consensus and sort of pre-sold and ready to move into 
actually implementation at the end of that time.
    We haven't usually done that in the past, I don't think.
    Mr. Gilchrest. We would like to move into implementation at 
the end of the third year. That is in the statute, or we hope 
it is in the statute if we can get the bill passed. But any 
input that you might have on moving in that direction, I would 
like to stay in touch. As I said in the beginning, the GAO 
report on what is merit and what is hyperbole here in Congress, 
to get something passed, you need both, a lot of BS to get 
stuff passed around here and hope the underlying facts are 
correct.
    I know everybody is anxious to get to lunch and we all have 
other things to do. I just have a series of quick questions 
that I would appreciate your response to. Anybody can jump in 
at any point.
    Is there any evidence at all that coral reefs can adapt to 
what seems to be a predictable increasing warming ocean?
    Dr. Buddemeier. If I may jump in on this, yes, there is at 
least inference, if not evidence, in the geologic record and in 
the history of what we know about reefs. Whether they can adapt 
to the rates of change that are currently going on is a 
significant question.
    I think one of the things that needs to be recognized, you 
asked it earlier. ``Can they been saved?'' is the way I think 
you put it to the previous panel. My answer to that is not all 
of them and probably almost certainly not in the exact form 
that we now see them.
    However, we know that the organisms that make up the reefs 
have evolutionary histories that go back a long way, including 
even before the period of relative climate stability. So, there 
is some reasonable hope that these organisms and their 
communities in some form can survive. There are some mechanisms 
by which it might happen. We don't know whether it will or not.
    Dr. Strong. Mr. Chairman, if I may, we have been involved, 
as you are aware, I think, with the Great Barrier Reef and our 
colleagues through an MOU that we have with them at NOAA, in 
not only watching those reefs very carefully where they are 
managed, they would say, very well.
    I am sure we look forward to how we can copy some of we had 
to they are doing there. In the most recent bleaching event, I 
think there is a press release that came out just a few days 
ago from them and I think NOAA, somebody was talking yesterday 
about echoing something over here in our country where there 
seems to be recovery. I mean these bleaching events we have had 
in the past, there has been recovery.
    The take-home message, though, is that often, like in 
Belize, for example, when there is recovery it is often 
different. The diversity is frequently less than it had been in 
the past. And so there are some changes that we are having to 
look at.
    Mr. Gilchrest. Once the bleaching starts, the recovery 
happens because the water turns a little cooler or if the water 
doesn't turn cooler, can they quickly adapt to bleaching or is 
it --
    Dr. Strong. As the water cooled and summer was no longer is 
South America in March and April, as the waters cooled and the 
mixing of the currents got robust again recovery was noted. The 
bleaching dissipated and many recovered. Now, we are going to 
hear over the next year or two, they say, this is a large area 
to monitor, just how well it recovered. They were surprised in 
1998 just how well it recovered then. There was some reports 
that said it was almost better. But there was scientists that, 
of course, had different opinions. Obviously, to monitor the 
whole reef and every coral is virtually impossible.
    But there is recovery. But as I say, the important thing to 
know is that the diversity often is less. In some of these 
reefs like Palau where there is almost total devastation, they 
haven't gotten back to where they were.
    Mr. Gilchrest. No. Dr. Cohen, I think made a comment 
earlier that the change is happening at such a rate that for 
the corals to adapt is not likely.
    Dr. Strong. And they need a recovery time. If another 
episode comes along from another weather event, coupled with an 
El Nino or however the next reversal in the Pacific Decadal 
Oscillation affects it, there may not be sufficient time to 
recover. That is the concern that we have. We haven't talked 
about a response team to try to get out there.
    Mr. Gilchrest. What can a response team do once they go out 
there?
    Dr. Strong. Well, this was done, for example, in 1994 in 
Tahiti when we were first starting to report some of these 
downtown and on the Hill. Tahiti had an episode that was pretty 
dramatic at that time, nothing like '98. There was a way 
through, I believe it was the State Department where something 
was organized and they got people in the field quickly 
monitoring not only what had happened, but then afterwards the 
follow-up, so the scientists can learn which corals are 
resilient.
    Mr. Gilchrest. You can't go down there with an iceberg or 
anything like that?
    Dr. Strong. That has often been my line, yeah, if we had 
some icebergs to bring in. What we need to know and what we are 
learning, too, is that the circulation is in these marine 
parks, these affected areas, to know that circulation. Because 
there will be some areas in the reef, as we found out from the 
Great Barrier Reef Example, the circulation from the tidal 
mixing which happens naturally thanks to the moon and the sun 
and where we are, there will be some areas in these reefs where 
the recovery is not only quick or maybe bleaching didn't occur 
because there was so much mixing and upwelling.
    To know and to ID those areas and to make sure we protect 
those regions so they can enhance and seed the areas is very 
important and we are just learning this.
    Mr. Gilchrest. Dr. Cohen, in the Red Sea, the slides that 
you showed where it was in good shape, bleaching was starting 
and in only a few months that whole coral reef apparently just 
died. Now, the reason, was that an exceptionally long period of 
time where the water stayed warm? Does that occur in other 
places? Was that different kinds of coral that had no chance of 
adapting to that or tidal fluctuations had no impact? Is that 
area now dead forever, I mean the next thousand years for 
coral?
    Dr. Cohen. Mr. Chairman, as Dr. Strong was emphasizing in 
his last comment, there are a series of conditions that combine 
together to induce mortality on the reefs due to bleaching. 
While bleaching is a natural process and it has happened 
before, in isolated coral communities, isolated events in time.
    It is almost an onslaught of bleaching events in the last 
two decades that is causing the level of concern that we have 
right now. The pictures that I showed were an extreme bleaching 
event in the Red Sea due to extremely high temperatures and 
prolonged high temperatures over a period of several months.
    That final photograph in that series of slides, those 
corals were dead. They had lost their polyps and algae stopped 
growing over the corals and there is no chance of them 
recovering. There are certain species that Dr. Strong 
indicated. Some species, especially in shallow waters, are more 
vulnerable to bleaching than species which occupy deeper 
waters.
    Mr. Gilchrest. Thank you. Are El Nino events becoming more 
frequent?
    Dr. Strong. In the '90's, as a NOAA representative here, 
they certainly were more frequent, I think than we had seen in 
a number of decades. I will remind you that when I first came 
aboard NOAA or soon afterwards, I was sent down to South 
America. We were talking to people down there because NOAA 
didn't know that much about El Ninos.
    In fact, in the early '80's when we had a major El Nino, it 
was like, ``El Nino, well that won't affect the weather. We 
don't need to worry about that.''
    Look where we are now.
    Mr. Gilchrest. Is climate change having an effect on El 
Nino?
    Dr. Strong. That is the question of the day. El Nino has 
been noted, at least in reports I have read, to go through 
episodic behavior where it beats at a certain frequency for a 
while and then changes. It is sort of like paleo information 
tells us over the past.
    Mr. Gilchrest. Does some of the information you gave us 
this morning show significant changes in the climate that have 
either never been recorded or haven't been recorded for a 
million years and using the principle of uncertainty, based on 
this brand new era that we are moving into where we could to 
some extent understand and predict the natural fluctuations of 
the natural environment, now we are moving into an arena where 
those predictions are virtually off the table because of the 
consequences of CO2 and those other greenhouse gases in the 
last 50 to 100 years.
    The specific problems of El Nino or, I think, either Dr. 
Buddemeier or Dr. Strong mentioned the conveyor belt of the 
ocean, I would think that the government, which I guess I 
represent, my daughter will often say it is the government's 
fault and I will say, ``You are looking at the government.''
    There seems to be a need for a bold statement by an 
integrated group of people to alert the people to, yes, there 
are some potential changes of big magnitude. So often we rally 
quickly to retain the Pledge of Allegiance and we get on the 
House steps and we do and we make these very distinct, bold 
statements, while the world is going to hell in a hand basket, 
because it is a little bit more complicated to make these other 
statements.
    I apologize for rambling.
    Dr. Buddemeier. You have that permission.
    Mr. Gilchrest. Thank you.
    Dr. Buddemeier. If I may, that is the question that all 
scientists are asking, how El Nino, what role does it play and 
how will it be affected in global change models over time? If 
we had those answers and if the global change models in fact 
could tell us when El Ninos were going to occur, wow, everybody 
would have a lot of confidence in exactly where we are going.
    Right now we are still trying to understand how it relates. 
That is why NOAA finally, for the first time this year, has 
come out and is making a forecast for El Nino. It is not easy. 
You probably heard of chaos theory. The advocates of chaos 
theory say there is a lot of that that plays into it.
    Again, it is back to intimately knowing everything that is 
going on in our ocean realm and as we get better at that 
through in situ and through satellite data, I think we are 
going to find those keys and we may find out that PDO has a 
major activity or a major input into insular events, which also 
then tie into the conveyor belt that may connect all the oceans 
that I knew as a kid when I was in grad school that there must 
be some connectivity or rhythm, but it was hardly addressed.
    Mr. Gilchrest. Do you know or might you know as a result of 
some of these new research techniques--I am sorry. Were you 
going to say something, Dr. Cohen? Go ahead.
    Dr. Cohen. Yes, Mr. Chairman, I do have a comment to make 
regarding the changing in the pattern of El Nino. At least in 
the instrumental record we can see that prior to 1975, exactly, 
El Nino would occur at a rate of between three and 7 years and 
last maybe a year or two. After 1975, the frequency of 
recurrence increased dramatically and the longevity of each 
individual event, that means the warming continued, lasts much 
longer.
    We have a few, and I emphasize very few, paleoclimate 
records which can tell us about what El Nino was doing prior to 
the start of instrumental recordings. But we do have a record 
from the Galapagos, actually a coral-based record that shows us 
the past 400 years of El Nino behavior and at least in the past 
400 years there has been nothing like what we have seen post-
1975.
    It is difficult at the moment. I guess our mathematical 
models, or we don't know enough, as Dr. Strong was saying, to 
predict on a year-to-year basis what El Nino is going to do 
next. But if we look at the record over a long period of time, 
we can definitely see that there is a trend, both in El Nino's 
pattern and in the Atlantic's El Nino, which we call the North 
Atlantic Oscillation. We see a definite trend and it is all 
since 1975.
    Mr. Gilchrest. Is there any way to get a handle, now or in 
the near future, on climate change and the effect of the ocean 
conveyor belt?
    Dr. Cohen. Mr. Chairman, I sat in a symposium just a week 
ago where climate modelers were actually suggesting that even 
if we switch off the conveyor belt, the impacts to global 
warming or global cooling may not be as massive as we expect. 
What we should be worried is melting over the west end ice 
sheet.
    As far as coral reefs are concerned, the increase in the 
frequency of El Nino and the North Atlantic Oscillation events. 
What we are doing is we are increasing the mean baseline 
temperature on top of which the El Nino exacerbates those 
temperatures.
    Mr. Gilchrest. So, El Nino and the North Atlantic 
oscillation, are they, and I would guess that they would be, 
changing because the earth is warming and then is that somehow 
connected or does that have a potential trigger for the 
conveyor belt, the ocean conveyor belt?
    Dr. Cohen. Mr. Chairman, there appears to be a feedback. 
What we can say is that there is a correlation between the 
change in the pattern of behavior of El Nino and the North 
Atlantic Oscillation and global warming and CO2 emissions. 
There is a direct correlation. The timing of the atmospheric 
circulation patterns and the timing of the increasing global 
temperatures and the increasing CO2 directly connected.
    But we also know that the more El Ninos there are, the 
higher the average global temperatures. So, there is a feedback 
between those processors.
    Mr. Gilchrest. Then there is increasing degradation of 
coral reefs as a result of El Nino?
    Dr. Cohen. As a result of El Nino superimposed upon an 
increase in the mean baseline temperatures. El Nino has been 
going on for a long time. Corals have seen El Ninos for 
thousands of years. What happens every time an El Nino hits the 
Pacific, we see an increase in the surface ocean temperature. 
The corals have lived through that.
    What we have done is we have raised the baseline climate 
temperature. So, rather than having a mean average temperature 
of 20 degrees, for example, on top of which an El Nino would 
add a one degree temperature increase, we now have a mean 
temperature of 23 degrees. So, when an El Nino hits, we get a 
temperature of 24 degrees and that is why the corals die.
    Mr. Gilchrest. That is extraordinary. I would like to, as 
we move through this process and see what we can do to increase 
appropriations, to see what we can do to further strengthen 
this Executive Order, to help establish money for new research 
techniques and ongoing research with the international 
community, and either establish or help go through a process to 
establish sanctuaries, corridors for marine protected areas, 
marine reserves and those kinds of things, and certainly try to 
understand the long term impacts of climate change and what we 
can do so that somebody in the future can benefit from us 
reversing that, working with our own Department of Energy.
    You have given us some extraordinary testimony here this 
afternoon to chew on and continue to work on. I appreciate all 
that you have contributed here.
    Is there any other comment that anyone would like to leave 
us with? Yes, sir.
    Dr. Buddemeier. If I may, I think that several points have 
come forward that respond potentially to some of your earlier 
questions that I have heard. You asked the agency 
representatives about budgetary issues.
    Looking at what I have seen today, I would say that one of 
the things that Congress could do would be to assist NOAA in 
moving forward at a much faster pace of putting out these 
towers that Dr. Strong referred to. 2006 is a long time from 
now. I see no reason why, with adequate funding, we couldn't 
have those in place in an improved research park-sanctuary 
situation by 2004.
    Similarly with respect to Interior and Fish and Wildlife, 
their capabilities of supporting the kind of monitoring and on-
going activities at their widespread and very valuable 
facilities. Again, these are not huge new initiatives. These 
are accelerations. These are augmentations.
    I think that these are the kinds of things, especially 
combined with much more broad-reaching information, outreach 
and a strong encouragement for agency as well as international 
and organizational cooperation, could make a very rapid impact 
on the state of play in this issue.
    Thank you.
    Mr. Gilchrest. Yes, sir, Dr. Buddemeier, well noted. Dr. 
Cohen, Dr. Strong, Dr. Buddemeier and Dr. Ogden, thank you all 
very much for coming. The hearing is adjourned
    [Whereupon, at 12:52 p.m. the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
